<html>
<title> - EMERGENCY PREPAREDNESS: ARE WE READY FOR A 21ST CENTURY HUGO?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
             EMERGENCY PREPAREDNESS: ARE WE READY FOR 
                         A 21ST CENTURY HUGO?

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON OVERSIGHT
                       AND MANAGEMENT EFFICIENCY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 21, 2014

                               __________

                           Serial No. 113-90

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                     

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                               
                         U.S. GOVERNMENT PUBLISHING OFFICE
93-648 PDF                     WASHINGTON : 2015                             

_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3057405f705345434458555c401e535f5d1e">[email&#160;protected]</a>  






                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Filemon Vela, Texas
Lou Barletta, Pennsylvania           Eric Swalwell, California
Richard Hudson, North Carolina       Vacancy
Steve Daines, Montana                Vacancy
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Curtis Clawson, Florida
                   Brendan P. Shields, Staff Director
                   Joan O'Hara, Acting Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

          SUBCOMMITTEE ON OVERSIGHT AND MANAGEMENT EFFICIENCY

                 Jeff Duncan, South Carolina, Chairman
Paul C. Broun, Georgia               Ron Barber, Arizona
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Richard Hudson, North Carolina       Beto O'Rourke, Texas
Steve Daines, Montana, Vice Chair    Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (Ex             (Ex Officio)
    Officio)
               Ryan Consaul, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
           Tamla Scott, Minority Subcommittee Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Jeff Duncan, a Representative in Congress From the 
  State of South Carolina, and Chairman, Subcommittee on 
  Oversight and Management Efficiency............................     1
The Honorable Ron Barber, a Representative in Congress From the 
  State of Arizona, and Ranking Member, Subcommittee on Oversight 
  and Management Efficiency:
  Prepared Statement.............................................     6
The Honorable Mark Meadows, a Representative in Congress From the 
  State of North Carolina........................................     5

                               WITNESSES
                                Panel I

Mr. Robert J. Fenton, Jr., Acting Deputy Associate Administrator, 
  Office of Response and Recovery, Federal Emergency Management 
  Agency, U.S. Department of Homeland Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. Jeffrey L. Payne, Ph.D., Acting Director, Coastal Management, 
  National Oceanic and Atmospheric Administration:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
Major General Robert E. Livingston, Jr., Adjutant General, State 
  of South Carolina:
  Oral Statement.................................................    21
  Prepared Statement.............................................    22
Mr. Kim Stenson, Director, Emergency Management Division, State 
  of South Carolina:
  Oral Statement.................................................    25
  Prepared Statement.............................................    26
Sheriff John S. Skipper, Jr., Sheriff, Anderson County, South 
  Carolina:
  Oral Statement.................................................    30
  Prepared Statement.............................................    32

                                Panel II

Dr. Clifton R. Lacy, Director, Institute for Emergency 
  Preparedness and Homeland Security, Rutgers University:
  Oral Statement.................................................    46
  Prepared Statement.............................................    48
Mr. Jim Bottum, Chief Information Officer and Vice Provost, 
  Computing and Information Technology, Clemson University:
  Oral Statement.................................................    52
  Prepared Statement.............................................    54
Mr. Thomas Louden, General Secretary, North and South Carolina 
  Division, The Salvation Army:
  Oral Statement.................................................    63
  Prepared Statement.............................................    65
Mr. Jason O. Hallstrom, Ph.D., Deputy Director, Institute of 
  Computational Ecology, Clemson University:
  Oral Statement.................................................    69
  Prepared Statement.............................................    70
Mr. Emily Bentley, J.D., Associate Professor, Homeland Security 
  and Emergency Management Program, Savannah State University:
  Oral Statement.................................................    72
  Prepared Statement.............................................    75

                             FOR THE RECORD

The Honorable Jeff Duncan, a Representative in Congress From the 
  State of South Carolina, and Chairman, Subcommittee on 
  Oversight and Management Efficiency:
  Article, CNN.com...............................................     3


     EMERGENCY PREPAREDNESS: ARE WE READY FOR A 21ST CENTURY HUGO?

                              ----------                              


                       Friday, November 21, 2014

             U.S. House of Representatives,
                     Subcommittee on Oversight and 
                             Management Efficiency,
                            Committee on Homeland Security,
                                                       Clemson, SC.
    The subcommittee met, pursuant to call, at 1:02 p.m., in 
Tillman Hall, Clemson University, 101 Gantt Circle, Clemson, 
South Carolina, Hon. Jeff Duncan [Chairman of the subcommittee] 
presiding.
    Present: Representatives Duncan and Meadows.
    Mr. Duncan. I appreciate the effort taken on behalf of all 
of those involved to have this important field hearing. This is 
an official Congressional hearing, as opposed to a town hall 
meeting. As such, we must abide by certain rules of the 
Committee on Homeland Security and of the United States House 
of Representatives.
    I kindly wish to remind our guests today that 
demonstrations from the audience, including applause and verbal 
outbursts, as well as use of signs or placards, are violations 
of the rules of the House of Representatives. It is important 
that we respect the decorum and the rules of this committee. I 
have also been requested to state that photography and cameras 
are limited to accredited press only.
    I ask unanimous consent that the gentleman from North 
Carolina, Mr. Meadows, be allowed to sit on the dais and 
participate in today's hearing.
    Without objection, so ordered.
    I now recognize myself for an opening statement.
    September 21 marked the 25th anniversary of Hurricane Hugo, 
the most devastating disaster to affect South Carolina in the 
past century. The storm hit the Lowcountry with an 
unprecedented ferocity. It was responsible for 49 deaths and 
the equivalent of over $13 billion in damage, adjusted for 2014 
dollars, and displacing 60,000 people from their homes.
    Hugo required a major response, for which South Carolina 
was unprepared. However, the ordered evacuation of 250,000 
would pale in comparison to what would be needed today. Over 1 
million now live in the area that Hugo threatened.
    Fortunately, South Carolina State and local first 
responders are better prepared and equipped to handle a variety 
of emergencies today. For example, just last month, the South 
Carolina Emergency Management Division organized a major drill 
to prepare for the threat of earthquakes in the State. Over 
277,500 people signed up to participate in what was called the 
Great SouthEast ShakeOut Earthquake Drill.
    Such events are an important way for our citizens to become 
better prepared and develop plans needed to respond to 
potential disasters.
    Major General Robert Livingston, who we are honored to have 
as a witness at our hearing today, has said that South 
Carolina's National Guard has much more advanced tools at its 
disposal to respond than when Hugo made landfall 25 years ago. 
Specifically, the Guard has increased aviation assets and 
engineering capabilities.
    South Carolina's Emergency Management Division has also 
increased its planning efforts to be more proactive than we 
were in the days of Hugo.
    Today, our first responders face an array of new threats, 
however. The days of only preparing for natural disasters like 
hurricanes, floods, and earthquakes are behind us. Most 
recently, we have seen disturbing images from the State of 
Texas of local law enforcement quarantining homes to prevent 
the spread of Ebola. The administration's failure to 
effectively stop the spread of Ebola to the United States has 
put a significant amount of pressure on State and local 
responders to ensure that they have plans and training in place 
to deal with possible public health threat emergencies.
    Yet, even the Department of Homeland Security, the agency 
responsible for screening foreign travelers entering the United 
States, has failed to effectively manage pandemic preparedness 
supplies for its workforce, such as personal protective 
equipment and antiviral medical countermeasures, according to a 
recent Inspector General report.
    The Federal Government's ineptitude has shown that our 
State and local first responders must be prepared to handle 
threats even half a world away, like Ebola.
    In addition to living in a world where foreign viruses are 
only a flight away, we are increasingly interconnected through 
the internet. The director of FBI, James Comey, recently called 
the cyber threats facing our Nation ``an evil layer cake'' of 
nation-state actors, organized cyber syndicates, hacktivists, 
criminals, and even pedophiles.
    How does this involve emergency preparedness? As the number 
of cyber attacks impacting Americans increase, Federal, State, 
and local officials need to be prepared to respond to the 
virtual aftershocks that follow.
    There is a CNN story that came out yesterday, ``The U.S. 
Government thinks China could take down the power grid.'' It 
was quoted that the director, Admiral Michael Rogers, the 
director of U.S. Cyber Command, said the United States has 
detected malware from China that enables you to shut down very 
segmented, very tailored parts of our infrastructure that 
forestall the ability to provide that service to us as 
citizens.
    I would like to enter this in the record.
    Without objection, so ordered.
    [The information follows:]
        Article Submitted For the Record by Chairman Jeff Duncan
    the u.s. government thinks china could take down the power grid
By Jamie Crawford, National Security Producer, updated 6:57 PM EST, Thu 
        November 20, 2014, CNN.com
    Washington (CNN).--China and ``probably one or two other'' 
countries have the capacity to shut down the nation's power grid and 
other critical infrastructure through a cyber attack, the head of the 
National Security Agency told a Congressional panel Thursday.
    Admiral Michael Rogers, who also serves the dual role as head of 
U.S. Cyber Command, said the United States has detected malware from 
China and elsewhere on U.S. computers systems that affect the daily 
lives of every American.
    ``It enables you to shut down very segmented, very tailored parts 
of our infrastructure that forestall the ability to provide that 
service to us as citizens,'' Rogers said in testimony before the House 
Intelligence Committee.
    Rogers said such attacks are part of the ``coming trends'' he sees 
based on ``reconnaissance'' currently taking place that nation-states, 
or other actors may use to exploit vulnerabilities in U.S. cyber 
systems. 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Cyber attacks hit State Dept. email, web
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Snipers attack U.S. electrical grid
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

NYT: NSA bugged devices without internet

    A recent report by Mandiant, a cyber-security firm, found that 
hackers working on behalf of the Chinese government were able to 
penetrate American public utility systems that service everything from 
power generation, to the movement of water and fuel across the country.
Related: Mandiant--China is sponsoring cyber espionage
    ``We see them attempting to steal information on how our systems 
are configured, the very schematics of most of our control systems, 
down to engineering level of detail so they can look at where are the 
vulnerabilities, how are they constructed, how could I get in and 
defeat them,'' Rogers said. ``We're seeing multiple nation-states 
invest in those kinds of capabilities.''
    Admiral Rogers declined to identify who the other countries, beside 
China, because of the classified nature of their identities. Russia is 
generally regarded as also having an aggressive cyber program.
    In addition to nation-state actors, Admiral Rogers noted the 
increasing presence of ``surrogate'' criminal actors in cyberspace that 
serve to obscure the hidden hand of criminal activity done on behalf of 
formal nation-states.
    ``That's a troubling development for us,'' Rogers said.
    Rep. Mike Rogers, R-Michigan, the retiring chairman of the 
committee, called the groups ``cyber hit men for hire'' for nation-
state actors in cyberspace.
    The testimony also comes in the wake of a report from the Pew 
Internet and American Life Project that cited a prediction by 
technology experts that a catastrophic cyber-attack that causes 
significant losses in life and financial damage would occur by 2025.
Related: Catastrophic cyber attack looms
    Admiral Rogers told the committee he did not disagree with the 
assessment.
    In addition to the threats from specific nation-states, Admiral 
Rogers said there are already groups within the U.S. cyber architecture 
who seek to cause major damage to corporate and other critical sectors 
of the American economy.
    ``It is only a matter of the when, not the if, that we are going to 
see something traumatic,'' he said.

    Mr. Duncan. In South Carolina, we have experienced a hack 
and theft of personal information from the South Carolina 
Department of Revenue. These cyber threats don't simply 
threaten businesses and individuals that use the internet. When 
increasingly everything is connected to information systems and 
the internet, even the protection of facilities is at risk to 
cyber attacks.
    Energy, the U.S. energy infrastructure is divided into 
three interrelated segments: Electricity, petroleum, and 
natural gas. Virtually all industries rely on electric power 
and fuels, and much of our daily lives depend on a safe, 
stable, and resilient cyber space of networks to communicate 
and travel, run our economy, power our homes, and provide 
Government services.
    Specifically, facilities containing building and access 
control systems, such as heating, ventilation, air-
conditioning, electronic card readers, and closed-circuit 
camera systems, could be vulnerable due to their connectivity 
to other networks and the internet.
    For example, in 2009, a Dallas-area hospital security guard 
loaded a malicious program into the hospital system. Court 
records show that this breach could have affected patients' 
medications and treatments.
    The Department of Homeland Security needs a strategy to 
prepare for unforeseen threats like these. When the Federal 
Government fails to effectively prepare, State and local 
officials must pick up the slack.
    I am very excited to hold today's hearing here at Clemson 
University, and I am grateful to the distinguished witnesses 
for testifying.
    We can't predict when or where a 21st Century Hugo might 
hit us, but I am confident that the testimony from today's 
panels can help us become more prepared for a variety of 
emergencies that we face.
    So we are pleased to have two distinguished panels of 
witnesses today. What I would like to do is introduce each of 
the witnesses, and then I will come back and recognize them in 
order for their opening testimony.
    I am going to recognize Mr. Meadows for an opening 
statement.
    Mr. Meadows. I wanted to just say thank you, gentlemen, for 
being here. I truly thank the Chairman for his leadership on 
this particular issue. It is not one that makes headlines, as I 
shared with you earlier. When you prepare for things, that is 
how you make sure that you don't make headlines.
    So I applaud each of you for being here, for the effort 
that is really from Federal down to local, whether it is with 
the Federal level with NOAA or FEMA; or the State level with 
our National Guard or, certainly, from a State EMS point of 
view; to the local level sheriff, where you actually have to 
make sure it gets implemented and coordinated here.
    The American people don't know the difference. When 
something happens, they just want help, and they will reach out 
to whomever. When you get in turf battles at times, when you 
get in deployment battles, how do we best handle this, proper 
preparation right now will make sure that the American people 
are served much better later.
    So I thank each of you.
    I thank the gentleman for yielding, and I yield back.
    Mr. Duncan. Okay. Thank you, Mr. Meadows, for 
participating. Other Members are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Barber follows:]
                 Statement of Ranking Member Ron Barber
                           November 21, 2014
    Thank you, Chairman Duncan, for holding this field hearing to 
examine the status of emergency preparedness in South Carolina and the 
surrounding region.
    Given South Carolina's experience with Hurricane Hugo in 1989 and 
the State's extensive coastal regions, it is critical that attention be 
paid to how effectively Federal, State, and local emergency 
preparedness agencies are coordinating their efforts before potential 
hurricanes and other disasters occur.
    I hope that the witnesses will address how well FEMA has progressed 
in implementing the reforms contained in the Post-Katrina Emergency 
Management and Reform Act of 2006, and will discuss the impact of this 
legislation on South Carolina.
    Also, I am interested to learn more about NOAA's efforts to 
proactively engage South Carolina's emergency preparedness agencies in 
fostering resilience, and in developing ``pre-covery'' strategies to 
assist communities at risk from hurricanes and other potential 
disasters.
    In 2014, FEMA released the National Preparedness Report containing 
31 core capabilities identified as being critical to Congress' 
evaluation of compliance with the Post-Katrina Emergency Management and 
Reform Act of 2006.
    Unfortunately, for the third consecutive year, the National 
Preparedness Report has identified disaster housing, infrastructure 
systems, and health and human services to be among the lowest-ranked 
capabilities in surveys completed by States.
    I look forward to hearing the witnesses discuss what actions the 
Federal Government and its State partners are taking to address these 
capability gaps, and any barriers that exist to improving recovery-
related capabilities.
    Thank you and I yield back the balance of my time.

    Mr. Duncan. Our first witness today on Panel One is Mr. 
Robert Fenton. He currently serves as the acting deputy 
associate administrator in the Office of Response and Recovery 
at the Federal Emergency Management Agency, or FEMA. 
Previously, Mr. Fenton served as the assistant administrator 
for response and was responsible for coordinating the Federal 
response in support of States during major disasters.
    Our second panelist is Dr. Jeffrey Payne, acting director 
of the National Oceanic and Atmospheric Administration's Office 
for Coastal Management. Dr. Payne previously served as the 
deputy director of NOAA's Coastal Services Center, where he led 
the Southeast and Caribbean regional team, which provided NOAA 
services to the Southeast Region States.
    Our third panelist is Major General Robert Livingston. He 
is the Adjutant General of South Carolina. In this position, he 
is responsible for raising, training, and administrating South 
Carolina Army and Air National Guard. As a senior military 
adviser for the Governor of South Carolina, he is responsible 
for military operations within the State of South Carolina and 
State emergency management.
    Our next panelist, Mr. Kim Stenson, was named director of 
the South Carolina Emergency Management Division in 2013. Under 
his direction, the division provides oversight and coordination 
for emergency and disaster consequence management planning and 
response and recovery operations for the State of South 
Carolina. Mr. Stenson is also responsible for coordination with 
emergency managers at the local and National level.
    The last witness is Sheriff John Skipper. He serves as the 
sheriff of Anderson County, South Carolina. In this capacity, 
Sheriff Skipper is an elected constitutional officer and the 
chief law enforcement officer for Anderson County, operating 
one of the largest sheriff offices in South Carolina.
    As a side personal note, Sheriff Skipper is sporting a 
beard for No-Shave November in support of prostate and 
pancreatic cancer awareness. He and--how many officers?
    Sheriff Skipper. One hundred and thirty.
    Mr. Duncan. He and 130 officers within the Anderson County 
Sheriff's Department are also doing that.
    Last year at this time, I sported a beard for the same 
reason, and I thank you for that. I had a sister-in-law that 
died of pancreatic cancer. A lot of my dear friends have 
suffered with prostate cancer, so thank you for supporting 
those efforts.
    So I want to thank all of you for being here today, and the 
Chairman will now recognize Mr. Fenton to testify for 5 
minutes.
    You will notice lights on the table that will indicate the 
end of the 5 minutes. If you can get to a wrap-up, we will 
appreciate it.
    Mr. Fenton.

  STATEMENT OF ROBERT J. FENTON, JR., ACTING DEPUTY ASSOCIATE 
    ADMINISTRATOR, OFFICE OF RESPONSE AND RECOVERY, FEDERAL 
   EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Fenton. Chairman Duncan, Representative Meadows, and 
colleagues, thank you for the opportunity to testify today on 
behalf of the Department of Homeland Security Federal Emergency 
Management Agency. I am Robert J. Fenton, and I am the deputy 
associate administrator for FEMA's Office of Response and 
Recovery. I have been in FEMA for 18 years, spending about 75 
percent of that time working in the field closely with State, 
local, Tribal, and territorial governments across the country.
    Having responded personally to over 50 disasters, including 
9/11, Hurricane Katrina, and Sandy, I have learned that whether 
we are responding to devastating effects of hurricanes like 
Hugo or responding to other natural or man-made disasters, such 
as cyber attacks, the resiliency of our Nation and its ability 
to respond to and recover from disasters begins with not only 
resiliency but the whole community preparedness.
    With that in mind, FEMA is a very different organization 
today than it was 25 years ago. With implementation of 
legislation such as the Stafford Act, Homeland Security Act, 
Post-Katrina Reform Act, and Sandy Recovery Improvement Act, as 
well as Executive Orders and direction from Presidential Policy 
Directive 8, FEMA has been given authorities to ensure a 
better-qualified and ready workforce.
    We are now better able to support the whole community, 
including providing direct support to our State and local 
partners to better mitigate, prepare for, respond to, and 
recover from all hazards.
    Today, I will discuss the progress FEMA has made in 
supporting National preparedness capability of State and local 
governments through our grants program; the joint development 
of plans to ensure ability to respond to all hazards; and the 
validation of those plans through exercises, as further 
explained in my written testimony.
    Over the last 10 years, DHS has provided State, local, 
Tribal, and territorial governments with billions of dollars in 
grant funding, and much progress has been made, thanks to the 
leadership at the State, local, Tribal, and territorial 
government levels who have utilized FEMA's grant programs. 
These grants have helped the Nation build and enhance 
capabilities by acquiring needed equipment, funding for 
training opportunities, developing preparedness and response 
plans, and conducting exercises that build relationships across 
city, county, and State lines.
    A key element of the National preparedness system is 
planning. Under Presidential Policy Directive 8, FEMA is 
mandated to maintain the National response plan and the 
National Disaster Recovery Framework, as well as developing and 
coordinating operational plans to execute those frameworks.
    FEMA does this by coordinating jointly with States and 
Federal partners to align our concepts of operation for all 
hazards. The Federal Interagency Operational Plans, referred to 
as FIOPs, at the National level and the regional hazard plans 
outline how the Federal Government executes the National 
response and recovery frameworks. These all-hazard plans are 
structured to address the maximum planning factors for the 
Nation or any given region.
    When necessary, instance-specific answers describing the 
unique capabilities, requirements, coordination constructs 
required to address specific risks that are not otherwise 
addressed in those plans--such as nuclear, radiological, oil, 
chemical, or biological incidents--are developed.
    An example of a planning effort that FEMA has worked with 
the State of South Carolina is 2012 Region IV's operational 
plan. This plan identified the critical actions and tasks to be 
undertaken between FEMA and our State counterparts and other 
Federal agencies if an actual or anticipated tropical cyclone 
would occur.
    FEMA designs, develops, conducts, and evaluates exercises 
intended to help ensure FEMA's operational readiness and 
validate FEMA interagency plans and exercises in support of 
FEMA's ability to accomplish its mission by evaluating and 
maintaining readiness of Federal capabilities to successfully 
respond to all hazard incidents and providing objective base 
results to core capabilities.
    FEMA exercises must be able to validate our capabilities to 
respond to any hazard. An example of FEMA's participation is 
that July 2015 Southern Exposure Exercise taking place in 
Florence, South Carolina. This scenario involves a nuclear 
power plant incident resulting in a release of radiological 
material and provides the opportunity to validate nuclear 
radiological incident and acts in support of the State of South 
Carolina during and after a nuclear power plant incident.
    To conclude, while FEMA has made important strides and 
progress since Hugo, we still have much work to do. I am 
confident with the additional authorities Congress has 
provided, and the emphasis on whole community approach to 
emergency management, a growing and more skilled workforce, and 
lessons learned from disasters over those years, FEMA will 
continue to be an agile, innovative agency for many years to 
come.
    Again, thank you, Chairman Duncan, for providing me the 
opportunity to appear before you today to discuss emergency 
preparedness for the 21st Century, and I look forward to 
answering questions from you or other Members as we go forth. 
Thanks.
    [The prepared statement of Mr. Fenton follows:]
                 Prepared Statement of Robert J. Fenton
                           November 21, 2014
                              introduction
    Chairman Duncan, Ranking Member Barber, and other distinguished 
Members of this subcommittee, thank you for the opportunity to testify 
today on behalf of the Department of Homeland Security's (DHS) Federal 
Emergency Management Agency (FEMA). I am Robert J. Fenton, and I 
currently serve as the acting deputy associate administrator for FEMA's 
Office of Response and Recovery.
    Over the years, FEMA Headquarters and its regional offices have 
worked closely with State, local, Tribal, and territorial governments 
across the country, and with faith-based organizations, to develop 
catastrophic, worst-case scenario plans that are flexible and scalable 
for incidents of all magnitudes. FEMA's on-going partnerships with 
States allow coordination and collaboration with the ``whole 
community'' to plan and prepare for a range of disaster events.
    As this subcommittee is aware, this year marks the twenty-fifth 
anniversary of Hurricane Hugo. Its impact on the State of South 
Carolina and surrounding States was a harbinger for even more 
destructive and costlier hurricanes to hit our shores--including 
Hurricanes Andrew, Katrina, Rita, Wilma, and Sandy. When Hurricane Hugo 
hit the Southeastern region of the United States, FEMA was a relatively 
young agency--10 years in existence--with limited experience, exposure, 
and practice with catastrophic disasters.
    Today, FEMA is a very different organization than it was 25 years 
ago. With more statutory authorities, a better skilled, experienced, 
and agile workforce, a keen focus on a whole community approach to 
emergency management, and the advent of social media and other 
technologies, FEMA is transforming the way in which our Nation prepares 
for, responds to, and recovers from all hazards.
                             hurricane hugo
    Hurricane Hugo made landfall just north of Charleston, South 
Carolina, at midnight September 21, 1989, as a Category 4 hurricane 
with 135 mph winds, and rolled through South Carolina on a northwest 
path. The storm's strong winds extended far inland and storm surge 
inundated the South Carolina coast from Charleston to Myrtle Beach. 
Hours later, the storm tore through much of North Carolina. It was the 
strongest hurricane on record to hit South Carolina, and the second-
strongest hurricane--since reliable records began in 1851--to hit the 
Eastern seaboard north of Florida.
    More deadly and destructive than Hurricane Hugo's 135 mph winds 
were the surging tides accompanying landfall. The combination of high 
tide, the tidal surge preceding Hugo and waves generated by the storm 
inundated a wide area of coastal plain. In Charlotte, North Carolina, 
hundreds of miles inland, residents lost power for up to 18 days as 
thousands of trees, broken limbs, and debris severed power lines. In 
South Carolina alone, FEMA provided $70 million to individuals and 
families for housing and other disaster-related expenses and $236 
million for debris removal, public utility and infrastructure repair or 
replacement, and emergency protective measures. According to the 
National Weather Service, Hurricane Hugo was the costliest hurricane on 
record to hit the United States at the time.
              how fema is transforming in the 21st century
I. Whole Community Approach to Emergency Management
    Hurricane Hugo, like many other disasters, draws our communities 
even closer together and catalyzes the actions of not only our Federal, 
State, and local governments, but also the private sector, ordinary 
citizens, and many other sectors of society. Thus, preparedness is a 
shared responsibility, and it calls for the involvement of everyone in 
preparedness efforts. The three core principles of whole community--
understanding and meeting the actual needs of the whole community, 
engaging and empowering all parts of the community, and strengthening 
what works well in communities on a daily basis--provide a foundation 
for pursuing a whole-community approach to emergency management through 
which security and resiliency can be attained.
    In 2007, FEMA created a Private Sector Division in the Office of 
External Affairs and put private-sector liaisons in each of the FEMA 10 
regions. Private-sector specialists at headquarters, the regions, and 
joint field offices serve as a gateway to private-sector engagement and 
integration.
    Furthermore, the division also runs the National Business Emergency 
Operations Center (NBEOC), to facilitate public-private information 
sharing and situational awareness with operational partners during 
major disasters. The NBEOC is a virtual organization and currently has 
377 members from both the private and public sectors.
    Building on our whole-community efforts, in 2012, FEMA created a 
``seat at the table'' for the private sector through our Private Sector 
Representative Program. To date, we have had representation from 9 
companies, 1 academic institution, and 1 non-governmental organization 
(NGO). FEMA regions have begun implementing the program as well--
including Region IV which supports the Southeastern region, including 
the State of South Carolina.
    In July 2013, FEMA launched a new program known as Tech Corps. The 
Tech Corps Program is the product of Senator Ron Wyden's vision for a 
way to integrate trained, corporate technology volunteers into disaster 
response at the State, local, Tribal, and territorial levels--whom they 
support directly.
    In short, by engaging and working with the whole community, 
everyone can make the Nation safer and more resilient when struck by 
hazards, such as natural disasters, acts of terrorism, and pandemics. 
Collectively, our Nation can achieve better outcomes in times of 
crisis, while enhancing the resilience of our communities.
II. Building on National Preparedness Efforts
    FEMA's planning efforts are centered on our preparedness policy and 
doctrine, which leads to coordinated catastrophic planning that relies 
on a shared understanding of threats, hazards, capabilities, processes, 
and ultimately, the value of being prepared.
    This administration remains steadfast in its commitment to 
strengthening the security and resilience of the United States; and, we 
continue to become more secure and better-prepared to prevent, protect 
against, mitigate, respond to, and recover from the full range of 
threats and hazards the Nation faces. We plan, organize, equip, train, 
and exercise better, resulting in improved National preparedness and 
resilience.
    Much of this progress has come from leadership at the State, local, 
Tribal, and territorial levels, fueled by FEMA's grant programs. Over 
the past 10 years, DHS has provided State, local, Tribal, and 
territorial governments with billions of dollars in grant funding. As a 
Nation, we have built and enhanced capabilities by acquiring needed 
equipment, funding training opportunities, developing preparedness and 
response plans, and continuing to conduct exercises that help build 
relationships across city, county, and State lines. For instance, in 
the last 4 years alone, FEMA has awarded approximately $313 million for 
hurricane/high wind mitigation projects. These project types include 
safe rooms for first responders and critical staff, and structural 
retrofits that provide high wind protection for vulnerable buildings 
and critical infrastructure.
    In addition, FEMA has provided funding for emergency power 
generation at critical facilities; weather warning system enhancements; 
training and other support for building code officials; and community 
education efforts.
    Although FEMA's grant funds represent just a fraction of what has 
been spent on homeland security across the Nation, these funds and the 
development of capabilities they have made possible, have helped change 
the culture of preparedness in the United States.
            Presidential Policy Directive 8 (PPD-8)
    In March 2011, President Obama signed PPD-8, which describes the 
Nation's approach to National preparedness. PPD-8 aims to strengthen 
the security and resilience of the United States through the systematic 
preparation for the threats that pose the greatest risk to the security 
of the Nation, including acts of terrorism, cyber incidents, pandemics, 
and catastrophic natural disasters. PPD-8 defines five mission areas--
prevention, protection, mitigation, response, and recovery--as part of 
a continuum of interrelated activities and requires the development of 
a series of policy and planning documents to explain and guide the 
Nation's efforts in helping to ensure and enhance National 
preparedness.
    PPD-8 created the National Preparedness System (NPS), a cohesive 
approach that allows us to use the tools at our disposal in the most 
effective manner and to monitor and report on progress being made in 
National preparedness. Moreover, the NPS was designed to help guide the 
domestic efforts of all levels of government, the private and nonprofit 
sectors, and the public to build and sustain the capabilities outlined 
in the National preparedness goal. Finally, NPS helps to articulate how 
well-prepared we are by setting a goal, establishing baseline 
capabilities, setting common and comparable terminology, measuring 
capability gaps, and assessing our progress toward filling them.
III. Catastrophic Planning and Preparedness
    Understanding the critical importance of catastrophic preparedness, 
FEMA is also leading substantial response planning, including the 
development of plans across the Federal Government for catastrophic 
incidents; future operations for potential/actual incidents; regional 
planning for all-hazards events; and evacuation and transportation 
planning. There are also special programs focused on planning for 
chemical, biological, radiological, nuclear, and explosives (CBRNE) 
hazards to communities throughout the Nation.
    In addition to these planning efforts, FEMA coordinates closely 
with our Federal partners in many ways on other efforts in preparing 
for disasters, including the development of pre-scripted mission 
assignments, interagency agreements, and advanced contracts for 
commodities. These partnerships are essential to FEMA's ability to 
carry out its mission by leveraging the full capacity of the Federal 
Government.
IV. Critical FEMA Authorities Post-Hurricane Hugo
            Post-Katrina Emergency Management Reform Act (PKEMRA) of 
                    2006
    In addition to building on our whole-community efforts over the 
years and creating more robust and better-informed catastrophic plans, 
Congress has also played an instrumental role in transforming FEMA into 
a more effective and efficient agency. The importance of PKEMRA to the 
emergency management community is significant. PKEMRA provided FEMA 
clearer guidance on its responsibilities and priorities, and the 
authorities and tools we needed to become a more effective and 
efficient agency, and a better partner to State, local, territorial, 
and Tribal governments.
    PKEMRA also continues to give us the authority needed to lean 
forward and leverage the entire community in response and recovery 
efforts. This whole-community approach emphasizes the importance of 
working with all partners to successfully prevent, protect against, 
respond to, recover from, and mitigate all hazards.
            Sandy Recovery Improvement Act of 2013 (SRIA)
    In January 2013, Congress passed and President Obama signed SRIA 
into law, authorizing several significant changes to the way FEMA 
delivers disaster assistance. SRIA is one of the most significant 
pieces of legislation impacting disaster response and recovery since 
PKEMRA and builds upon the Robert T. Stafford Emergency Relief and 
Disaster Assistance Act.
    SRIA, and the additional authorities it provides, is aiding 
recovery efforts associated with recent disasters such as Hurricane 
Sandy and the floods that impacted the State of Colorado. SRIA's 
various provisions are intended to improve the efficacy and 
availability of FEMA disaster assistance and make the most cost-
effective use of taxpayer dollars.
    One clear example of SRIA's effectiveness in use of taxpayer 
dollars is the Public Assistance Permanent Work Alternative Procedure 
provision which provides substantially greater flexibility in use of 
Federal funds for Public Assistance applicants and far less 
administrative burden and costs for all parties--if applicants accept 
grants based on fixed, capped estimates. To date, FEMA has agreed to 
fund billions in public assistance permanent work alternative procedure 
projects in States such as New York and Louisiana.
    Another SRIA provision, National Strategy to Reduce Costs on Future 
Disasters, called on FEMA to submit recommendations for the development 
of a National strategy for reducing costs, loss of life, and injuries 
associated with extreme disaster events in vulnerable areas of the 
United States.
    As such, on September 6, 2013, FEMA submitted this National 
Strategy report to Congress recommending ways in which multiple areas 
could be further explored during the development of a National strategy 
within the following themes: (1) Engage in a Whole Community Dialogue 
and Build upon Public-Private Partnerships; (2) Enhance Data-Driven 
Decisions; (3) Align Incentives Promoting Disaster Cost Reduction and 
Resilience; (4) Enable Resilient Recovery; and (5) Support Disaster 
Risk Reduction Nationally.
    All told, these recommendations offered examples of areas that 
would need much greater discussion and research to develop into a 
strategic and actionable path forward. The implementation of cost 
reduction and cost avoidance strategies will require commitment and 
investment by the whole community to achieve the potential long-term 
savings and impact.
V. The Power and Promise of Social Media and Other Technologies in 
        Emergency Management for the 21st Century
    The advent of social media and other technologies has helped to 
transform FEMA into an agency that is more in tune with the needs of 
our citizens, especially during times of crisis. FEMA's approach to 
emergency management recognizes that individuals, families, and 
communities are our greatest assets and the keys to our success. In 
order to fulfill our mission, we must work together as one team--this 
notion is, again, at the heart of our whole-community approach to 
emergency management.
    Social media is imperative to emergency management because the 
public uses these communication tools regularly. Rather than trying to 
convince the public to adjust to the way we at FEMA have traditionally 
communicated, we have adapted to the way the public communicates, 
leveraging the tools they use on a daily basis. Millions of Americans 
use social media every day to check in on friends and family, learn 
about current events, and share their experiences. FEMA uses social 
media to be part of this on-going dialogue and meet people where they 
are, using tools and platforms with which they are already familiar.
    FEMA also uses social media and other digital methods to 
communicate because as we have seen, information can lead to action. 
Our goal is for our safety-related information to have a real-world 
impact--to inspire actions that lead to more resilient families and 
communities. If someone sees a preparedness or safety tip from FEMA, 
the goal is that it will inspire them to prepare themselves as well as 
empower them to tell a friend how to be more prepared or where to find 
help.
    Lastly, social media and emerging technologies allow us to reach 
more people more quickly during disasters, when they need accurate, 
timely, and authoritative information that helps ensure the protection 
of their life or livelihood. With one click of the mouse, or one swipe 
of the smartphone screen, FEMA and its whole community partners can 
share a message to thousands of people and have a tangible impact. 
These capabilities did not exist 25 years ago when Hurricane Hugo hit 
the Southeastern coast of the United States.
                               conclusion
    Finally, although FEMA has made important strides and progress over 
the years since Hurricane Hugo, we still have much work to do.
    I am confident that with the additional authorities Congress has 
provided, an emphasis on a whole-community approach to emergency 
management, a growing and more skilled work force, social media, and 
lessons learned from disasters over the years, FEMA will continue to be 
an agile and innovative agency for many years to come.
    Again, thank you Chairman Duncan for providing me this opportunity 
to appear before you today to discuss emergency preparedness for the 
21st Century. I look forward to answering questions you or other 
Members of this subcommittee may have.

    Mr. Duncan. Thank you for your testimony.
    The Chairman will now recognize Dr. Payne.

STATEMENT OF JEFFREY L. PAYNE, PH.D., ACTING DIRECTOR, COASTAL 
  MANAGEMENT, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Mr. Payne. Good afternoon, Chairman Duncan, Congressman 
Meadows. My name is Jeffrey Payne. I am the acting director of 
the National Oceanic and Atmospheric Administration's Office 
for Coastal Management. Thank you for the opportunity to 
testify today about the issue of coordinating communications 
among Federal, State, and local emergency preparedness partners 
as communities consider how to deal with the impact of hazards.
    Since 1980, the United States has experienced 144 extreme 
events in which overall damages reached or exceeded $1 billion 
each, with total losses of $1 billion disasters exceeding $800 
billion. On the East and Gulf Coasts of the United States 
alone, the insured value and cost to replace residential and 
commercial structures tops $8.9 trillion.
    Population growth and aging, increased urbanization, and 
other factors have made our society more vulnerable to high-
impact events. Social vulnerability looks at indicators such as 
demographics, race, class, age, ethnicity, plus density, and 
determines where targeted response efforts may be necessary to 
address the needs of the elderly, the young, or those without 
access to transportation in the case of evacuations.
    Communities living below the poverty line will face 
significant challenges, as we saw with Hurricane Katrina. To 
consider social aspects, NOAA partnered with the University of 
South Carolina to apply social science methods to evaluate 
Census data for all coastal States and provide a detailed look 
at social vulnerability for improved disaster preparedness.
    Regarding our vulnerable infrastructure in South Carolina, 
there is evidence that the frequency of what is called nuisance 
flooding, types of coastal flooding, will increase with rising 
sea levels and that this will have a significant cumulative 
impact on our built and natural systems. As result, 
municipalities, businesses, and planners are looking for ways 
to increase their resilience now.
    The preparedness challenge is essentially the same across 
all hazard events. Public awareness, education, and plans of 
action to mitigate and recover from impacts provide the best 
protection. NOAA has demonstrated success in predicting 
hurricanes and storm surge, communicating risk, and providing 
data, information, technology, decision support tools, and 
services to reduce the impact of hazards.
    We have established ties to emergency managers and 
communicators through State, local, and Tribal officials and 
the private sector to ensure appropriate action in protecting 
communities.
    NOAA works with these partners to determine their needs for 
information, training, and other services packaged in a way 
that saves time and resources. NOAA and the National Sea Grant 
Network, including South Carolina's Sea Grant Consortium, 
employ research, training, and technical assistance to enhance 
the ability of communities to prepare for disasters.
    NOAA has worked with Sea Grant on the application of 
nature-based infrastructure solutions for protection from 
storms and on a community resilience index widely employed in 
the Gulf and Southeast.
    NOAA ensures that operational weather, ocean, climate, and 
space weather data, as well as tides, water levels, geodetic 
positioning, and nautical charts, are available to meet needs 
for timely and accurate forecast and warnings, and to ensure 
the efficient flow of commerce and, most importantly, the 
safety of lives and property.
    Our agency is the official voice for issuing warnings 
during life-threatening weather events. After a coastal 
disaster, NOAA and sister agencies use aircraft and ships to 
survey affected areas. This information facilitates assessment 
of damages and certification of critical safety products, like 
nautical charts that allow the Coast Guard, relief ships, and 
cargo vessels to move in and out of our ports.
    NOAA also offers easy-to-use interactive products that 
enable users to visualize their risks and vulnerabilities 
specific to their geography, empowering managers to make 
informed decisions to address vulnerabilities in advance of 
hazard events.
    For example, NOAA recently released a potential storm-surge 
flooding map that provides information on surge-related water 
levels to be expected in zones affected by an approaching 
storm. NOAA is also working with other Federal partners, 
including the U.S. Geological Survey, the Army Corps of 
Engineers, the Environmental Protection Agency, the Federal 
Emergency Management Agency, and the U.S. Coast Guard, to 
improve how Federal efforts are coordinated with States and 
partners at the community level so that response and recovery 
plans, working relationships, and resources are in place before 
disaster strikes.
    In response to events, NOAA embeds specialists in centers 
of command. Meteorologists work with FEMA, National Security 
staff and at the Department of Homeland Security Operation 
Center during emergency weather events. Maritime traffic 
resumes more quickly with the participation of regional 
navigation managers, and coastal management and fisheries 
specialists provide options for restoration of damaged natural 
resources and long-term community recovery needs.
    Developing lines of communication and cooperation, and 
facilitating community planning and capacity-building with 
partners now, will enhance pre-disaster planning efforts. The 
goal should be to ensure that coordinated and informed decision 
making can begin in the immediate wake of a disaster, enabling 
communities to respond effectively while recovering and 
rebuilding in a resilient manner.
    Wise decisions now will ensure that we are more resilient 
in the face of future events, from the next spill to the 21st 
Century Hugo.
    Thank you for your leadership, Mr. Chairman, Mr. Meadows, 
and for the opportunity to appear before you today. I will be 
happy to answer any questions as well.
    [The prepared statement of Mr. Payne follows:]
                 Prepared Statement of Jeffrey L. Payne
                           November 21, 2014
    Good afternoon Chairman Duncan, Ranking Member Barber, and Members 
of the subcommittee. My name is Jeffrey Payne, and I am the acting 
director of the National Oceanic and Atmospheric Administration's 
(NOAA) Office for Coastal Management. Thank you for the opportunity to 
testify today about the cooperation and coordination of communications 
between Federal, State, and local emergency preparedness partners as 
communities consider how to better prepare for the impacts of natural 
hazards and other emergencies. My testimony today will cover: (1) An 
understanding of our vulnerability to storms like Hugo, (2) NOAA's 
collaborations in support of communities in South Carolina and the rest 
of the Nation as we prepare for, respond to, and recover from hazardous 
events and the potentially compounding effects of longer-term changes, 
and (3) the importance of coordinating effectively after an event, 
during the response and early recovery phase, to promote wiser long-
term recovery and resilience decisions. This final point is critical to 
how we as South Carolinians, and Americans, are able to become more 
resilient in the face of future events, from small accidents to major 
disasters.
    A 2005 study by the National Institute of Building Sciences on 
Federal hazard mitigation grants estimated that $1 spent on hazard 
mitigation potentially saves $4 in disaster relief costs and lost 
Federal tax revenue. A community that spends its recovery dollars on 
investments designed to provide resilience, rather than simply plugging 
a hole or building back to the same level of vulnerability, will be 
better poised both economically and socially to withstand another 
hazard event.
       hurricane hugo: understanding why we are still vulnerable
    Twenty-five years ago, between September 10 and 22, 1989, Hurricane 
Hugo made its way across the Caribbean Islands and up the southeastern 
coast of the United States. Hurricane warnings for coastal South 
Carolina, issued at the then-standard 3 days in advance, led to the 
safe evacuation of more than 250,000 people. By the time the storm had 
passed through Canada and into the North Atlantic, it had resulted in 
49 deaths and wide-spread damages and losses estimated at $7 billion in 
the United States. At the time, Hugo was the strongest storm to strike 
the United States in the previous 20-year period, and it was the 
Nation's costliest hurricane on record in terms of monetary losses ($7 
billion in damage). A week after Hurricane Hugo hit, nearly 60,000 
people were homeless, as 5,100 homes were destroyed and 12,000 homes 
deemed uninhabitable.
    Since Hurricane Hugo, NOAA has improved its hurricane forecasts: 
The 2012 Hurricane Sandy track was more accurate 5 days out than the 
Hugo forecast was at 3 days. Coastal South Carolina has been rebuilt 
and continues to be a popular place to live, work, and vacation. The 
Port of Charleston is the fourth-largest U.S. Atlantic port and 
generates over a quarter of a million jobs in South Carolina alone. 
This area is a strong economic driver in the Southeast region of the 
United States, including the very significant positive economic impacts 
of tourism and recreation. However, the long recovery from Hugo is a 
reminder of the region's vulnerability, as population grows and new 
structures in the coastal zone continue to be built. The South Carolina 
Emergency Management Division has estimated that had a similar storm 
struck in 2009, there would have been $8 billion in damage, and more 
than 4 times the number of homes destroyed.
    Since 1989, the United States as a whole has weathered 17 tropical 
cyclones and 6 drought events with at least $7 billion in estimated 
damage, as well as wildfires costing up to $6 billion in damages and up 
to 28 lives lost. Nearly 90 percent of all Presidentially-declared 
disasters are weather- and water-related, and our vulnerability to the 
impacts is increasing as our population grows. Demographic trends, 
population growth, and an increased reliance on technology, coupled 
with extreme weather events, have made our society more vulnerable to 
high-impact events. There is growing recognition that the frequency of 
(low magnitude/high probability) ``nuisance'' types of coastal flooding 
events will increase dramatically with rising sea levels (e.g. Firing 
and Merrifield, 2004; Sweet et. al., 2014), and that these events are 
likely to have the greatest cumulative impacts on built, social-human, 
and natural systems over the coming decades. As a result, many 
agricultural, business, and urban planners are looking for ways to 
increase community resilience now. For instance, in the Hampton Roads 
area of Virginia, where ``nuisance'' flooding now happens monthly, Old 
Dominion University is working with the community and its largest 
Federal partner, the Department of Defense and Naval Station Norfolk, 
to develop a whole-community approach to sea-level rise preparedness 
and resilience planning. Norfolk, among many other cities, recognizes 
the need to understand changes and trends in weather patterns, and to 
apply this to planning that may reduce vulnerability to high-impact 
natural or man-made hazard events. Their recognition for the need to 
reduce their vulnerability is an important first step.
    Not only is our coastal infrastructure vulnerable, but our 
population is as well. Social vulnerability looks at indicators such as 
population demographics (race, class, age, ethnicity, etc.) and 
density, and determines where additional or targeted response efforts 
may be necessary to address the needs of the elderly, the young, or 
those without access to transportation in case of evacuations. 
Communities already living below the poverty line will face different 
challenges than wealthier communities, as we saw in the aftermath of 
Hurricane Katrina. Through a partnership with the University of South 
Carolina (USC) and funding via NOAA's South Carolina Sea Grant Program 
and the NOAA Office for Coastal Management, the Social Vulnerability 
Index (SOVI) method of measuring the social vulnerability of U.S. 
counties to environmental hazards has now been applied to Census 2000 
block groups and Census 2010 tracts for all coastal States, providing a 
more detailed look at a community's social vulnerability for improved 
disaster response preparedness.
    While these efforts and others are providing the groundwork for 
addressing vulnerability, there is much more that needs to be done in 
other sectors of our economy and with the general public to 
comprehensively increase our resiliency to the impacts of these events.
                    a big job: we can't do it alone
    NOAA is one of many Federal agencies that has a critical role in 
preparing for and responding to disasters. The Department of Commerce 
Strategic Plan includes a significant coordinated effort amongst NOAA, 
the National Institute of Standards and Technology (NIST), the U.S. 
Economic Development Administration, and the Small Business 
Administration to enhance the resilience of communities. For example, 
NOAA has been engaged with NIST's disaster resilience framework, which 
will provide local communities with a systematic approach to plan for 
disasters and other disruptive events. NOAA also works collaboratively 
with other agencies, including the United States Geological Survey 
(USGS), the United States Army Corps of Engineers (USACE), the 
Environmental Protection Agency (EPA), and agencies within the 
Department of Homeland Security, primarily the Federal Emergency 
Management Agency (FEMA) and United States Coast Guard (USCG) to ensure 
a coordinated approach to preparedness. An example is the Partnership 
for Sustainable Communities, where NOAA is working with FEMA, DOT, EPA, 
and HUD through the Partnership for Sustainable Communities to provide 
information and services to States for State Hazard Mitigation Plans. 
The Hazard Mitigation Plans identify risks and risk reduction measures 
in a State--and in communities--and is an all-hazards preventative 
approach designed to prevent loss of life and damage from future 
disasters.
    Furthermore, NOAA's role in Presidential Policy Directive 8 on 
National Preparedness supports science and technology in disaster 
mitigation, as well as promoting coordination of pre-disaster 
preparations and investments at the Federal level to support community 
resilience efforts. In this effort, NOAA works with both Federal 
agencies and representatives from States, localities, territories, and 
Tribes to help encourage and coordinate a shift in the culture of 
disaster preparedness, to embed risk management and mitigation in all 
planning, decision making, and development to the greatest extent 
possible.
    As a part of this National Preparedness work, NOAA also worked with 
FEMA to develop a National Disaster Recovery Framework (NDRF) which is 
implementable at the regional or community level. An interagency group 
is looking at how Federal efforts can be better coordinated with 
partners at the community-level in advance of disasters, so that plans 
and working relationships are in place before a community is 
threatened. This type of planning will allow response efforts to move 
towards more efficient ``precovery,'' where planning for the next event 
is taken into consideration during the response phase of the past 
event.
    The Silver Jackets Program for South Carolina works to increase 
coordination and efficiency between State and Federal governmental 
agencies in developing comprehensive and sustainable solutions to flood 
and coastal risk management in South Carolina. It serves as a catalyst 
in developing comprehensive and sustainable solutions to flood hazard 
issues, including mitigation planning, flood hazard mapping, risk 
reduction activities, and response and recovery planning.
    In addition to its support of National-level science and technology 
policy, NOAA also works with State and local officials, emergency 
managers and other partners to determine their needs for data, 
information, tools, training, and other services that lead to better 
understanding and communicating risk, and strengthening a community's 
resilience. NOAA and its partners, such as the National Sea Grant 
network, use integrated research, training, and technical assistance to 
enhance the ability of communities to prepare for, respond to, and 
rebuild after disasters strike. For example, we are developing a 
Coastal Resilience Index that provides a tangible way for communities 
to identify gaps and examine how prepared they are for storms and storm 
recovery, and provide guidance on how to increase resilience through 
measures including strengthening infrastructure or adopting stricter 
building codes.
    Since Hurricane Hugo struck, NOAA has worked with the U.S. Army 
Corps of Engineers and FEMA to update the South Carolina Hurricane 
Evacuation study twice, most recently in 2012. NOAA used enhanced 
elevation data using LIDAR and updated the SLOSH (Sea, Lakes, and 
Overland Surges from Hurricanes) models. New storm surge evacuation 
zones were created and used for hurricane evacuation planning. The 
South Carolina Emergency Management Division promotes community 
understanding of these new plans through their Know Your Zone campaign.
    The Potential Storm Surge Flooding map is an experimental NOAA 
National Weather Service (NWS)/National Hurricane Center product being 
used to show areas that could be affected by storm surge and potential 
water depths during a land-falling tropical storm or hurricane. Social 
science research was conducted with key partners and customers 
(broadcast media, emergency officials, and the public) to develop the 
map and inform outreach efforts. A marketing plan, videos, and 
tipsheets developed based on risk communication best practices are 
helping to ensure a consistent message about the map across the weather 
enterprise.
    Effective risk management and forward-thinking resiliency requires 
a broad coalition of vested and knowledgeable Federal, State, non-
governmental organization, and industry partners. It is critical that 
these sectors continue to engage and build partnerships to better 
manage risk moving forward. The time is now to forge sustainable 
partnerships.
                        preparing and responding
Communicating
    As the Federal Government's sole official voice for issuing 
warnings during life-threatening weather events, and as an established 
reliable and trusted source, NOAA provides the Nation's alerts and 
warnings for severe weather and other near-term hazards (tornadoes, 
hurricanes, severe thunderstorms, winter storms, most floods, chemical 
spills, volcanic ash, tsunami, space weather, etc.). These messages are 
delivered through multiple mechanisms, including: NOAA Weather Radio, 
which triggers the Emergency Alert System; NWSChat, which focuses on 
real-time coordination with local core customers in the broadcast media 
and emergency management; the Emergency Managers Weather Information 
Network (EMWIN), a system for distributing a live stream of weather 
information in the United States transmitted over NOAA Geostationary 
Operational Environmental Satellites (GOES); the internet; and, through 
our private-sector partners, commercial television and radio, which 
communicate critical information to much larger audiences and 
effectively inform those in harm's way to take appropriate action. 
Emergency messages are also transmitted by cellular phone companies via 
text messages through the Wireless Emergency Alert system, which uses 
warning and emergency information from the NWS, FEMA, and others.
Coordination of science and technology
    NOAA's mission to provide science, service, and stewardship to the 
Nation in support of community resilience is fundamentally dependent on 
observations of our environment. These observations are the backbone of 
NOAA's predictive and service capabilities. NOAA must ensure 
operational weather, ocean, climate, and space weather data, including 
tides, water levels, geodetic positioning, and accurate nautical 
charts, are available at all times to address our Nation's critical 
needs for timely and accurate forecasts, warnings of solar storms and 
severe weather including hurricanes, flash floods, tsunamis, and 
wildfires, and to ensure the flow of commerce and the safety of lives 
and property.
    NOAA partners with other Federal and international agencies to 
support satellite observations, including NOAA's Polar-orbiting 
Operational Environmental Satellite (POES), Suomi National Polar-
orbiting Partnership (Suomi NPP) satellite, NASA Earth Observing 
Satellites (EOS), and the European Metop satellites. GOES satellites, 
along with Doppler Radar, assist operational weather forecasters with 
current and short-term forecasting abilities and severe weather warning 
forecasts. NOAA also participates in regional ocean observing networks. 
For example, the Southeast Coastal Ocean Observing Regional Association 
(SECOORA) supports the Governors' South Atlantic Alliance priorities in 
providing ocean observations to NOAA and other regional researchers to 
improve forecasting of storm surge, inundation, and coastal 
circulation. This modeling component provides real-time forecasting to 
support operational management of water control structures and utility 
infrastructure, and to support emergency managers during hurricane 
season.
    Often after a coastal disaster such as a hurricane or other 
incident, new mapping data is essential for situational awareness both 
on land and off-shore. NOAA and its sister agencies use aircraft and 
ships to survey and map the impacted area in order to support response 
partners such as the State and FEMA, as well as to update critical 
safety products like nautical charts and notices to mariners to allow 
the USCG, relief ships, and cargo vessels to move in and out of ports. 
We work closely with our mapping partners such as the USACE and USGS to 
coordinate mapping efforts using an Integrated Ocean and Coastal 
Mapping approach, where we strive to map once and meet multiple 
missions with the same datasets. These datasets help the State and our 
partners with recovery from an event and to begin preparing for the 
next one. For example, seafloor sonar surveys completed and charted by 
NOAA ships and small boats helped reopen Baltimore and the Virginia 
ports after Hurricane Sandy, quickly restarting commerce and allowing 
Navy ships to return to port. Similarly, NOAA assisted in rapidly 
reopening New York and New Jersey ports so that emergency fuel and 
other crucial supplies could reach some of the hardest-hit areas. Hours 
after the storm, NOAA planes and scientists conducted aerial surveys of 
the affected coastlines, and published the photos on-line immediately, 
allowing emergency managers and residents to examine the damage even 
before ground inspections were permitted. These surveys are also vital 
to FEMA assessment teams and other on-the-ground responders and those 
managing oil spill clean-up and damage assessment.
    After any large natural disaster, the scientific community comes 
into the impacted area from all over the world seeking to collect rare 
and time-sensitive post-disaster data and information, before the 
evidence disappears or degrades over time. This data is essential to 
understanding physical and socio-economic causes and impacts of the 
event, and developing better response, recovery, and mitigation plans. 
Recognizing the strain that an influx of scientists can have on the 
State and local governments and emergency response agencies, NOAA and 
USGS, through the Pacific Risk Management `Ohana (PRiMO), helped 
develop a joint scientific protocol to coordinate the collection and 
sharing of physical, engineering, social science, and other data and 
information and promotes coordination, communication and respect in 
regards to the community, the emergency managers and impacted region. 
The protocol helps keep data and information flowing, and the community 
focused on recovery.
    NOAA also monitors chemical safety threats to our community and 
environment. We are upgrading tools used by local, State, and Federal 
responders to safely and effectively respond to such emergencies. The 
CAMEO (Computer-Aided Management of Emergency Operations) software 
suite delivers critical information for emergency responders and 
planners about chemicals that are stored and shipped in their local 
communities. These tools are often used as a common platform to help 
facilitate the exchange of information between first responders, 
emergency planners, industry, environmental groups, and academics. The 
CAMEO program has a long history of close contact with our end-users 
both emergency responders (firefighters) and State and local planners.
    Much like the train derailment in Abbeville, South Carolina, 
several real-world incidents over the last year have highlighted 
emerging risks from transportation of hazardous materials by rail. 
NOAA, working with the Department of Homeland Security, is also in the 
final stages of integrating a new chemical source estimation model, 
called Railcar, into NOAA's chemical air dispersion model, ALOHA (Areal 
Locations of Hazardous Atmospheres). Railcar was developed by the U.S. 
Navy, based on large-scale field tests of chlorine and ammonia releases 
from tanks. ALOHA models chemical releases for emergency responders and 
planners. It can estimate how a toxic cloud might disperse after a 
chemical release, and estimates a threat zone, where a hazard has 
exceeded a user-specified Level of Concern (LOC).
    In the aftermath of Hurricane Sandy, NOAA's Atlantic Environmental 
Risk Management Application (ERMA) served as the common operational 
picture for the Hurricane Sandy pollution response. ERMA is an on-line 
mapping tool for U.S. coasts and the Great Lakes that integrates static 
and real-time data in a centralized, easy-to-use map for environmental 
responders and decision makers. Atlantic ERMA integrated these response 
efforts with environmental data to give responders a better idea of how 
to deal with pollution threats while minimizing environmental damages. 
As the common operational picture, ERMA provided a single platform for 
responders to view all of the storm-related data and imagery as well as 
various clean-up efforts by the States and other Federal agencies. Our 
team of Geographic Information Systems (GIS) specialists working on 
ERMA helped provide data management support in tracking the progress 
made by the pollution response field teams, allowing State and local 
environmental and emergency managers to make informed decisions.
    NOAA's Gulf of Mexico Disaster Response Center (DRC) also brings 
together NOAA-wide resources to improve preparedness, planning, and 
response capacity for natural and man-made disasters. Intended to serve 
as a safe and ready command center during major disaster responses in 
the Gulf, the DRC also hosts drills, trainings, workshops, and planning 
activities. For example, last spring the DRC partnered with the 
National Weather Service to assess the capabilities of NOAA partners in 
the region with a hurricane response exercise.
On-the-ground coordination
    In order to better coordinate with Federal and State partners and 
customers, NOAA has begun to embed its specialists in the centers of 
command during events. National Weather Service meteorologists now work 
side-by-side with FEMA, National Security Staff, and at the Department 
of Homeland Security Operations Center during emergency weather events 
and maritime traffic resumes more quickly when NOAA regional navigation 
managers work within command centers. In the wake of Hurricane Sandy, 
as the extent of the storm impacts became clear, NOAA meteorologists 
were assigned to regional and municipal emergency operations centers 
and coastal management specialists worked in post-Sandy Joint Special 
Operations Command centers, alongside interagency and State partners, 
including representatives from Governors' offices and State emergency 
management divisions. These working relationships will strengthen 
future coordination efforts and helped streamline communications during 
and after Hurricane Sandy, including for the important accurate 
assessment of damages and development of strategies for long-term 
recovery.
    These tools, information, and close working relationships allow 
Federal, State, and local officials and managers to make critical 
decisions when faced with realistic exercises and real-time events. To 
take preparation and response to the next level, where communities can 
become resilient, NOAA is helping support interagency and community-
level ``blue skies planning,'' or considering mitigation in all aspects 
of recovery and to do so before an event, essentially working on the 
elements of ``precovery''. This forward thinking can lead to wise 
investments of time and resources, seeking to keep the impacts of a 
hazard from becoming a disaster, or recovering more effectively and 
quickly should a disaster occur.
           ``precovery'' thinking: being ready for next time
    NOAA is focused on providing services to enhance community 
resilience. Our prospects for success in this role, and of achieving 
our vision of resilient communities, lie in our unique enterprise 
capabilities. The goal of disaster resilience is to enhance the 
capacity of a community exposed to hazards to adapt, by resisting or 
changing, in order to reach and maintain an acceptable level of 
functioning and structure. The preparedness challenge remains 
essentially the same across all hazard events: Public awareness, 
education, and plans of action to mitigate impacts on the personal, 
community, and regional scales provide the best protection against 
potential disasters. NOAA has long-held and strongly established ties 
to the emergency management community, through State, local, and Tribal 
officials, which help ensure appropriate action is taken to prepare 
communities for weather and water events.
Community Preparedness
    NOAA's Coastal Storms Program (CSP) is a Nation-wide effort to 
reduce loss of life and mitigate impacts of storms on coastal 
communities and the environment. CSP provides dedicated resources and 
expertise from across NOAA to deliver capacity-building tools, 
training, data, and other products and services to enhance hazard 
resilience in coastal communities in particular. For example, NOAA has 
worked with communities along the Gulf of Mexico to provide a simple, 
inexpensive method for leaders to perform a self-assessment of their 
community's resilience to coastal hazards. The results help communities 
prioritize what needs to be addressed before the next extreme event. 
Through these various community resilience efforts, NOAA is placing an 
increased focus on social science to better understand how and why 
decisions are made at the State and local levels and how NOAA can 
improve its efforts to communicate risk and uncertainty to the public 
at large.
    Through the NOAA Climate Program Office's Carolinas Integrated 
Sciences and Assessments (CISA) team at the University of South 
Carolina, researchers are engaging local stakeholders in resilience 
planning in the coastal Carolinas. CISA works with South Carolina Sea 
Grant to develop science-based, participatory planning exercises for 
South Carolina communities to plan for sea-level rise and climate 
adaptation. For example, CISA and Sea Grant partnered with the Beaufort 
County, SC Planning Department to produce a report containing 
recommended adaptation actions. While this project was originally 
intended to help inform Beaufort County's update of its Comprehensive 
Plan, several other opportunities have arisen from this work. For 
example, the county's Disaster Recovery planner has asked for help in 
updating the Disaster Recovery Plan with sea-level rise projections. 
The county is also creating a list of Capital Projects they will 
prioritize and fund.
    On September 5, 2014, the National Academies' Resilient America 
Roundtable announced its first two American communities that will be 
the focus of pilot projects to develop a community disaster resilience 
strategy, based on the Research Council report Disaster Resilience: A 
National Imperative. The two communities are Charleston, South 
Carolina, and Linn County/Cedar Rapids, Iowa. Over an initial 2-year 
period, Resilient America Roundtable teams will work with decision 
makers, local organizations, businesses, and citizens in Charleston and 
Cedar Rapids, along with Federal partners, to better understand the 
risks each community faces and design strategies to bolster resilience 
to these risks. Lessons learned in each of the pilot communities will 
be shared broadly with other communities across the Nation.
    A complementary effort kicked off this summer in Charleston. The 
Department of Homeland Security's Office of Infrastructure Protection, 
FEMA and NOAA piloted a Climate Change Adaptation Exercise in June 
2014. This exercise was an important first step in developing 
strategies and coordinating stakeholder planning efforts related to 
climate preparedness and resilience for critical infrastructure in the 
Charleston area. State and local partners, including the S.C. Sea Grant 
Consortium, the S.C. Department of Health and Environmental Control's 
Office of Ocean and Coastal Resource Management, the SC Emergency 
Management Division, the City of Charleston's Emergency Management, and 
the College of Charleston, took part in the planning and implementation 
of this exercise.
    While the topic of this exercise was climate change, the benefits 
will be reaped in the aftermath of another Hurricane Hugo or other 
hazard event that has the potential to strike at the heart of the South 
Carolina economy including our businesses, lives, and livelihoods. A 
core group of partners has formed an after-action committee to develop 
a Charleston Resilience Network. While the scope of this network is 
still being refined, the overall goal will be to create a defensible 
and repeatable decision-making process that will support the region in 
making smart decisions and investments during times of response and 
recovery. Components will include identifying hazard vulnerabilities 
and consequences, assessing the costs of risk mitigation action and 
inaction, identifying investment opportunities and developing the plans 
in which to make those investments. This effort and the Resilient 
America Roundtable pilot will complement one another with a strong 
network of Federal, State, Tribes, and local partnerships, and serve as 
a model for other community resilience networks.
    NOAA has also been active in working alongside the DHS/FEMA-funded 
National Domestic Preparedness Consortium's National Disaster 
Preparedness Training Center (NDPTC) at the University of Hawai'i. This 
effort, which is National in scope, is providing a wide range of 
training to thousands of emergency and disaster managers, community 
planners, and other officials to improve their level of preparedness 
and capacity to deal with events. NDPTC develops and delivers FEMA-
certified training courses, and a partnership with NOAA has resulted in 
the co-development and delivery of several course offerings. The 
overall focus is on disaster preparedness, response, and recovery, with 
a specific focus on natural hazards, coastal communities, and the 
special needs and opportunities of Tribes, islands, and territories.
                                summary
    Although nothing can eliminate the physical threat that severe 
weather and natural hazards pose, NOAA has demonstrated success in 
better predicting hurricanes and storm surge, communicating the impacts 
of weather and other hazards, providing science and technology data, 
information, tools, and services to reduce the impacts of hazards, and 
helping vulnerable communities become more resilient to their 
devastating effects. Such hazards include those that are episodic, such 
as extreme events, but also those that tend to be chronic and will 
affect future risk considerations, such as rising sea levels leading to 
more common (nuisance) flooding in low-lying coastal areas and cities.
    Presidentially- and State-declared disasters trigger vast amounts 
of available funding to help Federal agencies deliver critical data, 
information and services to impacted States, finance small business 
loans to keep the economy afloat, and allow communities to clean up 
destroyed areas, rebuild damaged infrastructure, and provide housing 
for displaced families. However, to spend such funds wisely, it is 
critical to understand the complete nature of damages and to consider 
how well-developed recovery strategies can inform both the necessary 
community rebuilding efforts as well as actions to improve resilience 
to future events.
    Developing lines of communication and cooperation with partners now 
will enhance pre-disaster planning efforts. Once a disaster strikes, it 
is too late if such advance work has not been accomplished. The goal 
should be to ensure that coordinated and informed decision making can 
begin in the immediate wake of a disaster, enabling States and 
communities to respond effectively and rebuild in a more resilient 
manner. To ensure that fiscally-wise and economically and 
environmentally sound decisions are made, the Federal Government and 
its State and local partners need to continue coordinated pre-planning 
efforts at the National, regional, and State levels. Wise ``pre-
covery'' decisions will ensure that we are able to remain resilient in 
the face of future events, from the next chemical spill to the 21st 
Century Hugo.
    Thank you for the opportunity to appear before you today. I would 
be happy to answer any questions you may have.

    Mr. Duncan. Dr. Payne, thank you so much.
    The Chairman will now recognize General Livingston, 
Adjutant General of South Carolina.

STATEMENT OF MAJOR GENERAL ROBERT E. LIVINGSTON, JR., ADJUTANT 
                GENERAL, STATE OF SOUTH CAROLINA

    General Livingston. Mr. Chairman, Mr. Meadows, thank you so 
much for the opportunity. I am Major General Bob Livingston. I 
am the adjutant general for the State of South Carolina, 
responsible to the Governor for disaster recovery in the State 
of South Carolina.
    My role during Hugo was I was an engineer company commander 
and also an operations manager for South Carolina Electric and 
Gas. As such, I was responsible for the restoration of power 
along the coastline following Hugo.
    What I saw in Hugo was a very resilient community that 
banded together, absent of a lot of Governmental involvement, 
and at the time, this was one of the shining moments in South 
Carolina's history, our recovery. The State efforts, the local 
efforts, were very well done for the time.
    What we have seen since then is our environment has 
changed. A couple things with the changing of the environment, 
the expectations of Governmental involvement is much higher by 
our local populace, from the local level through the State 
level to the Federal level. The density of the population is 
much greater on the coastline, so evacuation and safeguarding 
of property and life is much more difficult.
    In addition, we have emerging threats, or we have threats 
that may choose this opportunity to cause additional problems 
for our Governmental agencies and also our private industry.
    You mentioned vulnerability to the electrical grid system. 
Back during Hugo, we dealt with electromechanical. Today, we 
have electronic that are all interconnected and are subject to 
cyber attacks. The same is true in our command-and-control 
systems that will be used in the future.
    We also have a physical threat for nonstate actors to 
attempt to cause problems for our citizenry or to enhance the 
disaster results.
    Some of the things that we are doing better today, 
interagency planning, planning at all levels of government. 
Disaster recovery starts at the local level and builds up, 
unlike most operations that start at a central level and go 
down. The exercises that we do, the coordination, the planning 
that we have done, is much greater than we had during Hugo. Our 
ability to have situational awareness is much better.
    Our agreements with the surrounding States through an 
Emergency Management Assistant Compact, EMAC, is much stronger 
than it was during Hugo, and we are much more proactive.
    The dual status command where we can bring in Title 10 
forces increases our flexibility and also our breadth of 
operation within South Carolina.
    As you mentioned, our force structure changes have brought 
us enhancements in aviation, communications, and to a certain 
extent, our engineer structure.
    Some of the things that concern me as we look at the 21st 
Century: First off, infrastructure vulnerability. That is 
subject to attack by state actors, peer actors, Third-World 
countries, and individuals that just want to cause havoc.
    Within South Carolina, we have had a reduction of troops 
from 11,000 to 9,000, and a loss of a major command 
headquarters. That will affect our ability to respond 
internally. We have mitigated that with ad hoc headquarters, 
along with the professionalizing of our great State Guard.
    Our coordination with our Title 10 forces is continuing to 
develop, but it still has missed results. If you look at other 
disasters, the coordination of all the resources coming into 
the State is not as good as you would want it to be.
    Then the use of Federal money for pre-positioning State 
forces to either assist within a State or to assist other 
States, that money is not available and really causes some 
issues when we try to pre-position, like when we were helping 
Vermont during the flooding and pre-position several States 
away.
    In summary, we are better prepared command-and-control, 
force readiness, and abilities, but the threats and 
expectations have risen in line with our better preparation, 
and then the funding issue always is a concern.
    Thank you for the opportunity to talk to you about our 
preparedness here in South Carolina. I am prepared to answer 
any questions.
    [The prepared statement of General Livingston follows:]
            Prepared Statement of Robert E. Livingston, Jr.
                           November 21, 2014
    During Hugo, I was company commander of A Company, 122nd Engineer 
Battalion and the Columbia operations manager for South Carolina 
Electric and Gas. During the electrical restoration efforts, I was 
responsible for electrical restoration in Columbia, SC. In less than a 
week we restored Columbia and I moved to the coast where I was 
responsible for Folly Beach, Sullivan's Island, Isle of Palms, Awendaw, 
and McClellanville. My company headquarters was in the shadow of the 
Ben Sawyer Bridge. My military company was commanded by my executive 
officer but I had extensive contact with the National Guard concerning 
access, clearance, and security. Today, I am responsible for the S.C. 
Emergency Management Division, the S.C. National Guard and the S.C. 
State Guard. Similarly, a majority of the senior staff and command 
elements of the S.C. National Guard were present as company-level 
officers during Hurricane Hugo 25 years ago.
    As we examine our ability to respond to another major Hurricane 
like Hugo, we must do a thorough assessment of how the environment, 
urban and business development and landscape have grown since 1989. Our 
main concern is always the protection of life and property. The 
population density on our coast has increased 40% since Hugo and 
represents 20% of our State population equaling almost a million 
people, almost double the 600,000 present during Hugo. Much of this 
growth is in the Grand Strand Area and Beaufort.
    This population must be evacuated prior to a major storm. The road 
systems are largely unchanged except for some widening efforts. Our 
ability to communicate with the population has improved greatly due to 
the density and expansion of social media. Recent exercises and smaller 
events indicate that the road systems are sufficient as long as the 
evacuation order is given in a timely manner. This is a critical 
element.
    The housing construction and zoning codes are more oriented to 
resisting the effects of a major hurricane. We would not expect as much 
property damage per capita as Hugo, but the density is certainly 
greater. Our electrical grid and communications grid are much more 
robust due to growth and redundancy efforts.
    Hugo was a source of distress but our ability to overcome is a 
source of pride for South Carolina residents. We prided ourselves on 
being able to recover internally and with independent action. Security 
was not a serious issue. The expectations of creature comforts were not 
as great as those expressed by the U.S. population in later disaster 
scenarios. We can expect a higher level of expectations of our 
Government intervention to provide security and nonessential services. 
The level of unorganized self-service to include amateur radio seems to 
have decreased while the level of organized community service has 
increased. Hurricane Katrina illustrated the magnitude and immediate 
feedback from residents on their situations through real-time media 
reports and social media. We did not face this during Hugo and in 
today's environment, we must be prepared.
    In addition to the evolution of our population, construction, and 
infrastructure, our outside threats have evolved. The United States is 
involved with non-state threats that are stationed externally and 
internally. These threats may use a major storm as a shaping event to 
cause harm to our population and infrastructure. Therefore, we must be 
prepared for physical and cyber attacks. Our electrical infrastructure 
and communications networks are especially vulnerable to cyber attacks.
    The organization of local resources have improved for a major 
storm. All disaster relief begins locally and this is especially true 
in South Carolina. The cities and counties in South Carolina have 
organized themselves to respond to major disasters. They have 
incorporated a combination of dedicated relief workers, repurposed 
Governmental workers, and an array of volunteer workers organized as 
Community Emergency Response Teams (CERT). Many of the volunteer 
responders have extensive training provided by the Federal Emergency 
Management Agency (FEMA). This is the same training that full time 
emergency workers receive. All of the major cities in South Carolina 
and the counties participate at some level at least yearly in a State 
exercise to test the communications between Governmental entities.
    The State's ability to respond with an interagency effort is 
greatly improved. Not only has each agency improved its internal 
organization and capabilities but also the coordination between 
agencies is exercised at least twice a year to include the involvement 
of the executive branch. South Carolina has strongly embraced the 
National Response Framework which has the chain of command flowing from 
the Governor allowing the system to be more responsive in support of 
the local governments. Experience has taught us that it is better to 
get out in front of a pending disaster than to try and play catch-up. 
Although this approach may incur some up-front costs (possibly 
significant) and political risks, the value of mobilizing and pre-
positioning needed assets at critical times and locations has proven to 
be a successful strategy.
    The ability of our State and local governments to amass, process, 
and share information is a model for the Nation. Using a common 
internet-based Emergency Management Common Operating Picture (EMCOP), 
along with the South Carolina Common Operating Picture Enhanced (SCOPE) 
enables military and civilian organizations at all levels of response 
to see a common picture. These systems allow us to integrate 
information without regard to the source. Examples include traffic 
cameras, streaming video from a military platform and database 
information on the readiness of a potential unit from another State. 
With this information we are able to target areas for emphasis and to 
project resourcing. At the same time, we must be careful of information 
overload, along with our vulnerability to a cyber threat.
    The S.C. National Guard has emerged from 13 years of war as the 
most ready National Guard in the history of our State. While our Army 
force structure has been reduced from 11,000 to 9,000, our abilities to 
deploy the force in a timely and effective manner are increased. We 
have an excellent combination of the 10 essential capabilities 
determined by the National Guard Bureau needed for State emergencies. 
These capabilities are Command and Control, Logistics, Aviation, 
Security, Engineering, Transportation, Medical, CBRN (Chemical, 
Biological, Radiological, and Nuclear), Maintenance, and 
Communications. Our internal aviation lift and utility capabilities are 
much more robust than in 1989. In 1989 we had three UH-1 Huey 
Helicopters. Today we have 11 UH-60 Black Hawk Medium Utility 
Helicopters, 4 UH-72 Lakota Light Utility Helicopters, and 6 CH-47 
Chinook Heavy Utility Helicopters. We also have access to additional 
aviation assets located in neighboring States. Our security force 
structure is similar to 1989 along with our maintenance, logistics, and 
medical. Communications is greatly enhanced because of force structure 
changes and technology. Transportation is enhanced due to the addition 
of a Transportation Battalion. CBRN is greatly enhanced due the 
training of our Civil Support Team and the addition of a Chemical 
Company.
    Command and Control has been degraded based on the loss of our 
Brigade Combat Team (BCT), but that loss has been mitigated by the 
addition of a Maneuver Enhancement Brigade (MEB). The MEB is a capable 
organization but does not have the full planning or reconnaissance 
capability of a modern BCT.
    We have added an engineer battalion to the State since Hugo, but 
total engineering capability has increased only slightly due to today's 
battalions being significantly smaller than battalions in 1989. Our 
current battalions are very modern but the equipment is very 
specialized. In 1989, engineer battalions consisted of companies of 
Sappers who were multi-purpose. Today the companies are specialized 
with route clearance, vertical construction, horizontal construction, 
and bridging equipment. These engineers will be harder to repurpose to 
domestic relief than the engineers of 1989 based on the equipment. The 
flexibility and sense of commitment of our soldiers remain the same.
    With the reduction in manpower, the Military Department has fully 
incorporated the capabilities of the Air National Guard. The Air 
National Guard brings command and control, airfield management, 
transportation, and engineering capabilities. Additionally, the S.C. 
Air National Guard has a program called Eagle Vision that was not 
available during Hurricane Hugo. Eagle Vision consists of five DoD-
deployable, commercial satellite ground stations that are located in 
South Carolina, Alabama, California, Hawaii, and Germany. They each 
provide users with near real-time commercial satellite imagery of 
locations within their 1,300-mile visibility circle. Eagle Vision 
Stations are used to collect and disseminate imagery to various 
Government agencies such as FEMA and USGS during natural disasters. 
They also support mission planning, time-critical targeting, and non-
war-related operations.
    The State Guard has been professionalized and brings about 600 
general-purpose troops for tasks like debris clearance and search-and-
rescue. The organization also has sections that consist of professional 
engineers, lawyers, medical personnel, and volunteer deputies. These 
specialized sections can be employed in the support of a local agency 
while being protected under State law.
    Overall our National Guard capabilities have improved especially in 
the areas of aviation, transportation, and command and control. Our 
loss of a BCT puts us behind our neighboring States in organic command-
and-control capabilities, but we have compensated using our MEB and ad 
hoc augmentation. Our ability to collect and analyze data greatly 
enhances our response effectiveness but it also creates vulnerability.
    Our Emergency Management Assistance Compact (EMAC) agreements are 
greatly enhanced due to increased capabilities and stronger 
partnerships with our neighboring States. Additionally, the 
coordination of these resources through National Guard Bureau increases 
the reliability of commitments; however, the formalizing of these EMAC 
requests has slowed the ``leaning forward'' response by neighboring 
States. In 1989, States would send assets without assurance of payment 
for services. Today that response is a slower.
    Use of Federal capabilities is more formalized than during Hugo and 
provides the opportunity for better coordination. Significant 
improvements have been made in the last few years to build/enhance 
relationships with our local, State, and Federal partners especially at 
the Federal level with FEMA, NORTHCOM (Northern Command), and DHS 
(Department of Homeland Security). These partnerships have allowed the 
valuable experience gained from minor storms/events in South Carolina 
and major storms (Hurricane Andrew, Katrina, and Superstorm Sandy) on 
the National level to be shared and exercised in various training 
events to include Vigilant Guard.
    The use of a dual status commander within a State ensures unity of 
command and effort. Recent disaster response in other States using 
Federal forces has had mixed results. These forces have the potential 
to fill capability gaps or shortfalls within a State. The request 
process is burdensome, although it is being streamlined. Often because 
of political pressure or relevancy issues, Federal forces are 
prepositioned or employed without a request from the affected State. 
These actions can inhibit restoration efforts and waste a tremendous 
amount of money.
    Federal funding is a big issue. Federal forces are positioned 
without cost to the State, however, the Federal Government does not 
fund EMAC repositioning which is quicker and less expensive. This 
disparity creates false economies and wastes valuable resources. 
Legitimate requests for Federal forces can be labor-intensive. Reform 
efforts are on-going but are dependent on leadership and the commitment 
to State sovereignty. While the dual status commander position is a 
great start, there needs to be a legal commitment to State sovereignty, 
funding for EMAC positioning and responsiveness of Federal forces.
    FEMA is very responsive to the needs of a State during a crisis. 
They take a very proactive and cooperative approach. The approval of 
Federal funds is still a very laborious process and is time-consuming. 
It is frustrating to a State that Federal funds being sent to a State 
are delayed by bureaucracy while Federal assets are free to reposition 
with little or no cost consequences. These dynamics are outside of 
FEMA's control but should be addressed to increase a State's ability to 
cooperate and respond with other States within a region.
    South Carolina is better-prepared to respond to a storm like Hugo 
than we were in 1989. Our level of training, common situational 
awareness and ability to command and control are integrated at every 
level. Aviation is much more robust enhancing our search-and-rescue 
efforts. The ability to collect and merge real-time data enables us to 
focus our response efforts. All State agencies are much more aware of 
their responsibilities and are more prepared. At the same time we have 
to be aware of the increased expectations of the public and the threat 
of our enemies taking advantage of a crisis. The integration of Federal 
assets is still being developed and has not advanced as much as our 
State capabilities. Funding for Federally-declared disasters is still 
slow, inconsistent, and unwieldy. Hugo was a defining moment for South 
Carolina Emergency Management. After this devastating storm, South 
Carolina leaders and our citizens proved their ability to deal with 
such a catastrophe and their resiliency. It is clear a similar storm 
could have a greater impact due to population growth, increased 
expectations and increased threats; however, we are confident South 
Carolina is much better prepared than we were in 1989 because of 
increased capabilities, preparation, planning, and partnerships.

    Mr. Duncan. Thank you, General. Thanks for your service.
    The Chairman will now recognize Mr. Stenson for 5 minutes.

   STATEMENT OF KIM STENSON, DIRECTOR, EMERGENCY MANAGEMENT 
               DIVISION, STATE OF SOUTH CAROLINA

    Mr. Stenson. Good afternoon, Chairman Duncan, Congressman 
Meadows.
    Mr. Duncan. Kind of swing that mike around. It might help. 
Thanks.
    Mr. Stenson. It disappeared for a second.
    Thank you for this opportunity to discuss where we are in 
preparing for the next Hurricane Hugo. State Emergency 
Management has done much in the last 25 years to prepare for 
the next Hugo.
    We do know that the State's coastal population has 
continued to grow rapidly. According to our own estimates, if a 
storm of similar intensity on the same path as Hugo were to hit 
the State today, it would cause more than $16.6 billion in 
damages and destroy more than 21,000 homes State-wide.
    So much was learned from Hurricane Hugo, and we put to 
practice many lessons that Hugo taught. Day-to-day, neither 
citizens nor government in South Carolina is ready to deal with 
major disasters. To prepare State Government for the 
inevitability of just such an event, the State Emergency 
Management Division has coordinated and drawn up a series of 
elaborate plans to deal with all hazards, including hurricanes 
that might affect the State. The plans have been refined and 
tested through the years and are better than ever before.
    Key among them is a South Carolina Emergency Operations 
Plan, which assigns missions for agencies and volunteer 
organizations all working together as the State emergency 
response team. Further, it establishes which agencies are 
responsible for what actions following a disaster.
    Additionally, the State has developed and refined a 
comprehensive hurricane plan. Such a plan did not exist 25 
years ago, and it now includes storm-affected areas and shelter 
locations based on scientifically-drawn information matrices 
for evacuation decision making, and extensive and excellent 
traffic management and lane reversal provisions.
    Prior to Hugo, few exercises had been conducted at the 
State level. Today, the State exercise program has never been 
stronger, and State-wide exercises are conducted yearly.
    In June of this year, EMD conducted an unprecedented 4-day 
State-wide exercise in concert with Hurricane Awareness Week. 
The exercise tested the response and recovery plans and 
operations State-wide.
    Organizationally, key members of the State emergency 
response team have worked together productively for many years. 
That combined with the process of planning, training, and 
working together hones skills and builds a solid team in a far 
more advanced way and far more extensively than ever before.
    Ultimately, the process results in strong and diverse 
relationships, which we think are crucial for success when 
disasters occur.
    Affirmation of the increased professionalism and notable 
progress in South Carolina emergency management became evident 
when it attained full National accreditation by the Emergency 
Management Accreditation Program. South Carolina's emergency 
management system has demonstrated through program assessment 
that South Carolina's program meets National standards.
    Annually for the past 15 years, the division has produced 
and published the official State hurricane guide as part of the 
overall campaign to increase public awareness in dangers.
    When disasters occur, the division utilizes contemporary 
and traditional media to provide timely and accurate 
information to the public and interacts extensively through 
social media. Such public outreach and interaction did not 
exist when Hugo arrived 25 years ago.
    The world of technology that exists today is radically 
different from the technology in 1989. It includes computers, 
smartphones, internet, social media, GPS, high-definition 
video, and live inter-State traffic cameras.
    Two important technological improvements are the 800 MHz 
radio system, which provides State-wide communications 
interoperability, and the Emergency Management Common Operating 
Picture, a situational awareness tool that provides a common 
view of the situation, which is vital to the coordinated 
response.
    Are we ready for the next Hurricane Hugo? The answer is 
yes, but it is important to note that regardless of how much 
planning and preparation take place, a Hurricane Hugo today 
will still leave people without power, away from their homes, 
and roads impassable for extended periods of time.
    Perhaps a better question is: Are we prepared for the next 
Hurricane Hugo? Yes, we are. We have made much progress, but 
much remains to be done. Our never-ending challenge is to build 
upon the progress made in the last 25 years and continue to 
mitigate the overall effects of the next Hurricane Hugo.
    Thank you for the opportunity to testify, and I look 
forward to any questions you might have.
    [The prepared statement of Mr. Stenson follows:]
                   Prepared Statement of Kim Stenson
                           November 21, 2014
    Good afternoon Chairman Duncan, Members of the committee, and 
colleagues. On behalf of the South Carolina Emergency Management 
Division, thank you for this opportunity to discuss where we are in 
preparing for the next Hurricane Hugo.
                            the hugo legacy
    Hurricane Hugo slammed into The Palmetto State north of Charleston 
just before midnight on September 21, 1989. By early the next morning, 
it had changed the lives of 1.8 million people, in one way or another, 
and in its wake had left damages that marked it as South Carolina's 
``Storm of the 20th Century.''
    The human suffering associated with Hugo is compelling:
  <bullet> 35 deaths (13 directly related, 22 indirectly related) and 
        hundreds of injuries;
  <bullet> $6.5 billion in damages (not adjusted for inflation);
  <bullet> 264,000 evacuated from their homes in 8 counties;
  <bullet> 270,000 unemployed;
  <bullet> 60,000 homeless;
  <bullet> 54,000 sought disaster assistance;
  <bullet> Almost 90,000 people took refuge in 191 Red Cross shelters 
        at the height of the evacuation;
  <bullet> For 30 days, the American Red Cross fed people in shelters 
        and on mobile feeding routes;
  <bullet> $62 million in food stamps was issued to more than 200,000 
        households;
  <bullet> $3.8 million was spent initially to rebuild dunes;
  <bullet> 3,000-plus active-duty service members were deployed to 
        help;
  <bullet> 30 assistance centers got applications for loans, grants, 
        housing, and other needs;
  <bullet> More than 6.7 billion board feet in timber valued at $1.04 
        billion was lost. The damaged timber, concentrated on 4.5 
        million acres, represented 36 percent of the State's woodlands.
  <bullet> $55.6 million in damages to primary and secondary schools.
  <bullet> More than $2 billion in crop damages.
  <bullet> Presidential disaster declarations were issued for 24 
        counties seeking Federal disaster assistance.
                 preparing for the next hurricane hugo
    State Emergency Management has done much in the last 25 years to 
prepare for the next ``Hugo.'' We know it will happen; we just don't 
know when. We do know that the State's coastal population has continued 
to grow rapidly, and according to our own estimates, if a storm of 
similar intensity on the same path as Hugo were to hit the State today, 
it would cause more than $16.6 billion in damages and destroy more than 
21,000 homes State-wide. So our preparations are on-going and evolving.
    In the past quarter-century, emergency management in general has 
moved light years ahead, and South Carolina has gained significant 
ground because those advances have been integrated into our facilities, 
our technology, our staff, and our process of planning, testing plans 
through exercises, and dealing with real-world events. The process is 
crucial, we believe, not only for the tangible products but for the 
relationships and team-building that occur as a result of it. We have 
put to practice many lessons that Hugo taught. Here are a few:
    1. Comprehensive Planning.--Day-to-day, neither citizens nor 
government in South Carolina is ready to deal with major disasters. To 
prepare State government for the inevitability of just such an event, 
the State Emergency Management Division has coordinated and drawn up a 
series of elaborate plans to deal with all hazards--including 
hurricanes--that might affect the State. The plans have been refined 
and tested through the years and are better than ever before. Key among 
them is the South Carolina Emergency Operations Plan, or SCEOP, which 
assigns missions for agencies and volunteer organizations all working 
together as the State Emergency Response Team. Further, it establishes 
which agencies are responsible for what actions following a disaster. 
The plan is organized according to Emergency Support Functions or ESFs, 
similar to Federal ones, which emergency managers believe facilitate 
coordination between State and Federal agencies. Additionally, as an 
appendix to the overall SCEOP, the State has developed and refined a 
comprehensive hurricane plan. Such a plan did not exist 25 years ago. 
It evolved and grew through the ensuing years, and now includes storm-
affected areas and shelter locations based on scientifically-drawn 
information, matrices for evacuation decision making, and--as a result 
of experiences in 1999 with Hurricane Floyd--extensive and excellent 
traffic management and lane-reversal provisions developed by the 
Department of Public Safety. The State also has developed a recovery 
plan, which sets forth in detail many of the contingencies that had not 
been provided for when Hugo hit, including methodology for management 
of donated goods, an issue that was a source of harsh criticism 
following Hugo. Additionally, the State has put into place a logistics 
plan and manager, a functional element nonexistent in South Carolina in 
1989, but now considered vital to successful disaster response.
    2. Full-Time Hurricane Program Management.--SCEMD now has a full-
time hurricane program manager, a position that did not exist when Hugo 
hit. The manager works with representatives from local, regional, and 
National levels to address hurricane issues. Meetings coordinated by 
the manager occur regularly with Hurricane Task Force members to 
identify and resolve issues.
    3. Exercises.--Prior to Hugo, few exercises had been conducted at 
the State level. Today, the State exercise program has never been 
stronger, and State-wide exercises are conducted yearly. In June, EMD 
conducted an unprecedented 4-day State-wide exercise in concert with 
Hurricane Awareness Week. The exercise tested response and recovery 
plans and operations State-wide.
    4. Maturity and Experience.--Organizationally, key members of the 
State Emergency Response Team have worked together productively for 
many years. That, combined with the process of planning, training, and 
working together, hones skills and builds a solid team in a far more 
advanced way and far more extensively than ever before. Ultimately, the 
process results in strong and diverse relationships, which we think are 
crucial for success when disasters occur.
    5. Professionalism.--Emergency management is an emerging profession 
in the Nation and in South Carolina. In recognition of its importance 
within the realm of public service, several universities including 
Lander, Anderson University, Columbia College, and Clemson, have begun 
offering emergency management curriculum. Those offerings are improving 
the quality of emergency management practitioners State-wide. 
Affirmation of the increased professionalism and notable progress in 
South Carolina emergency management became evident when it attained 
full, National accreditation by the Emergency Management Accreditation 
Program (EMAP). The accreditation was first granted in 2008, and re-
accreditation was awarded in 2013. The accreditation process rigorously 
examined the ability of South Carolina State and local government to 
respond to and prepare for disasters. EMAP sets National standards for 
all aspects of a qualified emergency management program. SCEMD's 
abilities to plan for a disaster, to reduce the impacts of a crisis, 
and to assist in the State's recovery from devastation were all 
examined to ensure 63 National standards were met by the State's 
Emergency Management Division. S.C.'s emergency management system has 
demonstrated, through program assessment, documentation, and on-site 
assessment by an independent team, that South Carolina's program meets 
National standards.
    6. Increased National Guard Capabilities.--While the S.C. National 
Guard made major contributions to the response and recovery effort 
during Hurricane Hugo, Maj. Gen. Robert Livingston, the State's 
Adjutant General, recently noted the State's 11,000 Army and Air 
National Guard are much better equipped now than when Hugo hit. The 
S.C. National Guard has more capability in several areas to include 
aviation, engineering, mobile air traffic control, communications, 
imagery, and streaming video. Further, repeated Guard deployments to 
Iraq and Afghanistan have produced a trained cadre of men and women who 
are familiar with working under difficult conditions.
    7. Public Awareness.--Annually for the past 15 years the Division 
has produced and published the official State Hurricane Guide as part 
of an overall annual campaign to increase public awareness of hurricane 
dangers. The guide, which is distributed State-wide via the internet 
and along the coast as a newspaper insert, provides information to the 
public that is critical to life safety before, during, and after 
storms. In addition, the Governor of South Carolina issues annual 
proclamations for Hurricane Awareness Week and makes coastal media 
tours to emphasize the storms' importance. Furthermore, the Division 
participates in numerous awareness events in all coastal counties. When 
disasters occur, the Division utilizes contemporary and traditional 
media to provide timely and accurate information to the public, and 
interacts extensively through so-called social media. Such public 
outreach and interaction did not exist when Hugo arrived 25 years ago.
    8. State Emergency Operations Center.--The current location of the 
State Emergency Operations Center, which also houses the State 
Emergency Management Division, did not exist when Hugo came to call. In 
1989, the Division was located in a poorly-staffed, highly-inadequate, 
technologically-insufficient location in downtown Columbia, in the 
basement of the Rutledge Building. The facility did not have a 
dedicated and adequate State Emergency Operations Center, and much of 
the available technology was antiquated and insufficient. In the year 
2000, the Division moved into its current location after retrofitting a 
former National Guard armory to contemporary standards for State 
emergency operations and management. The facility greatly enhances the 
Division's ability to function properly. The move would not have been 
possible without the assistance of Emergency Management Performance 
Grant funding.
    9. Technology.--When Hurricane Hugo hit South Carolina, some county 
emergency management offices did not even possess fax machines. In the 
Emergency Management Division there were only three computers, but they 
were not connected by a network and they were rarely used; most 
business was conducted on paper. The world of technology that exists 
today is radically different from the technology available then. The 
new technology includes ubiquitous computers, smart phones, the 
internet, social media, Geographic Positioning Systems, high-definition 
video and live inter-State traffic cameras. None of the technological 
advances the Division has made to keep up with new technological 
demands would have been possible without assistance through Emergency 
Management Performance Grants. Two recent and important technological 
improvements are the 800-MHz radio system and a system that provides a 
common operating picture to responders. The 800-MHz, trunked, two-way 
radio system is a redundant communication system that allows for 
communication among State and local government entities State-wide. 
Most of the towers integral to the system have backup generators, and 
the Civil Air Patrol provides airborne repeaters when ground systems 
fail. The Emergency Management Common Operating Picture (EMCOP), a 
situational awareness tool, can be accessed anywhere on-line, and it 
provides a common view of the situation, which is vital to a 
coordinated response.
    10. Assistance Requests.--The Emergency Management Division was 
harshly criticized post-Hugo for its inability to effectively manage 
requests for assistance from counties, organizations, and individuals. 
The Division was not equipped to efficiently handle the vast number of 
requests. Today, the Division uses computer technology to receive and 
track requests, and the system is also utilized in counties. It is far 
superior to paper, handwritten forms, and tracking methods used when 
Hugo happened.
    11. Specialized Teams.--State or regional Urban Search and Rescue, 
Incident Management, and Medical Assistance Teams were not available in 
1989. South Carolina now has 5 Urban Search and Rescue Teams, 5 
Incident Management Teams, and 4 Regional Medical Assistance Teams to 
back-up local resources.
    12. Consistent Evacuation Signage.--When Hugo came, evacuation 
signage on the coast was varied or non-existent. Since then, the EMD 
worked with the State Department of Transportation to install 500 
standardized evacuation signs in 19 South Carolina counties that mark 
the evacuation routes.
    13. County Improvements.--All 46 South Counties have a dedicated 
emergency manger and emergency operations center, which SCEMD supports 
financially through the Emergency Management Program Grants. The 
majority of Federal funds SCEMD receives pass directly to local 
emergency management program, although EMD keeps a portion for basic 
operating costs.
                               conclusion
    Much progress has been made in planning for the next Hurricane Hugo 
and much of that planning has been supported by Emergency Management 
Performance Grants, Pre-disaster Mitigation Grants and other Homeland 
Security grants. These resources have been integral to supporting many 
of the initiatives discussed and their continued support is key to 
maintaining and sustaining our efforts in preparing for the next 
Hurricane Hugo in South Carolina.
    While many things have changed in emergency management since Hugo, 
a primary one has not: No force wielded by human beings can equal the 
catastrophic ferocity of nature, and a major hurricane is still a 
tremendous challenge. Many changes have been made in response to the 
demands of Hurricane Hugo, and those changes have universally improved 
the State's ability to respond to not only hurricanes but to any 
disaster--natural or man-made--that the State might encounter. Are we 
ready for the next Hurricane Hugo? The answer is yes, but it is 
important to note that regardless of how much planning and preparation 
take place, a Hurricane Hugo today will still leave people without 
power, away from their homes, and roads impassable for extended periods 
of time. Power will not be instantly restored, people will not be able 
to immediately return to their homes, and roads will not 
instantaneously be cleared. Perhaps a better question is are we better 
prepared for the next Hurricane Hugo? Yes, we have made much progress 
but much remains to be done. Our never-ending challenge is to build 
upon the progress made in the last 25 years and continue to mitigate 
the overall effects of the next Hurricane Hugo. We will continue to 
move forward with your continued support.
    Thank you for the opportunity to testify and I look forward to any 
questions you may have.

    Mr. Duncan. Thank you so much.
    The Chairman recognizes Sheriff Skipper.

 STATEMENT OF SHERIFF JOHN S. SKIPPER, JR., SHERIFF, ANDERSON 
                     COUNTY, SOUTH CAROLINA

    Sheriff Skipper. Thank you, Mr. Chairman and Representative 
Meadows.
    Mr. Duncan. If you could turn the mike around, it just 
helps for this room.
    Sheriff Skipper. Again, Mr. Chairman and Representative, 
thank you for the opportunity to be here. Being the last on the 
list, I have a lot of stuff in my statement they have already 
said, so I am going to jump on a little bit and expound to tell 
you and elaborate on from the county level everything these 
folks have already said is true.
    With the cooperation of work and effort along with 
everyone, the numbers show--I was surprised on some of the 
numbers. There has never been a Category 5 hurricane hit South 
Carolina. It has always been 4s and 3s and things like this.
    So with that said, and Mr. Stenson said that about the 
exercises we have been having since Hurricane Hugo, I would 
just like to go through the list, because I think it is 
important to tell everyone who has participated in that, when 
they set these examples up and exercises around the State, you 
are talking about the Emergency Management Division along with 
State Law Enforcement Division, the South Carolina National 
Guard, the South Carolina Highway Patrol, the South Carolina 
Department of Natural Resources, plus many local agencies such 
as sheriff offices, fire departments, local, county, and city 
fire departments, and the police chiefs within their local 
departments, and with the county emergency management along, in 
the up-State, and I can speak to this because I am from the up-
State in Anderson County, our public health entities and 
hospitals all participate in these exercises.
    We look at it, as you have already heard from these folks, 
from the whole-community approach, that it is all part of the 
community. It is not just individual silos that happen. We have 
to be out there communicating with each other.
    Interestingly enough, it doesn't take a direct hit from a 
hurricane to actually cause us problems. Examples of those are 
Andrew, when those came through Florida and ended up coming up 
through the up-State and causing mostly flooding and spawning 
tornadoes, which causes us problems. So it is not just a direct 
hit from a hurricane. That was in 1992. Also, Hurricane Ivan, 
Hurricane Katrina, still caused us a lot of problems.
    The reality is that all disasters, whether natural or man-
made, are local and regional in nature. They come to us at the 
local level to be able to have to approach it. So we have been 
training with that concept on the all-hazards approach.
    My daddy always told me it is always good to know where you 
come from to know where you will be going. So with that, I give 
an example of the Superstorm Sandy in 2012. One thing that came 
out of that was the media aspect.
    They set up some media levels where people were texting and 
grabbing those texts and being able to go out there and 
outsource--crowdsourcing, as you call it in the computer world. 
I think the technical guys are going to talk to us later from 
Clemson.
    But when you grab that information, it actually gave them a 
better intel-driven support on where needs were, rather than 
everybody trying to figure out where it was. So that was good 
input from there.
    The local FEMA and when we deal with local issues when FEMA 
comes about--and we need to look at them, I think, as a good 
Federal partner, because as we have seen as from other 
disasters, within the first 48 to 72 hours, we are kind of 
there. It is us waiting for those assets to get there. So we 
need to be prepared. I think the up-State is being prepared, 
and I am going to give you some examples.
    A quick example is February of this year. We had an ice 
storm in Barnwell County. Small Barnwell County had a disaster. 
They had one emergency manager, one or two people in the 
office. They had trees down. Power lines down. Duke Power was 
out all over the State trying to do those things.
    We have a group, and I am going to talk about it in a 
minute, in the up-State that reached out to them. David Porter 
is actually here in the audience. He is the emergency manager 
and Abbeville County. He reached out to them and said, if you 
need any help, because we actually survived part of that storm 
in the up-State.
    So we sent people down there and ended up being Anderson 
County, Abbeville County, and Jasper County sent folks down 
there to help them mitigate the plan and let the manager go 
home and get some rest. With that, they helped do the disaster 
plan that the Governor was needing to put in for the FEMA 
request.
    So that all comes out from a thing that we started in 
Anderson County back when I was a captain. It is called the 
Western Piedmont Regional Emergency Managers Task Force. That 
is the five counties around me. That is Pickens County, Oconee 
County, Anderson County, Abbeville County, and Greenwood 
County.
    We put this group together years ago because we found out 
that we were putting in for grants--we, the sheriff offices and 
emergency managers in Anderson County. Come to find out, these 
other counties were putting in for the same grants for the same 
stuff. So we formed this group to put our heads together to say 
we can go forth, and let us get some equipment and let you get 
some equipment, and we can all share, so we won't all be 
competing for the same thing.
    There is a 1033 program out there that the Government 
supplies to us. That equipment is very good for us, especially 
people that have small budgets. About the only issue I have 
seen negative come out of it is some of our community sees it 
is as kind of the Federal Government coming in and wanting to 
take over the local assets. But as we know, that is not true.
    There are other programs that we have already mentioned 
here. I think it is important to understand and know that, in 
Anderson County, we realize that when something happens, it 
could very well be it is going to be on us for a while. We are 
going to have to sustain those assets, and, like I always say, 
wait for the cavalry to arrive. We, certainly, appreciate when 
they do.
    I can't express enough from our State partners that when we 
are in trouble or we need assistance, they are always there, 
and they are always in the planning.
    I will give you this quick example in closing. We just went 
through accreditation at the 9-1-1 center and hopefully will be 
accredited in March. One of the managers came in from 
Mississippi, and he started in law enforcement in 1962, so he 
has been around a little longer than me. So with that said, he 
said, I go all over this country doing accreditations, and in 
looking at what we were doing in our 9-1-1 center, because we 
have the plans in place that include Pickens County, Oconee 
County, Abbeville County, and Greenwood County, and our 
responses as part of that task force, he said, I have never 
seen any county that I have been to that coordinate and 
communicate better than this county and those counties with us.
    So with that, we appreciate your having me here, and I will 
be glad to answer any questions.
    [The prepared statement of Sheriff Skipper follows:]
               Prepared Statement of John S. Skipper, Jr.
                           November 21, 2014
    It has been over 25 years since Hurricane Hugo slammed into the 
city of Charleston, SC, around midnight on the 22nd of September in 
1989. The hurricane, a Category 4, made landfall near Sullivan's 
Island. The hurricane caused 13 directly related deaths and 22 
indirectly related deaths, and it injured several hundred people in 
South Carolina. Damage in the State was estimated to exceed $7 billion, 
including $2 billion in crop damage. Not even including the expansive 
growth of the South Carolina Coastal region since 1989 that would be 
closer to $15 billion in today's economy. Add to that the negative 
economic impact if the recent Boeing manufacturing facility were to 
sustain damage or delays in filling orders.
    According to the South Carolina Department of Natural Resources, 
hurricanes and tropical storms are infrequent visitors to coastal South 
Carolina. In the period, 1901-present, only 27 tropical cyclones have 
made landfall on the South Carolina coast. Of these, only 8 were of 
Category 2 to Category 4 intensity. Since 1900, no Category 5 
hurricanes have hit South Carolina. There have been 2 Category 4 
hurricanes, Hazel in 1954, and Hugo in 1989 and 2 Category 3, an 
unnamed storm in 1945 and Gracie in 1959.
    Since Hugo, the State of South Carolina has worked to improve its 
readiness and response to a direct hurricane hit. Almost annually the 
State Emergency Management Division, along with other State agencies 
such as the State Law Enforcement Division (SLED), the South Carolina 
National Guard, the South Carolina Highway Patrol, the South Carolina 
Department of Natural Resources, (DNR) plus many local agencies, such 
as county sheriff's offices, police chiefs and their local departments, 
county emergency management, along with public health agencies and 
hospitals, participate in intensive drills and exercises to train first 
responders on how to mitigate the potential damage, and to preserve 
lives. These exercises are conducted using a ``whole-community 
approach'' to maximize recovery and resiliency efforts, and test and 
improve the Emergency Management (EM) System. It should be noted, it 
does not take a direct hit from a hurricane, such as Hurricane Hugo, to 
negatively impact the State of South Carolina. Most of the deaths and 
injuries from tropical cyclones are not from the wind, but from 
flooding and frequently spawned tornadoes.
    Recent hurricanes, that did not directly hit South Carolina, caused 
wide-spread damage within the State, and in up-State South Carolina. 
Here are just a few of many examples. Hurricane Andrew hit the greater 
Miami area of Florida in August 1992. The storm tracked into the Gulf 
of Mexico and inland again, making its way toward the up-State of South 
Carolina. The remnants of this storm left a large amount of rain and 
flooding, even spawning tornadoes. The same is true with Ivan in 2004 
and Katrina in 2005. Even though these storms did not hit South 
Carolina directly, their impact and damage was felt in South Carolina.
    The reality is this, most all disasters, whether natural or man-
made, is either local or regional in nature. A local response, using an 
all-hazards approach, is the most effective and most efficient method 
of dealing with these situations. Superstorm Sandy, which struck the 
northeast in October 2012, impacted a large area, but for the most 
part, was handled by local authorities in the areas hit. Superstorm 
Sandy also demonstrated the value of using social media in ascertaining 
where to best deploy resources in the recovery efforts. Crowd-sourcing 
became an effective tool in assessing need. Crowd-sourcing, using open-
source tools, allows Emergency Operation Centers (EOC's) two-way 
communication with the public, providing validated ``intel-driven'' 
solutions and responses for effective actions to any given situation or 
disaster. While, as in the case of Superstorm Sandy, FEMA played a 
significant part. The primary mitigation and recovery efforts were 
handled at the local and State level. Local and State governments 
should not look at FEMA as the primary responder in any given disaster, 
as that would be logistically impossible. FEMA needs to be viewed as a 
valued Federal partner providing additional resources in the recovery 
and rebuilding efforts. FEMA's advance support of local agencies 
provides those agencies with the needed tools to be able to respond 
quickly and effectively.
    In February of this year South Carolina experienced a significant 
winter storm. Many counties were affected to varying degrees. One 
county, Barnwell County, experienced major damage from an unprecedented 
ice storm event. This storm knocked out power, and took down numerous 
trees, blocking roadways. It became more than the local emergency staff 
could handle on their own. However, rather than reaching out to the 
Federal level for help, Barnwell was helped by their regional neighbors 
in dealing with that situation. Staff from Anderson County assisted 
Barnwell County, as did Abbeville and Jasper Counties.
    One of the great changes in recent years, at least in the up-State 
of South Carolina, is mutual cooperation across county lines. Several 
years ago several counties got together to form the Western Piedmont 
Regional Emergency Management Task Force. This regional organization, 
which currently consist of 5 counties, has been working and training 
together to help each other in times of disasters. By shedding old 
territorial boundaries, we have found a way to maximize limited 
resources during tough economic times.
    The Federal 1033 program administered by the Department of Defense, 
has been a major help for local agencies. The U.S. Department of 
Defense (DoD) 1033 Program permits the Secretary of Defense to transfer 
excess DoD supplies and equipment to State and local law enforcement 
agencies for use in their law enforcement duties. This property is 
procured at no cost to the agency with the exception of any shipping or 
transportation costs.
    The type of property available includes but is not limited to 
tactical and riot gear, vehicles, watercraft, weapons, and night 
vision. All equipment must be strictly accounted for. It has been a 
great benefit at the local level in being able to procure materials 
that otherwise might not be obtainable by limited local budgets. In 
Anderson County we have used some of these assets in recent winter 
storm events in 2005, 2010, 2012, and this year of 2014. The Boston 
bombing event in April 2013 reminds us how such assets can be deployed 
for the benefit and safety of the public at large on the local level. 
However, the only negative aspect of the program has been the public 
perception that this is nothing more than the Federal Government trying 
to leverage control or takeover of local law enforcement and their 
associated emergency management agencies.
    In addition, Defense Support of Civil Authorities (DSCA) the 
process by which National Guard, Army Reserve, and other military 
assets and personnel can be used to assist in missions normally carried 
out by civil authorities, such as responses to natural and man-made 
disasters, law enforcement support, special events, and other domestic 
activities, has been an additional asset for local agencies. In 
Anderson County our Emergency Management has been under the Sheriff's 
Office for 5 years. For us, this has proven to be an effective 
partnership, as in times of disasters and emergencies, both agencies 
must work together. Being under the same umbrella has proffered a good 
working relationship and understanding, which benefits our entire 
community.
    In looking at how we would deal with a Hurricane Hugo-type event in 
the 21st Century, the lessons learned since that time are invaluable. 
Local preparedness and local incident management are vital in 
resiliency. Using technology to better inform the public and media are 
essential in putting forth an accurate message. Developing partnerships 
with fellow stakeholders, rather than working in individual silos is 
imperative. By working off a common operating platform and unified 
command, duplication of efforts is avoided, and a more effective 
response can be engaged. In times past, agencies working without 
coordination with other agencies often tended to either duplicate, or 
get in the way of other agencies efforts.
    Emergencies, at the local level, are best responded to at the local 
level. This is easy to understand, as local emergency management knows 
their capabilities and resources. They also know their regions and 
their unique risks. These agencies have also established local and 
regional partnerships, and have built long-standing relationships, 
invaluable during times of disaster. For example, in Anderson County, 
we are located on a major Interstate corridor, Interstate 85, which is 
the commerce link between Atlanta and Charlotte, and a large part of 
the United States. Critical infrastructure is in our region, including 
major nuclear power generating facilities, and major vital industry. 
The loss of any of these would not just impact the local region, but 
would have a domino effect over a far larger region. Our well-
established relationships and partnerships give us an edge on our 
initial response to any given situation, and can help sustain those 
efforts during those critical first 72 hours; the time frame that 
additional outside assets may need to prepare and arrive.
    Other lessons learned are to use creative methods to share 
information with the public. Superstorm Sandy demonstrated the power of 
crowd-sourcing and social media. Social media can be a two-way street 
to learn from the public where the problems are, and to best deploy the 
most effective response. Recent innovations, some that have been 
initiated at the Federal level include the IPAWS system. IPAWS, or the 
Integrated Public Awareness System, allows local emergency managers the 
ability to send timely and accurate information via multiple platforms, 
including text messaging, the Emergency Alert System at local radio, 
television, and cable outlets, and NOAA Weather radio from one common 
platform, just to name a few. Anderson County is a participant in the 
IPAWS program, one of the very first in South Carolina, and among a 
small number Nation-wide.
    Anderson County has also developed its own set of applications to 
better serve the public. Anderson County was the first to deploy 
Safetown. Safetown is a website and phone application that can be used 
as a two-way street with the public. Websites and the extensive use of 
social media, including Facebook and Twitter in maintaining an on-going 
dialog with the public.
    In Anderson County we have the concept of ``Anderson Strong.'' We 
are working to inform the public, and even train the public to handle a 
variety of potential threats, including things the public can do when 
faced with workplace violence, active shooters, and even a school 
intruder event. Hundreds of people have gone through this training 
program to date, with many more training events planned.
    In Anderson County we realize that when something happens, we may 
very well be on our own for a substantial amount of time before other 
assistance, whether at the State or Federal level can arrive. Waiting 
on the Federal Government to handle a local matter is not an option for 
us, or any local emergency management agency. Emergencies are best 
administered from the ground up, not from the top down. When a crisis 
arrives, time is of the essence. In addition, local emergency 
management personnel know their local assets, resources, and have built 
established relationships to help in the mitigation and recovery 
efforts. The most efficient response, particularly at the Federal 
level, is to be a valuable resource and valued partner, but not to run 
the day-to-day aspects of any particular incident.
    Hurricane Hugo demonstrated the need for a stronger emergency 
management community. However, the lessons learned, and actions taken 
during this time, have a more far-reaching effect. Hurricane Hugo was 
not simply a coastal event. Its affect could be felt hundreds of miles 
away. Since 9/11/2001 the focus has been on an ``all hazards'' response 
to emergencies. While it is true that we are far more able to deal with 
the aftermath of a Hurricane Hugo, our agency is far better prepared to 
deal with any type of emergency that may come our way. When it comes to 
any type of disaster, natural or man-made, it's not a matter of if, 
it's simply a matter of when.

    Mr. Duncan. Sheriff, thank you.
    I want to thank all the gentlemen on behalf of the 
subcommittee. A lot of insight.
    So I want to recognize myself for a period of time for 
questions. What I would like to do is I will ask some questions 
for the first 5 minutes, and ask Mr. Meadows to ask some 
questions, and then we may have another round of questions with 
this panel seated.
    One question we have is: Why come to Clemson? Why bring a 
Congressional hearing into the State? No better place to focus 
on the things you heard about today on local, State, and 
Federal response to natural disasters, but also other type of 
events that could affect our safety and security.
    Let me start with Mr. Stenson. One of the lessons that we 
had after 9/11, and I think we experienced some of this after 
Hurricane Hugo, was just the ability for multiple agencies to 
communicate, whether it was local law enforcement, or whether 
it was first responders, or whether they were communicating 
with the folks at the Federal level. So if you could tell me 
what the State has done, working with the Federal Government, 
because I know there has been a lot of FEMA grants and Homeland 
Security grants to help.
    I remember 800 MHz radios when I was the State Legislature, 
but I think we have evolved even beyond that. So communication 
is vitally important. Can you tell me what we have done on 
that, in that regard?
    Mr. Stenson. Yes, sir, a couple things kind of at the 
broader level. I mentioned before about the Emergency 
Management Common Operating Picture. That also includes a 
program we call Web EOC. It is a Web-based Emergency Operations 
Center management system, basically.
    Basically, everybody that wants access to it in the 
Government sector can access that information. It is not only 
just physical information, like the number of shelters that are 
available or open roads, that sort of thing. But now we have a 
system here that we fielded about a year ago, EMCOP, Emergency 
Management Common Operating Picture, which allows us to look at 
it visually as well.
    Then you can look at different layers. If you want to just 
look at roads, you can look at roads. If you want to look at 
fire stations, all those things.
    So being able to do that and getting that common picture is 
critical, so that everybody knows, at the Anderson County 
level, at the State level, at the Federal level, we are all 
looking at the same picture.
    So at that larger level, that is very, very critical. A lot 
of that didn't exist even 10 years ago. But most States are 
working on that right now and have done something.
    I guess on the other piece of it, I also want to mention, 
in terms of the communications piece, is interoperability. You 
mentioned the 800 MHz. South Carolina is very fortunate. We 
have a very built-out 800 MHz system. It is trunked. The 
repeaters have generators. It works very well on a day-to-day 
basis. We think it has fairly high survivability, in terms of 
being able to operate.
    For those areas that may become affected, where the 
repeaters are not working, we do have a system where we use the 
civil air patrol as airborne repeaters and send them up in the 
air.
    For those folks on the ground who do not have 800 MHz 
capability, our budget control board, their information 
technology folks have a cache of 800 MHz radios that they can 
basically deploy to the field and pass out. They have done that 
on many smaller events.
    So I think those are some of the bigger things we have done 
in terms of communications interoperability and making sure 
that everybody is on the same plane. We are looking at----
    Mr. Duncan. Not to interrupt you, but during your emergency 
training, do you all practice on redundancy? Do you make sure 
in all eventualities that there is some form of communication?
    Mr. Stenson. Yes, sir. We do that. One of the things I 
didn't mention is one of the things we do on almost every major 
exercise is we bring down the communication system and work 
with the amateur radio folks.
    They have a presence in most counties, and they have proven 
to be, I won't say invulnerable, but they have a high level of 
capability, because it is fairly low-tech point-to-point 
communications. It is not very vulnerable. So those type of 
things.
    We also have a local Government radio system that we run 
that also does the same thing.
    So we do exercise those pieces during our exercises to make 
sure that we can use mobile repeaters and that sort of thing.
    Mr. Duncan. Just a couple follow-ups on that line of 
questioning. With Oconee Nuclear Station here, how well do you 
communicate with North Carolina?
    I know that is interesting to my friend from Western North 
Carolina.
    Mr. Stenson. We do very well, actually, and especially with 
the Catawba plant actually up in York. That is even more 
important in terms of that. We work very closely with North 
Carolina.
    Mr. Duncan. Are they comparable in the event of an 
emergency, the systems?
    Mr. Stenson. Yes, sir. We have a good relationship there.
    I think everybody knows that disasters do not know 
boundaries, so you are going to have to be able to work with 
the people in other States and across other counties and across 
those State boundaries. That is very critical.
    So yes, in fact, we do that. They will be part of the whole 
process. They will be on the conference calls. We will be 
consulting them. Yes, sir.
    Mr. Duncan. All right, I am going to continue down that 
line. Everybody in here probably has a smartphone in their 
pockets. Social media is such an important aspect of how we 
communicate with citizens.
    I know, Sheriff Skipper, the Sheriff's office has been 
using Facebook and social media to communicate about events 
within Anderson County. Let's expand that.
    How is South Carolina emergency management using social 
media to communicate with the citizens? Then I want to go 
beyond that and ask the folks at the Federal level how you 
integrate social media and how at the National level, for 
emergency response, we are communicating with folks in the 
Nation.
    So I want to start with you. Sheriff, if you want to chime 
in after that.
    General Livingston, this may not apply to the military. We 
will come back to you with some questions in a minute.
    But let's start with South Carolina.
    Mr. Stenson. Sir, that is something that we started up a 
couple years ago, getting very actively involved in that. 
Fortunately, we have some talent in-house that can do that. We 
routinely use that and use it both during disasters and day-to-
day.
    A lot of the information that push out--I am sure right 
now, as we are speaking, this is being pushed out through our 
social media channels. There is no doubt in my mind.
    Mr. Duncan. That is happening immediately?
    Mr. Stenson. Pretty real-time. Yes, sir.
    I have no doubt. I didn't check before I left, but I have 
no doubt that there is something out there right now on that.
    Then we will also do it during actual events. One of the 
things that we are working on, though, is we are working on a 
system of being able to effectively mine that data as it comes 
in.
    Right now, we are using it a lot in terms of pushing out 
the information. But there is also some intelligence value on 
what is going on out there in those different places that we 
should be able to get. But we have to be able to mine it and 
manage it. It is almost like a military intelligence operation.
    I will be honest with you, we are still working on that. We 
are going to see where we need to go with that piece of it.
    Mr. Duncan. Sheriff, if you will let me know what you are 
doing on the county level.
    Then I want to hear from the Feds.
    Sheriff Skipper. Sure. We participate, I don't know if you 
are familiar with the IPAWS software out there, the Integrated 
Public Awareness System. It is put up around, especially on the 
interstates. We were one of the first, I think I am correct on 
this, one of the first in the State to integrate that within 
our area.
    So when you sign up on your phone to get those alerts, you 
will be going down the road and when you get in a zone of 15 
miles, 20 miles, whatever that zone is, you will be alerted of 
a situation going on. Your phone will go off and give you that.
    We are also doing text messaging and emergency alerts, all 
those things that go with NOAA.
    We have a program that we started and was the first in the 
country called Safe Towns. Safe Towns allow people to call in 
our 9-1-1 center or go on our website and sign up and put stuff 
in about them.
    There was little bit of a first response of big brother 
watching you, but we told them the process is, you put that in 
the system and it is stuff that you want to come up, if you 
have an incident. So you can put stuff in there about your 
home, if you have two dogs in the basement, so when the fire 
alarm comes in and the fire truck is on the way, when they put 
that address in the 9-1-1 system, a little box pops up and 
gives that information that you as a homeowner want them to 
know about, with your relatives that are there, things about 
your house.
    We also have an opportunity where folks can access real-
time calls, when a call is being put out in the 9-1-1 center. 
Now, we do screen some of those. We don't put every single one 
on there, because there is some sensitive stuff going on.
    But if you wake up at 3 o'clock in the morning, if our 
citizens hear a siren going through your neighborhood, if you 
want to get up out of bed and turn you computer on, you can see 
what is going on in your neighborhood.
    So those are just some of the things that Safe Town can 
take can do in pushing it out, much less the alerts we send out 
to our officers and all the surrounding counties around us.
    Like I said, these folks, many of them are here with me, 
behind me with the Western Piedmont Task Force. It is all 
connected to that, and we are integrating it as best we can.
    Mr. Duncan. I think it is awesome.
    Congressman Meadows and I both serve on the Foreign Affairs 
Committee. We were meeting in June or July with Israeli 
Ambassador Ron Dermer. While we were sitting at the table, his 
phone went off with an air raid siren sound.
    The first time, he just kind of deafened it. The second 
time it went off, he looked kind of embarrassed, and he told us 
what it was. It was a red alert app he has on his phone. It 
alerted him every time a missile or rocket fell somewhere in 
Israel shot from Gaza.
    I downloaded the app while I was sitting there and his 
phone went off seven or nine times in that 15-minute meeting. 
It burned my battery up. I had to take the app off or cut it 
off, because of the number of missile attacks that were going 
on.
    I tell you that story because it alerted me to the 
possibility of having an app on a phone that would alert us to 
a natural disaster, a 9/11-style attack, or what-not. I think 
that ties in with this so well.
    Sheriff Skipper. If I could interject, I will tell you that 
I turned mine off because it buzzes. So I am sitting here a 
little anxious that something may be going on.
    Mr. Duncan. The thing is, I had to download an app, so I 
think the challenge that we may have is that you would have to 
have something, you would have to subscribe to something. I 
have to be a friend of yours on Facebook. I would have to sign 
up. How do we get that message out to the people?
    So I want to turn to the Federal side and ask what sort of 
capability is out there? What are you looking at? How are you 
using social media and the new communication tools that we 
have?
    I will start with Dr. Payne and then Mr. Fenton.
    Mr. Payne. Thank you, Mr. Chairman.
    Yes, this is a fascinating area of social science right now 
as well. NOAA's mission is fundamentally to observe the 
environment and then to translate what we observe into 
actionable information. That is really what we are there for. 
So when we are talking about accuracy and reliability in 
forecasts and warnings, that is really the bottom line.
    If you think about communications, that also is the bottom 
line. You can have the best observing systems in the world, you 
can come up with the best modeling of an approaching storm, but 
without a way to communicate it accurately, reliably, and with 
confidence to the public, it is not likely that the public is 
going to be able to respond in a way that we would hope.
    So there has to be trust in the system itself.
    We have basic communication tools and techniques that we 
use, everything from NOAA weather radio on to cell-based 
emergency alerts. People can download these apps as part of the 
uniform distribution of this kind of information, based on what 
the taxpayer provides and the Government provides.
    We work as well very closely, obviously, with the private 
sector, the private-sector meteorological community, in getting 
that information out.
    I guess what I find fascinating, perhaps to express a 
little bit of a note of caution, is that sometimes there is too 
much information. There is nothing like an approaching 
hurricane in the Atlantic basin, where in fact it looks like it 
may be coming to the Southeast and you see the multiple models 
and see the cone and you see the amount of chatter that is 
occurring out there in the social world.
    But I come back to that point about the importance of 
reliable sources, accurate sources of information.
    So social media has a role. In the way that we are 
connected today, it is not like anything we have ever seen. At 
the same time, it can sometimes be too much, and we have to be 
very careful and very cognizant that we do not find ourselves 
providing too much information that, for example, cannot be 
actually digested by the public. It is confusing. It has to be 
clear. It has to be convenient. It has to arrive on time.
    So social media has a role, but I think from the social 
science standpoint, we need to monitor how this is going and 
understand its best attributes.
    Mr. Meadows. What are two examples of where there has been 
too much information? Normally, that is not the case, at least, 
the American people would not think that is the case. So give 
me two examples of where we have had too much information.
    Mr. Payne. I think in the case where we have different 
voices that are conjecturing about what a storm may or may not 
do, is it the official voice or is it another voice? That is 
really what I am talking about here, because social media 
allows people to go ahead and do that very thing.
    There is nothing wrong with that. That is human nature. But 
I think that we need to understand and be able to communicate 
to the public that when NOAA provides an X number of days' 
advance notice of a hurricane's impending arrival at the coast, 
its position, its strength, frequency, or intensity of the 
storm itself, that we be able to continue to come back to that 
information, and recognize that that is the reliable source.
    So it is not an example, really, but it is just trying to 
provide a little more context for that.
    Mr. Duncan. Mr. Fenton, FEMA has such a broad 
responsibility, unlike hurricane events or things NOAA may be 
involved in, so how would you all use social media?
    Mr. Fenton. Yes, we have been using social media at FEMA 
for the last couple years pretty heavily in a number of 
aspects. Some of them have been talked to already.
    I think the first aspect that we use it as is a common 
operating picture, so to be able to look over social media and 
what the public is saying, especially with regard to the 
preparedness of disasters.
    Are people listening to the messaging that we are giving 
prior to the hurricane and taking the necessary actions? That 
allows you to understand the preparedness of the communities 
out there, especially with regard to maybe if evacuation is 
part of that. So it allows you to get a common operating 
picture, all the way to the impact of the event and what they 
are reporting with regard to the impacts.
    I would agree with some of my colleagues that, right now, 
we really need to pay attention to the accuracy of that 
sometimes. During Hurricane Sandy, we worked through a couple 
issues with regard to the accuracy.
    Another way we use it at FEMA, mentioned earlier, is to 
push information. So we alert some warnings in the IPAWS system 
and whether it is the alert going out from the Weather Service 
you mentioned earlier. Those kinds of things all push through 
the system out.
    The other thing we do is we push information to the public, 
information as far as being prepared on what to do, with regard 
to what the type of event is, through social media, and get it 
out there to large groups, either by tweeting or through the 
FEMA Twitter account or through other social media vehicles 
that we have.
    We have a number of apps and ways the public can 
participate within FEMA. One of the ways is they actually can 
take a picture and put it into our system so we can actually 
geocode it and see what the damage is there, so it gives us a 
really a quick assessment of what is happening without actually 
going out there and physically doing it, but by allowing the 
whole community, back to my comments earlier, to participate in 
that common operating picture.
    Then there are other agencies that are going down other 
avenues to help get that common operating picture. After Sandy, 
the Department of Energy looked at doing apps to go ahead and 
look at fuel levels at gas stations, to what gas stations have 
fuel and don't. They have an app now that does that, that helps 
get a better situational awareness on that.
    Last thing I would say is that we are using it to register 
for FEMA assistance right now. See you can use smartphones. You 
can use your smartphone to register for FEMA assistance, if 
there is a declared disaster and you are an individual whose 
home has been damaged or you don't have a place to go.
    Not only is it able to provide you information of where 
shelters are at, or where you can go to a FEMA center to 
register, but also, you can actually start the registration 
process on here, so literally within 15 minutes, you could 
register for assistance from FEMA. It is a pretty quick process 
that within a week, someone could be out there to assess the 
damage and literally have a check to your account from doing 
that, whereas if you went back 25 years ago, we were doing 
paper and pen and getting applications, to maybe just 3 or 4 
years ago, all doing it by phone. Now, probably 30 percent to 
40 percent of our application process is now coming through the 
internet, smartphones, and those kind of things.
    Mr. Duncan. So you are saying you could get a check within 
a week?
    Mr. Fenton. If it is that fast, if you get all the 
information right in here, you register and provide all the 
necessary information, it can be a pretty quick process. I have 
seen it go less than a week, yes, sir.
    Mr. Duncan. My time is expired. I am going to recognize Mr. 
Meadows for some questions, and then come back.
    Mr. Meadows. General, let me come to you, because you get 
to wear a lot of different hats. I had the pleasure of visiting 
outside of Columbia, South Carolina, at the invitation of 
Lieutenant Colonel Fidler and Captain Matt Summey. I got to see 
unbelievable preparation, in terms of Apaches. They were coming 
in, and I was impressed.
    But I was also further impressed with the experience level 
with so many of our National Guard men and women, who have, 
many of them, other jobs, who come in and they are prepared.
    How do you prepare them for combat, prepare them for Ebola, 
prepare them for hurricane response, prepare them for a nuclear 
event? How do we adequately do that, so that when it happens, 
they are there? I mean, certainly, there is a limitation on 
resources, on time. How do you do that?
    General Livingston. Congressman, it is a combination of a 
lot of things, but it goes back to the basis of our country, 
and that is the common citizen who is very successful in their 
private lives willing to share their experience from their 
private lives. There is also professional training to serve the 
people of their community, their State, and their Nation.
    Emergency preparedness is very similar in everything that 
we do. If you are talking about responding to a hurricane here 
in South Carolina, it requires a certain amount of 
organization, tasking, putting the right units at the right 
place. So there is a common thread in that to what we would do, 
say, in a counterinsurgency fight in Afghanistan, because, 
again, we have a security element dealing with the hurricane. 
We have a security element dealing with the mission in 
Afghanistan.
    We have a citizen support piece that deals with both of 
those. We have a communication piece that gets information out 
to the citizens, brings information back in. We have an 
intelligence piece.
    This is something that is overlooked so many times, the 
analysis of data. We talk about a lot of data flowing back and 
forth, but it is being able to analyze that data and properly 
apply it.
    So the skill sets that our citizen soldiers develop either 
on the civilian side or on the military side, quite often you 
find it is on both sides of their careers, is able to be 
applied across this spectrum of events. If we are going to deal 
with Ebola, now we take this set of skill sets and planning 
capabilities and we apply the very specific threat of Ebola and 
how you respond to that specific threat. That is a train-up 
mission.
    But what I would say is, our mission of responding across a 
broad spectrum to include civilian challenges actually makes us 
stronger in every mission that we are engaged in. This has been 
well-proven with our soldiers in combat who came back and 
immediately responded to a hurricane in their home State.
    Mr. Meadows. Well, thank you for your service. I would ask, 
I guess, one follow-up question.
    On a scale of 1 to 10, with 10 being most prepared, where 
would you place the men and women who serve here in South 
Carolina, in terms of their----
    Mr. Duncan. You are talking about the South Carolina 
National Guard. They are going to be up there.
    Mr. Meadows. They are going to be up there.
    Where would you put them on a scale of 1 to 10? If it is 
not a 10, what is the one area that you either need additional 
funding for or additional time to train?
    General Livingston. Well, I will be modest. I will say 9.9.
    [Laughter.]
    Mr. Meadows. Good answer.
    General Livingston. As we look at the funding streams, it 
is flexibility of funding as it comes into the State to train 
our men and women. The other piece that we are dealing with are 
the force structure issues that you are very familiar with. As 
we talk about how we defend our country, so many times we 
forget about how we are going to defend this homeland and what 
the State's role is in the defense of the State borders and 
then the assistance within the local municipalities and 
counties, and then how that feeds back into the Federal 
defense.
    So I guess the two biggest challenges that we have are 
flexibility of funding and then the degradation or the loss of 
force structure within our National Guard that prevents our 
ability to respond as well as we need to within the borders of 
the United States.
    Mr. Meadows. If the Chairman would just allow one last 
closing question, which actually goes really more across the 
gamut, most of you are involved with agencies that you are 
called for one particular purpose, and that is to serve your 
fellow man, and to serve the people not only of this State but 
of this country.
    I have never found those who are first responders, whether 
it be in the National Guard or anywhere else in any of these 
agencies, who don't feel that sense of calling. I look up and 
there is a chief from Belton Fire Department here. Just having 
met him, I know that I could call on him in my community and he 
would serve.
    But there are logistical challenges that come into play, 
whether it is a sheriff or fire chief or the National Guard, 
that when these major events happen; it is who is in charge, 
who disseminates information, where does that desire to help 
get focused and channeled in the right way?
    So I would ask each one of you to give me one example of an 
area we need to address with regard to that coordinating 
effort.
    I will start with you, Mr. Fenton.
    Mr. Fenton. I guess one area that I would say is, 
obviously, the systems are out there. The National Response 
Framework is our Nation's system on how we respond. The 
National Incident Management System is a system by which State 
and local governments respond to events, especially at the 
incident command level using ICS. Those are out there. There 
are institutions that provide that training.
    I think it is really institutionalizing those across 
Government to a very high level that allow for when there are 
complex events and resources come from out of areas to ensure 
that we have a unified system that works toward unity of effort 
of saving Americans and helping survivors.
    Mr. Meadows. So by institutionalizing, you are saying so 
you don't have to open your handbook and say, well, who is in 
charge of this particular thing?
    Mr. Fenton. Right. I think that it is something that we 
continue in this country and work for. We worked at it for over 
10 years. It is a constant process that we are working across 
the country, to continue to improve it. I think it is an on-
going thing.
    I think by doing that, it allows for common command-and-
control and systems to work in those complex environments.
    Mr. Meadows. Dr. Payne.
    Mr. Payne. Yes, thank you. I think it is a really important 
question. I would like to give two examples. The second one 
will be very fast.
    The first one is I would like to talk a little bit about 
another framework. My colleague here from FEMA just mentioned 
mitigation framework. Another one is the National Recovery 
Framework.
    The way in which that is expected to occur is that agencies 
will be working with States and localities after an event 
occurs to go through those paces of recovery. I think that one 
of the things that we really need to be paying more attention 
to is what it is that communities, States, and the Federal 
Government are doing in the pre-disaster mode to address 
recovery.
    When you are in the heat of the response, that is about 
survivability. That is about the initial ability, as General 
Livingston has said, of people to come and make things happen 
that will help, especially with survivability and getting the 
systems back up and running, getting sewer running, getting 
energy running, making sure there is clean water and food, so 
that people can survive.
    So what we find ourselves trending toward is, as the 
response proceeds, then recovery becomes the next step we have 
to take. But we recognize that recovery is a long-term process.
    So the initial responders are absolutely critical. We are 
all initial responders. I think that we as communities need to 
be able to understand how it is that we can put ourselves into 
a mode of personal accountability and survivability.
    When the cavalry comes, that is great. But in the mean 
time, we have to get past that step.
    The second thing is, we did some work out in American 
Samoa, following the tsunami that they experienced several 
years ago. In that circumstance, what occurred, because there 
were damages to natural resources, especially coral reefs and 
nearshore areas, there was a deluge of scientific interest 
coming in and wanting to do initial assessments on what the 
damages were to those resources. The problem with that is that 
no one was in charge. It was really kind of a cluster for a 
while.
    So recognizing this and then going back to American Samoa 2 
years later and working with communities, working with the 
Tribal elders, we talked about the implications of that. Then 
we decided that we, NOAA and the USGS, the Geological Survey, 
in particular, and a couple other agencies, would actually get 
together and develop a protocol that would provide for clear 
lines of communication and coordination and purpose in how it 
is that the scientific community in arriving and taking those 
tasks on would be able to do a better job, a cleaner job. That 
protocol is now in place.
    Mr. Meadows. General.
    General Livingston. Congressman, when you look at disaster 
response and disaster recovery, it all occurs at the local 
level. That is your initial responder. Those are the people who 
are in charge, even as we go into the recovery, through the 
recovery process. It is very important that we set that stage 
for economic recovery by using resources as close to the 
disaster as possible.
    So that means that you start at the county level. You start 
in the cities and counties, and then you move up to the State. 
We don't have any question about who is in charge of our State. 
It is our Governor.
    But what we do have a question is, where do we get the 
money from? When we are positioning, when South Carolina 
chooses to assist Vermont with dump trucks or aviation during 
their flooding, and we need to reposition assets to that area, 
if that flooding does not occur, nobody is going to pay for 
those resources.
    The Federal Government has the reserves to be able to pay 
for disaster response. State and local governments do not have 
those large reserve funds, especially when it involves helping 
your neighbor, North Carolina, Georgia, somebody like that.
    So pre-disaster repositioning of equipment and people, if 
that disaster does not occur, we would prefer to turn to the 
Federal Government, since they have those disaster reserves and 
say, can you pay for our pre-positioning? That is not the case 
at this point. We reposition on somebody's dime within the 
Government.
    So it is really using those Federal fund resources to apply 
to the State and local government pre-disaster or in 
preparation for a disaster.
    I will give you an example that is very frustrating. We 
were repositioning aviation assets to assist in Superstorm 
Sandy. We could not find a way to fund moving aviation assets 
closer to New Jersey and New York, so that was an issue. 
However, we had plenty of funds to redirect an aircraft carrier 
to head that way. The State is going to be a lot more 
responsive, it is going to bring a lot more germane assets, 
than a combat aircraft carrier.
    Mr. Meadows. I am going to have to ask you to shorten the 
answers up.
    Mr. Stenson.
    Mr. Stenson. Certainly. I think it fits nicely with the 
question. Many of us think success in emergency management is 
based on two factors. One is the number of relationships you 
build with those organizations and individuals before an event, 
and then the number of interactions that you have with us 
folks. So the planning piece is very critical there.
    A couple quick examples, every year within the functional 
areas we bring in all the players at the State level and make 
sure that they understand their roles and responsibilities, and 
we understand that.
    We also have a task force approach for certain areas. We 
have a hurricane task force, a recovery task force. We bring in 
all the partners, State agencies, local folks, and the Federal 
folks, in some cases, to work those issues.
    So if you plan all that out in advance before you have to 
do it, the chance of being successful are much greater.
    Mr. Meadows. Sheriff.
    Sheriff Skipper. The quick answer to that is, I am the 
elected official. I am always in charge. With that said, we in 
the up-State work off of a unified command so that, in any 
given situation, whatever the situation is, that person is in 
charge.
    I will give you an example. I was talking with a lady at 
lunch. We had an exercise a couple years ago, a real-time 
exercise, where we were dealing with terrorists and things like 
this. It was a law enforcement function. But we got in and 
there ended up being some fire issues, so the fire chief, it 
immediately became his. Then when we found out what was going 
on, my DHHS representative was behind me, he was in charge 
because it had to do with bacteria.
    So I think, as I said earlier, nobody is an individual 
silo. It all has to do with taking care of the situation and 
how we need to take care of it.
    One of your questions about my folks, being at the local 
level, I have so many deputies. Obviously, when it goes bad, I 
am hoping all of them are going to come to work. But we were 
always concerned about what they are going to do with their 
families. You have a mom and child at home, and you are 
expected to come in and take care this big thing.
    We set up, several years ago, when I was a captain, a 
process where our deputies know, when that gets to that point, 
there is a place to bring the family. We are going to house 
them, have people there to secure them and take care of them, 
while they are out doing their jobs. We extend that to our 
whole emergency service. My daddy was a volunteer fireman, so I 
was a fireman before I was deputy.
    Mr. Duncan. I want to thank you. We are going to have to 
wrap up Panel One, but I really hate to, because there are so 
many more questions that we all have.
    Members of the committee who are here today and Members of 
the Homeland Security Committee may have additional questions 
for you after this is reviewed. I just ask that the panel 
respond to those in writing, if you will.
    So now I will adjourn the first panel, and we will take a 
brief pause as we set up for Panel Two.
    [Recess.]
    Mr. Duncan. Okay, we are ready for our second panel. Thank 
you for bearing with us for a little bathroom break. TV 
stations were on deadline, and we wanted to make sure that we 
got some of our panelists an opportunity to talk with them.
    Our second panel is quite distinguished. I will introduce 
them. We will go through the same format of introductions, and 
then we will go into opening statements.
    Our first panelist is Dr. Clifton Lacy, director of 
University Center for Disaster Preparedness and Emergency 
Response in New Brunswick, New Jersey. The center is a 
collaborative initiative, bringing together subject-matter 
experts from Robert Wood Johnson Medical School, Robert Wood 
Johnson University Hospital, and Rutgers University.
    Mr. Jim Bottum was named vice provost and chief information 
officer for computing and information technology here at 
Clemson University in 2006. Mr. Bottum leads Clemson's effort 
to build a state-of-the-art cyber infrastructure for education, 
research, and service.
    Major Thomas Louden is the general secretary for the North 
and South Carolina Division of the Salvation Army. The 
Salvation Army is a disaster services organization that 
maintains representation in the emergency operations center set 
up for each disaster, working with other relief organizations 
like State Emergency Management, FEMA, and volunteer 
organizations active in disasters.
    Dr. Jason Hallstrom is an associate professor in the 
Computer Science Division of the School of Computing at Clemson 
University, and serves as the deputy director of technology for 
the Institute of Computational Ecology. His current research 
focuses on using data and computers that compile environmental 
information to manage water resources to be sure that water is 
being used in the right quantity and the right quality level.
    The Institute of Computational Ecology. That is a mouthful, 
and I look forward to finding out what that is.
    Ms. Emily Bentley is an associate professor and coordinator 
of the Homeland Security and Emergency Management Program at 
Savannah State University and a consultant in disaster 
preparedness. Ms. Bentley previously served as executive 
director of the Emergency Management Accreditation Program and 
National Standards and Assessment Program for State and local 
government emergency management.
    So I want to thank all of you for being here, and the 
Chairman will recognize Dr. Lacy for an opening statement.
    We will adhere as closely as we can to the 5-minute rule.
    Dr. Lacy.

  STATEMENT OF CLIFTON R. LACY, M.D., DIRECTOR, INSTITUTE FOR 
     EMERGENCY PREPAREDNESS AND HOMELAND SECURITY, RUTGERS 
                           UNIVERSITY

    Dr. Lacy. Chairman Duncan and Congressman Meadows, good 
afternoon. My name is Dr. Clifton Lacy. I am the director of 
the Rutgers Institute for Emergency Preparedness and Homeland 
Security. I am the former commissioner of the New Jersey 
Department of Health and Senior Services, and the former 
president and CEO of Robert Wood Johnson University Hospital 
and Health System, and a practicing physician for over 30 
years.
    I want to thank you for the opportunity to present to you 
some of my thoughts and observations regarding disaster 
preparedness and to introduce you to the Institute for 
Emergency Preparedness and Homeland Security at Rutgers 
University, and the University Center for Disaster Preparedness 
and Emergency Response at Robert Wood Johnson University 
Hospital.
    These are my personal and professional thoughts and 
observations regarding disaster preparedness. They do not 
represent official positions or policies of any organizations 
or entities.
    In many respects, disaster preparedness in the United 
States is significantly better today than before 9/11, the 
anthrax bioterrorism, Hurricane Rita, and Superstorm Sandy. 
However, many gaps in preparedness still exist that need to be 
addressed.
    There is urgency to enhance preparedness to respond to 
threats in advance of the next major incident.
    In the interest of time, I will address biological, 
chemical, and explosive threats in my oral remarks. Please 
refer to my written testimony for additional commentary.
    Biological threats include naturally-occurring emerging and 
reemerging infectious diseases such as the Ebola virus disease, 
which has been spreading out of control in West Africa, and 
MERS, the Middle Eastern Respiratory Syndrome, which emerged in 
the Arabian Peninsula, both of which are associated with high 
mortality rates among victims.
    The Ebola virus disease is a form of hemorrhagic fever, 
which is taking a terrible toll in West Africa, with an 
approximately 70 percent mortality rate. The disease is not 
readily transmissible in humans by the airborne route and does 
not become contagious through contact with bodily fluids until 
signs and symptoms appear.
    MERS is a coronavirus infection, a recently-emerged 
infectious disease with about a 40 percent mortality rate. It 
has spread to 22 countries, and it is fortunate that person-to-
person transmission has thus far been limited.
    Now some points of concern. No. 1, diseases like MERS or 
H5N1 avian influenza may gain the ability to be easily 
transmitted person-to-person, resulting in a world-wide 
pandemic of enormous proportions and grave effect.
    In addition to the naturally-occurring infectious diseases, 
laboratory accidents and errors have resulted in exposures, 
infections, and deaths involving most of the dangerous select 
agents. Even the most highly-regarded biosafety level III and 
biosafety level IV laboratories have experienced mishaps with 
highly hazardous biological organisms.
    In addition, laboratories in the United States and around 
the world are creating new biothreats, either through 
modification of existing biological agents or through creation 
of novel organisms. The genetic sequences for these synthetic 
biothreats are shared world-wide through scientific 
publications and presentations, and may serve as blueprints for 
development of devastating infectious threats by those who 
would wish to do us harm.
    Scientists today are performing so-called gain of function 
studies. These experiments ascertain which genetic 
modifications would enable infectious disease organisms to 
become more lethal, more transmissible, and resistant to 
existing countermeasures. Inadvertent release of one of these 
agents could cause a world-wide health crisis.
    In chemical threats, these continue to be a major concern 
as well, especially those that involve extraordinarily 
hazardous substances and are located in populous areas of our 
Nation. There continue to be chemical containment facilities 
within urban areas that have yet to convert to inherently safer 
technologies that use feasible alternatives to reduce the 
potential harm that would result from accidental release or 
terrorist attack.
    Another on-going concern involves the transport of 
hazardous substances through populated areas. Tanker cars of 
crude oil, chlorine, and other dangerous substances pass 
through urban and suburban areas of our Nation on a daily 
basis. Notification of States, counties, and municipalities is 
only mandated if certain conditions are met.
    Disaster planning must include an understanding of these 
risks, the mitigating factors, countermeasures, and strategies 
for in-place sheltering and/or evacuation.
    Explosive threats have been the weapon of choice in both 
military and civilian settings. These can be caused by 
improvised explosive devices or manufactured explosives. These 
threats are among the least difficult to carry out. As was 
observed in the aftermath of the Boston Marathon bombings, 
multidisciplinary planning and the immediate involvement of the 
general public as first responder can mitigate harm and save 
lives and limbs.
    As one of my colleagues recommends: Don't just see 
something and say something, do something.
    Now, what are the approaches to these threats? The 
approaches must be evidence-based, comprehensive, and 
multidisciplinary. It starts with effective command-and-control 
communications. All-hazard generic readiness must be enhanced 
with the threat-specific preparedness. A major focus must be 
the increase in understanding of the interdependencies between 
critical infrastructure sectors with special protection of the 
lifeline sectors.
    There needs to be more consistent and effective 
incorporation of lessons learned from real-world situations and 
from simulations and exercises. Organizational silos must yield 
to crosscutting collaboration. Information sharing is critical 
to at all levels, both horizontally and vertically. 
Interoperability of equipment is a necessity for situational 
awareness and for coordinated response.
    Evidence-based responses require research to establish the 
best practices. Planning, training, and the conduct of 
exercises in advance of a disaster are critical to effective 
management of the event.
    Greater engagement and inclusion of the private sector, 
which owns and operates the majority of critical infrastructure 
in this country, is necessary for effective preparedness and 
response.
    The public health system, which has been significantly 
stressed by the increasing presence of communicable diseases, 
needs to be reenergized and infused with funding.
    There needs to be a better understanding of the 
inevitability of the occurrence of major threats and hazards, 
and a greater focus on resiliency, continuity of operations, 
and return to full functionality.
    Finally, there needs to be an increased involvement of 
subject-matter experts in the public and private sectors, 
especially tapping the expertise and experience of our 
colleges, universities, and academic health centers to enhance 
National preparedness and response to the vast spectrum of 
existing and emerging threats.
    I look forward to answering your questions and telling you 
more about our institutes and the great work we have done.
    [The prepared statement of Dr. Lacy follows:]
                 Prepared Statement of Clifton R. Lacy
                           November 21, 2014
    Chairman Duncan, Ranking Member Barber, and Members of the 
subcommittee, good afternoon.
    Thank you for the opportunity to present to you some of my thoughts 
and observations regarding disaster preparedness and to introduce you 
to the Rutgers Institute for Emergency Preparedness and Homeland 
Security and the University Center for Disaster Preparedness and 
Emergency Response.
    These are my personal professional thoughts and observations 
regarding disaster preparedness and do not represent official positions 
or policies of any organizations or entities.
                           types of disasters
    Disasters can be categorized as caused by natural hazards, 
technological hazards, or intentional threats.
    Natural hazards are naturally-occurring disasters of geophysical, 
hydrological, climatological, meteorological, and biological origin 
that occur with or without warning. These hazards include earthquakes, 
wildfires, hurricanes, tornadoes, storm surges, and disease epidemics, 
among others.
    Technological hazards are caused by humans and include, among 
others, industrial accidents, transportation mishaps, infrastructure 
failures, power service disruptions, and blackouts.
    Intentional threats are deliberate and purposeful hazards caused by 
humans and include, among others, biological, chemical, radiological, 
nuclear, explosive, and cyber threats.
    In many respects, disaster preparedness in the United States is 
significantly better today than before 9/11, the Anthrax bioterrorism, 
Hurricane Rita, and Superstorm Sandy. However, many gaps in 
preparedness still exist that need to be addressed. There is urgency to 
enhance preparedness to respond to threats in advance of the next major 
incident.
    With respect to weather events, although prediction capabilities 
have markedly improved, there is still a great need for more granular 
information by specific location to be able to prepare, mitigate, and 
respond to local effects. For example, more accurately prediction of 
the extent of local storm-related tidal surge would allow 
municipalities and their residents to institute effective strategies to 
minimize adverse consequences from extreme weather events.
    With respect to technological events, deterioration of 
infrastructure can lead to building and bridge collapses, dam failures, 
power service disruptions, among other incidents. Some U.S. 
infrastructure has aged more than twice its expected lifespan. Some 
thoroughfares built many decades ago now carry 5 to 10 times the 
traffic originally anticipated. Infrastructure failures continue to 
occur, but catastrophic events fortunately remain quite rare. Attention 
and funding need to be increased to support the physical infrastructure 
that allows continuity of operations and society.
    Biological threats include naturally-occurring emerging and re-
emerging infectious diseases, such as Ebola Virus Disease (EVD), which 
is currently spreading out-of-control in West Africa, and Middle East 
Respiratory Syndrome (MERS), which emerged in the Arabian Peninsula--
both of which are associated with high mortality rates among victims. 
Although Ebola Virus Disease, a form of hemorrhagic fever, is taking a 
terrible toll in West Africa with approximately 70% mortality rate, it 
is fortunate that the disease is not readily transmissible in humans 
via the airborne route and does not become contagious through contact 
with body fluids until signs and symptoms appear. MERS, a coronavirus 
infection, is a recently-emerged infectious disease, with approximately 
40% mortality rate. Although the disease has spread to 22 countries, it 
is fortunate that person-to-person transmission has been limited. Of 
major concern is that diseases like MERS or H5N1 Avian Influenza may 
gain the ability to be easily transmitted person-to-person, resulting 
in a world-wide pandemic of enormous proportions and grave effect.
    In addition to naturally-occurring infectious diseases, laboratory 
accidents and errors have resulted in exposures, infections, and deaths 
involving most of the dangerous Select Agents. Even the most highly-
regarded Biosafety Level 3 and Biosafety Level 4 laboratories have 
experienced mishaps with highly hazardous biological organisms.
    Also, laboratories in the United States and around the world are 
creating new biothreats, either through modification of existing 
biological agents or through creation of novel organisms. The genetic 
sequences for these synthetic biothreats are shared world-wide through 
scientific publications and presentations and may serve as blueprints 
for development of devastating infectious threats by those who wish to 
do us harm. Scientists today are performing so-called ``gain-of-
function'' experiments to ascertain which genetic modifications would 
enable infectious disease organisms to be more lethal, transmissible, 
and resistant to existing countermeasures. Inadvertent release of one 
of these agents could cause a world-wide health crisis.
    Chemical threats continue to be a major concern, especially those 
that involve Extraordinarily Hazardous Substances (EHS) and are located 
in populous areas of our Nation. There continue to be chemical 
containment facilities within urban areas that have yet to convert to 
Inherently Safer Technologies (IST) that use feasible alternatives 
(such as replacement of chlorine with sodium hypochlorite) to reduce 
the potential harm that would result from accidental release or 
terrorist attack.
    Another on-going concern involves the transport of hazardous 
substances through populated areas. Tanker cars of crude oil, chlorine, 
and other dangerous substances pass through urban and suburban areas of 
our Nation on a daily basis. Notification of State, county, and 
municipality is only mandated if certain conditions are met. Disaster 
planning must include an understanding of these risks, mitigating 
factors, countermeasures, and strategies for in-place sheltering and/or 
evacuation.
    Radiological threats are another major concern. I will defer 
remarks on improvised nuclear devices and the effects of 
electromagnetic pulse, since these can result in catastrophic impact of 
immense scale. It should be noted, however, that catastrophic planning 
activities for these threats are being carried out.
    On a smaller scale, accidental releases and exposures to 
radioactive isotopes continue to be reported, sometimes related to 
improper disposal of medical equipment. In addition, some radiological 
sources are not well-secured. Numerous instances of theft or loss of 
isotopes occur each year. Exposure to these substances can be extremely 
harmful to health. The addition of radioactive material to conventional 
explosives creates radiological dispersion devices (ROD), weapons of 
mass disruption and fear, that can affect involved areas for long 
periods of time and at great cost.
    Explosive threats have been weapons of choice in both military and 
civilian settings. These events can be caused by improvised explosive 
devices and manufactured explosives. These threats are among the least 
difficult to carry out. As was observed in the aftermath of the Boston 
Marathon bombings, multi-disciplinary planning, and the immediate 
involvement of general-public-as-first-responder can mitigate harm and 
save lives and limbs. As one of my colleagues recommends, ``Don't just 
see something and say something, do something.''
    Active shooters is another threat that is difficult to prevent. 
Efforts to refine behavior assessment, predictive accuracy, and early 
intervention may avert some of these incidents. It is critical to be 
prepared and alert. Tactical EMS, providing medics with the skills and 
training to support tactical law enforcement teams, creates a multi-
disciplinary capability to intervene in an effective and timely fashion 
in instances of active shooters or explosive incidents.
    Cyber threats continue to grow internationally in scale and 
intensity. State and non-state actors are breaching the security of 
Government agencies and private businesses resulting in denial-of-
service and theft of money and intellectual property. Of great risk are 
cyber threats to Industrial Control Systems (ICS) including Supervisory 
Control and Data Acquisition (SCADA) systems providing control of 
remote equipment and also threats to health care-related computer 
systems and electronic medical devices.
                        approach to the threats
    The number, magnitude, and complexity of threats and hazards can be 
quite daunting. The approach to these issues must be evidence-based, 
comprehensive, and multidisciplinary. It starts with effective command, 
control, and communications. All-hazards generic readiness must be 
enhanced with threat-specific preparedness. A major focus must be the 
increase in understanding of interdependencies between critical 
infrastructure sectors, with special protection of lifeline sectors. 
There needs to be more consistent and effective incorporation of 
lessons-learned from real-world situations and from simulations and 
exercises. Organizational silos must yield to cross-cutting 
collaboration. Information sharing is critical at all levels, both 
horizontally and vertically. Interoperability of equipment is a 
necessity for situational awareness and coordinated response. Evidence-
based responses require research to establish best practices. Planning, 
training, and the conduct of exercises in advance of a disaster are 
critical to effective management of the event. Greater engagement and 
inclusion of the private sector, which owns and operates the majority 
of critical infrastructure, is necessary for effective preparedness and 
response.
    U.S. Department of Homeland Security and FEMA funding need to be 
restored to prior levels. The public health system, which has been 
significantly stressed by the increasing presence of communicable 
diseases, needs to be re-energized and infused with funding.
    In addition to nurses and pharmacists, one health care provider 
group that has not been fully engaged to date is the practicing 
physician, a vital resource for surveillance, detection, 
identification, and response to health threats. More continuing medical 
education should be devoted to disaster medicine and the entire health 
care team must participate in planning, training, and exercises. There 
needs to be better understanding of the inevitability of the occurrence 
of major threats and hazards and a greater focus on resiliency, 
continuity of operations, and return to full functionality.
    Finally, there needs to be increased involvement of the subject-
matter experts in public and private sectors, especially tapping the 
expertise and experience of our colleges and universities to enhance 
National preparedness and response to the vast spectrum of existing and 
emerging threats.
        new jersey academic institutions active in preparedness
    Rutgers University and its partner Robert Wood Johnson University 
Hospital in New Jersey play major roles in the disaster preparedness 
and response arena.
    The Rutgers Institute for Emergency Preparedness and Homeland 
Security was recently established to play a National and international 
leadership role in developing and implementing initiatives to protect 
the lives, health, and well-being of individuals and populations, 
through collaboration in research, education, community outreach, and 
practice.
    The Institute brings together experts from the broad spectrum of 
disciplines, schools, departments, and centers that exist across the 
State-wide campuses of Rutgers, The State University of New Jersey--and 
with Federal, State, National, and international partners in the public 
and private sectors--to address all aspects of emergency preparedness, 
disaster response, and homeland security.
    The multidisciplinary subject-matter experts work together to 
optimize prevention, protection, preparation, mitigation, response, 
recovery, and resiliency for all-hazards emergencies, disasters, and 
terrorism--whether of natural, accidental, or intentional origin.
    The experts span the spectrum of disciplines including health care, 
behavioral health, public health, biosafety and biosecurity, emergency 
medical services, emergency management, law, public safety, criminal 
justice, homeland security, transportation science, engineering, 
pharmacology and drug development, computer science and cybersecurity, 
mathematics, environmental and exposure science, business, and public 
policy, among other areas having a nexus to preparedness and response.
    The Institute is a single point of entry to a wide spectrum of 
experts and a one-stop portal to address educational, clinical, 
research, and community outreach needs.
    The Institute's major features include: Fostering collaboration 
among Rutgers faculty, students, and staff; developing collaboration 
between Rutgers University and outside public and private entities; 
serving as a single portal to connect with Rutgers experts; and 
featuring a one-stop capability for access to the full breadth and 
depth of expertise in the relevant subject matter.
    The University Center for Disaster Preparedness and Emergency 
Response (UCDPER) is a collaborative initiative of Robert Wood Johnson 
University Hospital, Rutgers Robert Wood Johnson Medical School and 
Rutgers, The State University of New Jersey.
    The Center's mission is to develop and implement initiatives to 
advance preparedness and response to all-hazards emergencies, 
disasters, and terrorism.
    Areas of expertise include: Mechanisms of action of chemical 
warfare agents; development of countermeasures to chemical threats; 
safety and security of bridges, roads, and related transit systems; 
security of pipeline and energy distribution systems; port security; 
plume modeling; analysis of big data; triage; decontamination; mass 
casualty management; trauma care; disaster medicine training; economic 
analysis of preparedness initiatives; survey research; risk 
communication; victim tracking; public and private sector policy 
development; information assessment and analysis; clinical and health 
care preparedness; research and development; education; training; 
exercises; and service and outreach to the community.
    Robert Wood Johnson University Hospital (RWJUH) is a 965-bed 
academic health center in Central New Jersey. RWJUH is the core 
hospital of Robert Wood Johnson Health System, which currently has more 
than 10,000 employees, 3,200 medical staff members, and over 1,700 
beds.
    RWJUH New Brunswick is the flagship cancer hospital of the Rutgers 
Cancer Institute of New Jersey and the principal hospital of Rutgers 
Robert Wood Johnson Medical School. Its Centers of Excellence include 
cardiovascular services, cancer care, and women's and children's 
services at the Bristol-Myers Squibb Children's Hospital at Robert Wood 
Johnson University Hospital. The hospital is a Level 1 Trauma Center 
and a Tier 2 Ebola Facility. It serves as a National resource for 
ground-breaking approaches to emergency preparedness and mass casualty 
management through the University Center for Disaster Preparedness and 
Emergency Response, International Center for Terror Medicine, State of 
New Jersey Regional Medical Coordination Center, Regional EMS 
Communication Center, EMS Education and Training Center, participation 
in preparedness exercises including the highest level of play in 
TOPOFF-3 (the Nation's largest bioterrorism exercise), and major 
educational conferences on disaster management. The hospital functions 
as a laboratory to study innovative preparedness and response 
strategies, especially with respect to surge volume and mass casualty 
management.
    The hospital has received Department of Defense funding through the 
U.S. Army Medical Research and Materiel Command (USAMRMC)--Telemedicine 
and Advanced Technology Research Center (TATRC).
    A major funded project is ``Evidence-based Best Practices for 
Explosive/Incendiary Incidents: Translating the Israeli Experience for 
Use in U.S. Military and Civilian Pre-Hospital Health Care Systems.'' 
In this project, approximately 50 National and international subject-
matter experts participated in a working group to identify best 
practices for management of blast incidents from the U.S. and Israeli 
military and civilian experience. Scientific journals articles are 
currently under review for publication.
    Another major funded project is the ``Use of Real-Time Locating 
Systems (RTLS) Optimize Response During Disasters and Other Mass 
Casualty Events and During Routine Hospital Operation'' which evaluated 
the use of real-time locating systems (RTLS) to optimize the efficiency 
and effectiveness of patient management and disaster response under 
conditions of markedly increased patient surge volume (during simulated 
full-scale mass casualty events) and in periods of usual patient volume 
(during routine hospital operation). The hospital was outfitted with 
RTLS technology, 6,000 pieces of equipment were tagged, and four Full-
Scale Dress Rehearsals and Full-Scale Exercises/Experiments were 
performed with participation of a total of 2,000 role players 
(volunteer-simulated blast victims and staff personnel). Data analysis 
is currently in process, to be followed by publication of results in 
scientific journals.
                           concluding remarks
    It is inevitable that hazards and threats will evolve and incidents 
will occur. Our preparedness and response must evolve as well. Tapping 
the robust expertise and experience of university partners will greatly 
benefit the ability to effectively address these threats. The Rutgers 
Institute for Emergency Preparedness and Homeland Security and its 
collaborating schools, centers, programs, and experts stand ready to 
assist Federal, State, county, and local public and private entities in 
optimizing our Nation's preparedness and response.
    Thank you for the opportunity to make this presentation today.

    Mr. Duncan. Thank you.
    Mr. Bottum.

  STATEMENT OF JIM BOTTUM, CHIEF INFORMATION OFFICER AND VICE 
    PROVOST, COMPUTING AND INFORMATION TECHNOLOGY, CLEMSON 
                           UNIVERSITY

    Mr. Bottum. Mr. Chairman, I would like to thank you and the 
Members of the subcommittee for the opportunity to testify here 
today. I currently serve as Clemson's chief information 
officer, and I have been in that capacity since 2006. Before 
coming to Clemson, I was Purdue University's first CIO, and 
before that, the executive director at the National Center for 
Supercomputing Applications, the University of Illinois at 
Urbana-Champaign.
    Today, I would like to focus my remarks on the potential 
impact of these type of disasters and comparable events on 
information technology.
    As we know, as we have heard today, on September 22, 1989, 
Hurricane Hugo made landfall off the coast of South Carolina, 
with estimated winds of 135 mph. A more recent test of our 
emergency preparedness for a large-scale natural disaster's 
impact on IT infrastructure occurred with Hurricane Katrina's 
landfall in 2005.
    Tulane University in New Orleans sustained severe damage as 
a result of the storm, and the disaster forced Tulane to cancel 
classes for the remainder of the fall 2005 semester. It also 
impaired its ability to facilitate payroll or run the 
university's communication systems.
    This event showed the higher education community that 
traditional notions of disaster planning and business 
continuity were false. A campus could not effectively operate 
remotely on-demand.
    It is of paramount importance that our localities, States, 
and Nation are adequately prepared from not only an evacuation 
emergency preparedness standpoint but from an infrastructure 
point of view as well.
    There are other considerations outside of natural disasters 
that have the potential to be even more catastrophic in their 
impact, not necessarily through physical damage, but rather 
potential economic and societal damage that could be associated 
with the hacking of our Nation's infrastructure. In today's 
environment, this threat is more prevalent than ever with our 
increased reliance upon technology.
    Those who remember 1989 likely remember it was much devoid 
of common technology. Computers were slow, expensive, and 
applications left mostly to large corporations and the Federal 
Government. Networks were in their infancy with TCP/IP, the 
eventual protocol standard first adopted by ARPANET in 1983. 
Mobile communications were virtually nonexistent in this era, 
and mobile devices were far from a consumer good.
    Technology has become the backbone upon which the most 
basic functions of society depend. We call this cyber 
infrastructure.
    According to the U.S. Census Bureau, in 2013, 84 percent of 
all households in the United States reported owning a computer 
and 74 percent of all households reported using the internet. 
In this new paradigm, protection of and access to high-speed, 
high-availability networks is necessary not only for 
corporations, Government agencies, and utility providers but 
also for the average consumer. With this comes the notion that 
we are far more reliant upon cyber infrastructure today than we 
have ever been, and this necessitates resilient, reliable, and 
high-performance cyber infrastructure.
    Our Nation's infrastructure, including power, water, and 
telecommunications, is now also heavily dependent on cyber 
infrastructure for the delivery of services to the population. 
The 2003 Northeast blackout initially caused by a software 
failure proved how sensitive our Nation's power infrastructure 
can be to technology-driven issues.
    Another threat, in addition to the hacking threat, is our 
Nation's cybersecurity expertise gap, one that has implications 
for our ability to defend our Nation's critical infrastructure 
assets against these attacks. In order for our Nation to be 
prepared to defend against cyber disasters and other cyber 
threats, we must invest in the future of cybersecurity 
research, education, and training to prepare the next 
generation workforce.
    One of Clemson's industrial partners told us that there are 
points in time where they will have up to 300 open 
cybersecurity-related positions without enough qualified 
applicants to fill them. I fear our Nation faces an upcoming 
crisis in the cybersecurity workforce if investments are not 
made to encourage this career path and to ensure robust 
education and training programs at our Nation's universities.
    I believe we as a Nation have progress to make if we are to 
be prepared in terms of emergency planning, especially for 
cyber disaster, but also in terms of our long-range strategic 
efforts to ensure a robust and competitive cybersecurity 
workforce.
    One thing that came up in the last discussion that is not 
in my notes, but the panel discussed social media. Clemson has 
opened up two social media listen and command centers. We are 
in the process of standing up a third inside of our security 
operations center. There is a lot of business intelligence and 
data mining to be had out of this particular form of data.
    [The prepared statement of Mr. Bottum follows:]
                    Prepared Statement of Jim Bottum
                           November 21, 2014
    Mr. Chairman, I would like to thank you and the Members of the 
subcommittee for this opportunity to testify here today. I would like 
to begin by taking a moment to briefly acquaint you with Clemson 
University and my own background.
    Located in Clemson, South Carolina, Clemson University is a 
Nationally-ranked, science and technology-oriented land grant public 
research university founded in 1889. Clemson is known for its emphasis 
on collaboration and a culture that encourages faculty and students to 
embrace bold ideas. With an enrollment of 21,857, Clemson is a high-
energy, student-centered community dedicated to intellectual 
leadership, innovation, and service to the community.
    As for myself, I currently serve as Clemson's vice provost for 
computing and information technology and chief information officer, and 
have served in that capacity since 2006. During my tenure here at 
Clemson, we have undergone a massive transformation of our 
cyberinfrastructure environment--to include our networking, storage, 
computational capabilities, and our data center--and have fashioned 
this environment to provide state-of-the-art services for research, 
education, and public service. Our high-performance computing 
infrastructure is ranked as the 66th-fastest supercomputer in the 
world, according to the June 2014 Top500 list,\1\ and we have been 
Nationally-recognized for building models that assist faculty, staff, 
and students in utilizing this infrastructure for research 
productivity.
---------------------------------------------------------------------------
    \1\ Top500.org (June 2014). Top500 List--June 2014. Retrieved from 
http://www.top500.org/list/2014/06/.
---------------------------------------------------------------------------
    Before coming to Clemson, I was the first chief information officer 
at Purdue University, where I forged a new model for partnering with 
research (as recognized in a publication by the EDUCAUSE Center for 
Analysis and Research, 2005).\2\ Prior to this, I was the executive 
director at the National Center for Supercomputing Applications at the 
University of Illinois at Urbana-Champaign. I currently serve or 
previously have served on a number of National committees, including 
the National Science Foundation's Advisory Committee on 
Cyberinfrastructure and the Internet2 Board of Trustees. I also 
currently serve as Internet2's inaugural presidential fellow.
---------------------------------------------------------------------------
    \2\ Spicer, Donald & Metz, Bruce (July 25, 2005). A New Model For 
Supporting Research At Purdue University. Educause Center for Analysis 
and Research (ECAR), Case Study 7. Retrieved from https://
net.educause.edu/ir/library/pdf/ers0605/cs/ECS0507.pdf.
---------------------------------------------------------------------------
                              introduction
    On September 22, 1989, Hurricane Hugo made landfall on the coast of 
South Carolina just north of Charleston, as a Category 4 storm with 
estimated winds of 135 miles per hour or higher.\3\ In addition to the 
impact of the high winds brought onshore by the storm, Hugo produced 
the highest storm tide ever recorded along the East Coast, and was the 
strongest storm to make landfall in the United States compared with the 
previous 20-year period.\3\ Mainland damages from this storm were 
estimated at approximately $7 billion, and impacts were felt from 
Puerto Rico all the way through Pennsylvania.\3\
---------------------------------------------------------------------------
    \3\ National Weather Service--National Oceanic and Atmospheric 
Administration (n.d.). Hurricane Hugo: 25th Anniversary. Retrieved from 
http://www.weather.gov/chs/Hugo25thAnniversary.
---------------------------------------------------------------------------
    In this, or even with storms not as powerful as Hurricane Hugo, it 
is of paramount importance that our localities, State, and Nation are 
adequately prepared from not only an evacuation and emergency 
preparedness standpoint, but from an infrastructure point of view. 
However, there are other considerations outside of natural disasters 
that have the potential to be even more catastrophic in their impact--
not necessarily through withstanding physical damage, but rather 
potential economic and societal damage that could be associated with a 
hacking of our Nation's infrastructure.
    This presents a significant threat to our National security, our 
ability to serve citizens with basic services, and our economic status. 
In today's technology environment, this threat is more prevalent than 
ever with our increased reliance upon technology and its associated 
infrastructure. Another threat, in addition to the offensive nature of 
the hacking threat, is our Nation's cybersecurity expertise gap--one 
that has implications for our ability to defend our Nation's critical 
infrastructure assets against these attacks. Our preparedness for the 
future depends upon our conscious planning for capacity in 
cybersecurity research and education, and in equipping the next 
generation of cyber practitioners with the tools, techniques, and 
learning opportunities needed to ensure we have a cyber-ready 
workforce.
    A shift from the notion of natural disasters to one of man-made 
origins also requires a broadening of our understanding and planning 
for such emergencies. Rather than following the traditional model found 
with hurricanes--one that often relies upon advance public notice and 
evacuation plans--cyber attacks that take down infrastructure can come 
with little to no advance warning, and with little to no time to deploy 
real-time emergency management plans. Natural disasters also generally 
have the most significant damages confined to a single, relatively 
small geographic area, whereas a cyber attack on critical 
infrastructure has the potential to affect the entire Nation 
simultaneously. It is imperative that we understand the shifting 
paradigm from known threats to potentially unknown threats, and their 
ability to affect the way we prepare and respond to disasters.
                state of information technology in 1989
    Those who remember 1989 likely remember it much devoid of common 
technology--or at least to those who were not involved in its 
development at this point in history. Computers were slow, expensive, 
and applications were left mostly to large corporations and the Federal 
Government. Networks were in a far different paradigm, with TCP/IP--the 
bedrock of modern internet communications protocols--becoming the 
protocol standard for the ARPANET in 1983.\4\ Mobile communications 
were virtually non-existent in this era, and mobile communication 
devices were far from a consumer good.
---------------------------------------------------------------------------
    \4\ TCP/IP (n.d.). In Encyclopaedia Britannica on-line. Retrieved 
from http://www.britannica.com/EBchecked/topic/602945/TCPIP.
---------------------------------------------------------------------------
    In 1989, technology was far from ubiquitous as it is today, and was 
primarily in the background of everyday life. During this year, Intel 
released the 80486 microprocessor which boasted a 64-bit floating-point 
unit with a clock rate of 33MHz \5\--this compared with Intel's latest 
processor (the Intel Xeon Phi) with a clock rate of an individual core 
reaching 1.238 GHz.\6\ In this, we've witnessed a massive scaling 
concurrent with Moore's Law,\7\ which states that the overall 
processing power of computers will double approximately every 2 years.
---------------------------------------------------------------------------
    \5\ Computer History Museum (n.d.). Timeline of Computer History--
1989. Retrieved from http://www.computerhistory.org/timeline/
?year=1989.
    \6\ Intel Corporation (n.d.). Intel Xeon Phi Coprocessor 7100 
Series. Retrieved from http://ark.intel.com/products/series/75809.
    \7\ Moore, Gordon, Intel Corporation (n.d.). Moore's Law and Intel 
Innovation. Retrieved from http://www.intel.com/content/www/us/en/
history/museum-gordon-moore-law.html.
---------------------------------------------------------------------------
    Aside from computing capabilities in 1989, the internet as we know 
it today did not exist. In 1985, the National Science Foundation funded 
the NSFNet, a 56 kilobit-per-second link between the San Diego 
Supercomputer Center, the National Center for Atmospheric Research, the 
National Center for Supercomputing Applications, the Pittsburgh 
Supercomputing Center, the Cornell Theory Center, and the John von 
Neumann Computer Center. This network was originally intended to be a 
backbone for other networks rather than used for connecting 
individualized systems, and in 1989, this backbone was upgraded to T1--
or 1.544 Mbps.\8\ The average citizen in 1989 had no home network 
access and was much more likely to not have a device that had the 
ability to connect to any communications network.
---------------------------------------------------------------------------
    \8\ Kessler, Gary (August 5, 1994; Updated November 13, 2014). An 
Overview of TCP/IP Protocols and the Internet. Retrieved from http://
www.garykessler.net/library/tcpip.html.
---------------------------------------------------------------------------
    Mobile devices were also not prevalent in 1989. Qualcomm, a leading 
mobile device manufacturer during the 1990s, made its first CDMA-based 
phone call during a demonstration in San Diego, California on November 
7, 1989.\9\ Prior to this, CDMA technology had been primarily used by 
the United States military for secure communications.\9\ Mobile 
technologies until this point had been proprietary or protected, and 
this move marked the beginning of a shift toward more open mobile 
communications. However, in 1989, virtually all telecommunications were 
done through a wired device--making mobile communications an effective 
unknown to the general population at the time.
---------------------------------------------------------------------------
    \9\ Qualcomm Corporation (n.d.). History--Qualcomm. Retrieved from 
https://www.qualcomm.com/company/about/history.
---------------------------------------------------------------------------
    From a cursory glance at the history of computing and networking, 
one can deduce that in this time, cyber infrastructure, and the 
relevant technologies that make up such a term, was not as heavily 
relied upon as it is today for critical functions such as banking, 
public services, emergency management, and communications. This has 
far-reaching implications in that we as a Nation today are far more 
reliant upon technology and communications infrastructure than we ever 
have been, and this necessitates resilient, reliable, and high-
performance cyber infrastructure.
                state of information technology in 2014
    In our time, technology has become the backbone that even the most 
basic functions of society depend upon on a daily basis. According to a 
study by Javelin Strategy & Research in 2012, only 27 percent of all 
retail point-of-sale purchases were made with cash, versus an estimated 
66 percent of purchases being made with a credit or debit card.\10\ 
These credit or debit card transactions depend upon secure networks for 
processing, whereas with cash payments, only a secure cash repository 
was required.
---------------------------------------------------------------------------
    \10\ Javelin Strategy & Research, Greenwich Associates LLC (June 6, 
2012). RETAIL POINT OF SALE FORECAST 2012-2017: Cash is No Longer King; 
Cards and Mobile Payments Likely to Rise. Retrieved from https://
www.javelinstrategy.com/brochure/251.
---------------------------------------------------------------------------
    Further, according to the United States Census Bureau in 2013, an 
estimated 83.8 percent of all households in the United States reported 
computer ownership, and 74.4 percent of all households reported using 
the internet.\11\ This is in stark contrast to the state of technology 
proliferation in 1989, and has profound impacts on the way technology 
has integrated into our daily lives. Individuals are now reliant upon 
personal computers and a connection to the internet for activities such 
as on-line banking, tax preparation, bill payment, e-mail 
communications, and news. This shift effectively dictates that our 
Nation's emergency preparedness depends upon, in large part, to the 
availability and security of communications infrastructure components 
that enable access to the internet.
---------------------------------------------------------------------------
    \11\ File, Thom and Ryan, Camille (November 2014). Computer and 
Internet Use in the United States: 2013. U.S. Department of Commerce 
Economics and Statistics Administration, U.S. Census Bureau. Retrieved 
from www.census.gov/prod/2013pubs/p20-569.pdf.
---------------------------------------------------------------------------
    Our Nation's network backbone has grown in sharp contrast to the 
capabilities found in 1989, with the US-UCAN and Innovation Platform 
project currently delivering up to 100 Gb/s connectivity to research 
and education sites around the Nation through Internet2.\12\ \13\ Also, 
unlike the network of 1989, millions of personal devices are now 
connected to the internet, and range from personal desktop and laptop 
computers to mobile phones, automobiles, and even refrigerators. In 
this new paradigm, protection of and access to high-speed, high-
availability networks is necessary not only for corporations, 
Government agencies, and utility providers, but for the average 
consumer in order to meet the demands of today's world.
---------------------------------------------------------------------------
    \12\ Internet2 (n.d.). Innovation Platform. Retrieved from http://
www.internet2.edu/vision-initiatives/initiatives/innovation-platform/.
    \13\ Internet2 (n.d.). U.S. UCAN. Retrieved from http://
www.internet2.edu/vision-initiatives/initiatives/us-ucan/.
---------------------------------------------------------------------------
    Mobile devices have now become the norm for point-to-point 
communications. According to CTIA, a communications industry trade 
group, nearly 90 percent of households in the United States use 
wireless service, and an estimated 40% of adults in the United States 
live in a wireless-only household.\14\ This, coupled with the recent 
revelation that the number of mobile phones in the United States 
recently eclipsed the totality of the U.S. population, reveals that the 
general population is heavily reliant upon mobile devices for 
communication with the outside world. A recent exposee by NBC's The 
Today Show captured in photographs what amounts to a monumental shift 
in the adoption and use of mobile technologies through a visual 
depiction of the differences from a papal event in 2005 to another in 
2013.\15\ These photos are referenced as Appendix A.
---------------------------------------------------------------------------
    \14\ CTIA--The Wireless Association (n.d.). Wireless Quick Facts. 
Retrieved from http://www.ctia.org/your-wireless-life/how-wireless-
works/wireless-quick-facts.
    \15\ Dellaverson, Carlo. (March 14, 2013). Witnessing Papal history 
changes with digital age. NBC News Photo Blog. Retrieved from http://
photoblog.nbcnews.com/_news/2013/03/14/17312316-witnessing-papal-
history-changes-with-digital-age.
---------------------------------------------------------------------------
    Our Nation's infrastructure is now also heavily dependent upon 
computerized systems and network interconnections for the delivery of 
basic services to the population. This dependency comes with the risk 
of vulnerabilities to the communications components of these systems, 
and the risk of unauthorized entities gaining access to the control 
mechanisms found within these systems. The U.S. Government 
Accountability Office, in its 2012 report entitled ``Cybersecurity: 
Challenges in Securing the Electricity Grid,'' said that the Nation's 
power infrastructure suffers from a lack of security features 
consistently built into smart grid systems, and that the electricity 
industry as a whole did not have metrics for evaluating 
cybersecurity.\16\ This, coupled with an inevitable rise in 
computerized systems for oil and gas delivery, water and sewer 
services, and traffic control mechanisms makes a clear case for the 
need for comprehensive planning with regard to protecting the computer 
systems that our National infrastructure relies upon.
---------------------------------------------------------------------------
    \16\ Wilshusen, Gregory (July 17, 2012). Cybersecurity: Challenges 
in Securing the Electricity Grid. Retrieved from http://www.gao.gov/
assets/600/592508.pdf
---------------------------------------------------------------------------
    With this increased reliance upon technology and computer systems 
to drive our country's critical infrastructure, the next major disaster 
we face may not be a natural disaster, but rather a cyber disaster as a 
result of a catastrophic cyber attack. For that, Mr. Chairman, I 
believe we as a Nation are not adequately prepared. Fundamental shifts 
in both the way we prepare for a cyber disaster and the way we defend 
against such an attack are needed for us to better protect our National 
security interests and ensure our systems, networks, and overall 
population are prepared for the potential occurrence of such an event.
      case study: hurricane katrina's effect on it infrastructure
    Perhaps the greatest test of our emergency preparedness for a 
large-scale natural disaster's impact on information technology 
infrastructure occurred with Hurricane Katrina's landfall in New 
Orleans in 2005. Flooding quickly became the paramount concern as the 
levees around New Orleans could not withstand the storm surge, and one 
representative from the American Society of Civil Engineers called this 
``the worst engineering catastrophe in U.S. history.''\17\ Exposure to 
water causes most IT components to cease to function, and this was the 
case with many computing and networking centers across the greater New 
Orleans area during the aftermath of Katrina. In addition to the 
impacts on the computing infrastructure, Hurricane Katrina virtually 
shut down transportation networks and reliable telephone communications 
within the 504 (New Orleans) area code.\18\
---------------------------------------------------------------------------
    \17\ Roth, Lawrence (n.d.). The New Orleans Levees: The Worst 
Engineering Catastrophe in U.S. History--What Went Wrong and Why. 
Retrieved from http://biotech.law.lsu.edu/climate/ocean-rise/against-
the-deluge/01-new_orleans_levees.pdf.
    \18\ Morrow, J.J. (n.d.). Hurricane Preparedness After Action 
Review. Retrieved from www.tulane.edu/.../
Hurricane_Katrina_After_Action_Critique.ppt?.
---------------------------------------------------------------------------
    According to a study released in the American Behavioral Scientist 
journal on the sociological implications of a post-Katrina New Orleans, 
the study cited that ``in the confusion of the massive evacuations from 
the New Orleans area, families and friends lost track of one another. 
Few evacuees had expected to be gone for more than a day or two. They 
did not make arrangements to contact one another, and they had no 
information on the whereabouts and well-being of their families and 
friends for days afterward.''\19\
---------------------------------------------------------------------------
    \19\ Shklovski, Irina; Burke, Moira; Kiesler, Sara; and Kraut, 
Robert. (February 18, 2010). Technology Adoption and Use in the 
Aftermath of Hurricane Katrina in New Orleans. American Behavioral 
Scientist, XX(X)-I-19. Retrieved from http://www.cs.cmu.edu/kiesler/
publications/2010pdfs/2010Shklovski.pdf.
---------------------------------------------------------------------------
    Tulane University in New Orleans sustained an estimated $200 
million in damages associated with the disaster, and was forced to 
cancel classes for the remainder of the Fall 2005 academic 
semester.\20\ This proved for the higher education community that 
traditional notions of disaster planning and business continuity were 
false; a campus could not effectively shift its entire operation to a 
remote-access system for distance learning and maintain normal business 
operations ``on-demand.'' The disaster affected Tulane's ability to not 
only serve its students in an academic context for the remainder of the 
semester, but to facilitate payroll or run their email system.\21\
---------------------------------------------------------------------------
    \20\ Pinto, Barbara (December 9, 2005). Katrina Wallops Tulane 
University. ABC News. Retrieved from http://abcnews.go.com/US/
HurricaneKatrina/story?id=1390382.
    \21\ Cowen, Scott (September 3, 2005 and August 30, 2005). Previous 
Messages from President Cowen--Tulane University. Retrieved from http:/
/www.tulane.edu/past.html.
---------------------------------------------------------------------------
    Health care infrastructure also sustained critical damage--outside 
of primary damage to physical medical facilities, some systems 
containing electronic medical records (EMRs) also became inoperable 
(due mainly to either flooding or lack of power) and many Katrina 
evacuees did not have paper copies of their medical records when they 
left the city. This presents a major challenge in health care delivery 
in a major disaster, and efforts are underway to ensure more seamless 
exchanges of health information to better prepare for disasters in the 
wake of Katrina's lessons.\22\
---------------------------------------------------------------------------
    \22\ United States Department of Health and Human Services (July 
11, 2013). States prepare for seamless exchange of health records after 
disasters. Retrieved from http://www.hhs.gov/news/press/2013pres/07/
20130711a.html.
---------------------------------------------------------------------------
    Katrina taught us many lessons on the impact a disaster can have on 
our technology-dependent world, and these impacts are still being 
studied and modeled today. What Katrina did show our Nation, however, 
is that we still have strides to make in our disaster planning and 
emergency management efforts.
                  cyber disasters--how do we prepare?
    Natural disasters, such as the one experienced with Hurricane 
Katrina, can often be scoped in advance of their arrival to assess the 
potential impact of the event, and to deploy the proper evacuation and 
emergency protocols necessary to prevent loss of life. However, with 
cyber disasters, the scope can be unknown, and with this, the scale of 
the impact unknown. This leads to a need for a greater understanding of 
the potential impacts of such a disaster, and how the Nation's 
emergency management divisions develop plans for maintaining order and 
facilitating recovery.
    Mr. Chairman, I would submit that in the most hurricane-prone areas 
of our Nation, most residents understand the implications of an 
evacuation plan and emergency managers in these areas are well-versed 
in the procedures that are associated with ensuring the area is 
adequately prepared for a storm. However, I do not believe this Nation 
is adequately prepared for a potential cyber disaster that affects the 
operation of infrastructure such as power, banking, or 
telecommunications.
    One primary example comes to mind--our power infrastructure--that 
demonstrates our need to become more vigilant in defending against the 
potential for a large-scale attack in these areas.
                          power infrastructure
    The state and security of our power infrastructure has perhaps been 
the most researched of these topics, and with that comes some startling 
revelations about our state of preparedness for a large-scale attack in 
this area. According to a National Research Council report, entitled 
Terrorism and the Electric Power Delivery System, ``if carried out in a 
carefully planned way, by people who knew what they were doing, such an 
attack could deny large regions of the country access to bulk system 
power for weeks or even months.''\23\ While the report goes on to say 
that a cyber attack on the grid would be unlikely to cause extended 
outages, this is not to say that such an outage could not occur, and 
could potentially be coupled with a physical attack on the power 
infrastructure.
---------------------------------------------------------------------------
    \23\ National Research Council (2012). Terrorism and the Electric 
Power Delivery System. Washington, DC: The National Academies Press. 
Retrieved from http://www.nap.edu/catalog.php?record_id=12050.
---------------------------------------------------------------------------
    In a study done for Bloomberg in 2012 by the Ponemon Institute, 
utility and energy companies surveyed said that they would need an 
average annual budget of $344.6 million to reach a level where they 
could successfully combat 95% of their cyber threats.\24\ This 
represents a nearly 10-fold increase from the current level of $45.8 
million.\24\ Lawrence Ponemon, Chairman of the Ponemon Institute, a 
firm that conducts independent research on privacy, data protection, 
and information security policy,\25\ stated in an 2012 interview with 
Bloomberg that, ``the consequences of a successful attack against 
critical infrastructure makes these cost increases look like chump 
change,'' and that ``it would put people into the Dark Ages.''\24\
---------------------------------------------------------------------------
    \24\ Engleman, Eric and Strohm, Chris (January 31, 2012). 
Cybersecurity Disaster Seen in U.S. Survey Citing Spending Gaps. 
Bloomberg News. Retrieved from http://www.bloomberg.com/news/2012-01-
31/cybersecurity-disaster-seen-in-u-s-survey-citing-spending-gaps.html.
    \25\ Ponemon Institute (n.d.). Ponemon Institute--Why We Are 
Unique. Retrieved from http://www.ponemon.org/about-ponemon.
---------------------------------------------------------------------------
    One example of the impact of a power system failure is the blackout 
that occurred in the Northeast United States and parts of Canada in 
August of 2003. This blackout affected an estimated 50 million people 
in Ohio, Michigan, Pennsylvania, New York, Vermont, Massachusetts, 
Connecticut, New Jersey, and Ontario, Canada, and power was not 
restored in some parts of the country for up to 4 days.\26\ 
Consequently, this blackout was primarily initiated by a software 
failure in an alarm and logging system in the control room of the First 
Energy Corporation.\26\
---------------------------------------------------------------------------
    \26\ U.S.-Canada Power System Outage Task Force (April 2004). Final 
Report on the August 14, 2003 Blackout in the United States and Canada: 
Causes and Recommendations. Retrieved from https://reports.energy.gov/
BlackoutFinal-Web.pdf.
---------------------------------------------------------------------------
    In a piece documenting the impact of the blackout, CNN reported 
that ``the outage stopped trains, elevators, and the normal flow of 
traffic and life.''\27\ In Michigan, the population's water supply was 
affected because of the system's dependence on electric pumps, and 
Amtrak stopped all trains leaving the New York City area as well as in 
Michigan between Detroit, Dearborn, and Pontiac.\27\ The blackout also 
affected airports, communications networks, fuel pumps, and traffic 
signals.
---------------------------------------------------------------------------
    \27\ CNN News (August 14, 2003). Major power outage hits New York, 
other large cities. Retrieved from http://www.cnn.com/2003/US/08/14/
power.outage/
---------------------------------------------------------------------------
    The 2003 blackout shows us how dependent we are upon a readily 
available and reliable power supply to perform daily functions--and how 
quickly the failure of a computerized system can wreak havoc on a 
region's power availability. This incident's total cost was estimated 
at between $4 billion and $10 billion in the United States, and 
approximately $2.3 billion in Canada--where the Nation's gross domestic 
product was down 0.7% for the month of August.\26\ This impact suggests 
that not only do our systems and much of the remainder of our 
infrastructure rely on power, but our entire economy also relies upon 
this resource as a critical component.
    Power is the necessary backbone upon which virtually all 
information technology systems operate, and a reliable power supply is 
always a primary consideration in systems-level disaster planning. 
Perhaps most close to me is the great lengths to which we have gone at 
Clemson to ensure we adequately plan for any temporary power failures 
and keep our systems operational for our customers. We have developed a 
state-of-the-art data center and computing facility that houses our 
enterprise systems including our student information system, payroll 
and finance systems, and our learning management system for the campus. 
We also house the campus' high-performance computing system, and run 
the system responsible for the State of South Carolina's Medicaid 
eligibility and claims processing system. A temporary power failure, 
one lasting less than a full 24-hour day, has been modeled using our 
existing uninterruptible power supply (UPS) and generator capacity, and 
it is estimated that with our current load, Clemson could operate its 
systems for approximately 38 hours on both generators, and 46 hours on 
a single generator. This is critical for business continuity for 
Clemson's operations--and for the State's Medicaid system to operate 
without service interruption.
    Coupled with the potential threat of a power loss, we need to 
increase the importance of robust disaster recovery and business 
continuity (DR/BC) planning for our State and Nation, especially for 
Government-operated systems. Clemson is currently relatively well-
positioned in its environment, but our need for real-time, reliable 
disaster recovery and business continuity is ever-growing, and our 
reliance upon electronic messaging (e-mail), electronic payroll 
systems, and health care systems show no signs of decreasing. Aside 
from implications of a power loss, DR/BC plans are important for a wide 
variety of reasons--to include system hardware or software failures, 
data backups, or disaster events that affect other necessary functions 
of the primary site.
    With the advent of cloud technologies and the potential cost 
savings associated with their adoption through leveraging shared 
investments, DR/BC planning in the cloud computing environment should 
be considered as a mechanism for ensuring minimum technology, system, 
and distance requirements are met while also maintaining a reasonable 
cost. With any provider of these services, however, there are 
considerations for the real-time nature of a system's ability to 
transfer locations with minimal service loss, and a remote site's 
ability to run the critical systems of the company, agency, or campus. 
As discovered with the Tulane University example during Hurricane 
Katrina, generally accepted notions of disaster recovery and business 
continuity plans can be challenged by the relative unknown any disaster 
brings, and it is important to continually test these plans in as-
close-to-production environments as is feasible.
                     implications for data security
    Aside from risks associated with our basic infrastructure being 
compromised, perhaps another paramount risk is the loss or disclosure 
of critical data due to either inadequate security protocols or human 
error. In the era of ``big data,'' it becomes increasingly important to 
protect our most valuable data from external threats. According to IBM, 
in 2012, nearly 2.5 exabytes of data were created on a daily basis and 
as storage density increases, coupled with declining storage costs, 
this is only expected to grow.\28\ Likewise, as computing devices such 
as phones and portable tablets continue their penetration into all 
aspects of society, it is increasingly likely that these devices will 
contribute to an exponential rise in data storage needs.
---------------------------------------------------------------------------
    \28\ IBM Corporation (n.d.). Demystifying Big Data: Decoding The 
Big Data Commission Report. Retrieved from https://www-304.ibm.com/
events/wwe/grp/grp004.nsf/vLookupPDFs/Tim%20Paydos'%20Presentation/
$file/Tim%20Paydos'%20Presentation.pdf.
---------------------------------------------------------------------------
    This presents a two-fold problem for ensuring the security of data 
and the underlying computing infrastructure on which it is stored. 
First, ensuring that proper security controls are applied to the data 
itself to prevent unauthorized access, use, or disclosure is of 
paramount importance, and second, to protect the infrastructure from 
growing ubiquity of these devices' need for access. Authorized users 
and consumers are not only demanding more connectivity to resources, 
but our economy has become increasingly dependent on the ability to 
communicate in real time or in near-real time. As our dependence on 
this real-time need for data escalates for personal devices as well as 
for economic and National security needs, so does the valuation and 
susceptibility of the data itself.
    In a 2013 report published by PandaLabs, nearly 20% of all 
malicious code ever to be in circulation (known as malware) was created 
during the year 2013.\29\ This means that nearly 82,000 pieces of new 
malware were created each day during 2013.\29\ Many of these malicious 
codes are designed to compromise computing systems in order to release 
or provide access to sensitive data stores. While many cybersecurity-
related events may be targeting the infrastructure for purposes of 
interruption of services, most cyber criminals will be attempting to 
acquire or compromise sensitive data for personal or nation-state 
advantages. It is becoming increasingly clear with each newly-published 
report in this space that several nations are engaging in cyber 
warfare. Some of these operations are covert for purposes of privileged 
data acquisition, and others for purposes of activities such as the 
accusations levied against Russia prior to the Georgian invasion in 
2008.\30\
---------------------------------------------------------------------------
    \29\ Udemans, Chris (April 14, 2014). 20% of malware generated in 
2013--PandaLabs. Retrieved from http://www.humanipo.com/news/42720/20-
of-malware-generated-in-2013-pandalabs/.
    \30\ Markoff, John (August 12, 2008). Before the Gunfire, 
Cyberattacks. The New York Times. Retrieved from http://
www.nytimes.com/2008/08/13/technology/13cyber.html?_r=1&.
---------------------------------------------------------------------------
    Clemson University takes the threat of a possible cyber attack as 
legitimate and real on a continual and daily basis. After joining 
Clemson University in 2006, one of the first actions I took was to 
create an Office of Information Security and Privacy to oversee the 
security and privacy activities of the university. From my experience 
in previous positions, I identified this is an immediate and critical 
need for the University. Securing computing systems and data in higher 
education has its own set of unique challenges commonly not found in 
other industries, but still faces similar threats. Universities, in 
general, are under attack daily due to the open nature of higher 
education, the vast amounts of computing infrastructure used by a wide 
variety of users, and the large volumes of intellectual property 
created by researchers. Also, taking into account all of the personally 
identifiable information, financial information, and health care data 
created and consumed by typical universities, it is clear why these 
institutions become very large targets for cyber criminals.
    To protect all of this data and infrastructure, Clemson University 
employs many industry-accepted practices to prevent not only 
unauthorized intrusion into protected spaces, but to also avoid any 
interruption in services. Clemson's Computing and Information 
Technology organization also has a dedicated 24/7 Network Operations 
Center (NOC) for all network monitoring and operations. Mission-
critical systems are consistently scrutinized for security-related 
concerns before, during, and after deployment and network activity is 
monitored for anomalies. We undergo numerous internal and external 
audits administered by both State and Federal agencies annually where 
processes, systems, and facilities are evaluated.
    With this, it has become more important than ever for organizations 
to have a primary focus on protecting their information technology 
infrastructure and data from potential cyber criminals. In today's 
world, no enterprise, agency, or entity is exempt from attack; in fact, 
even individuals should employ appropriate practices to ensure their 
personal data is not compromised.
                        an eye toward the future
    Given the multitude of potential threats, our Nation must be 
vigilant in our actions to prepare for the future. I would therefore 
submit, Mr. Chairman, that in order for our Nation to be prepared to 
defend against cyber disasters and other cyber threats, we must invest 
in the future of cybersecurity research, education, and training to 
prepare the next generation workforce. This is vital to ensuring that 
our Nation remains secure, competitive, and sustains our position as a 
world leader on the global stage. At Clemson, one industry partner has 
expressed to us that there are points in time where the company will 
have up to 300 open cybersecurity-related positions without enough 
qualified applicants to fill them. I fear our Nation faces an upcoming 
crisis in our cybersecurity workforce if investments are not made to 
encourage this career path and to ensure robust education and training 
programs at our Nation's universities.
    Additionally, in order to protect the security of data in our age, 
more efforts are needed in the area of secure application development, 
as security must start within the application itself. In general, we 
are not adequately educating the next generation of programmers in the 
development of secure code or secure code development principles. We 
will likely continue to see common applications that we have become 
dependent upon for daily use becoming vulnerable over time as 
weaknesses are discovered.
    Earlier this year, the commonly used OpenSSL cryptographic software 
library was discovered to have a critical vulnerability referred to as 
the Heartbleed bug.\31\ OpenSSL was used to provide for the security of 
data and communications in many devices and systems. This discovered 
vulnerability would allow an attacker to have access to information 
that ordinarily would be protected by Secure Socket Layer/Transport 
Layer Security (SSL/TLS) encryption protocols. This oversight in 
programming required many in the computing industry to have to take 
production systems off-line, evaluate all of their systems for 
applicability, and then spend days to weeks of remediating the issues--
including revoking and re-issuing all new certificates on their servers 
once all vulnerability patching was complete.
---------------------------------------------------------------------------
    \31\ Kirk, Jeremy (April 8, 2014). Critical OpenSSL Heartbleed bug 
puts encrypted communications at risk. PCWorld. Retrieved from http://
www.pcworld.com/article/2140920/heartbleed-bug-in-openssl-puts-
encrypted-communications-at-risk.html.
---------------------------------------------------------------------------
    In 2008, the Comprehensive National Cyber-Security Initiative 
(CNCI) identified 12 initiatives to combat the threats that 
cybersecurity has to our economy and National security.\32\ In response 
to Initiative 8 from the CNCI's charge--the need to expand cyber 
education--Clemson University and the information technology division 
have dedicated resources to help combat this shortage in cybersecurity 
practitioners.
---------------------------------------------------------------------------
    \32\ The White House (n.d.). The Comprehensive National 
Cybersecurity Initiative. Retrieved from http://www.whitehouse.gov/
issues/foreign-policy/cybersecurity/national-initiative.
---------------------------------------------------------------------------
    One program at Clemson is the Cyber-infrastructure General 
Practitioner Program (NSF Award 1251544), where rather than becoming 
cyberinfrastructure (CI) users with limited skill sets, we intend to 
help students become innovative and productive CI ``general 
practitioners'' by providing participating undergraduate and graduate 
students with the critical broad perspective of CI needed to make the 
best decisions and make best use of available resources. These 
experiences primarily take the form of Creative Inquiry \33\ courses 
that are added to (or substituted into) a student's regular course 
curriculum for his/her major. Once a student has demonstrated 
proficiency in a particular area, we work to find internship activities 
or projects sponsored by the IT organization or by one of our many 
commercial partners.
---------------------------------------------------------------------------
    \33\ Creative Inquiry (n.d.). Creative Inquiry and Undergraduate 
Research. Retrieved from http://www.clemson.edu/academics/programs/
creative-inquiry/.
---------------------------------------------------------------------------
    A second program at Clemson is designed to provide an immersive 
educational experience for those looking for a career in the 
information security field. Currently, there is an information security 
student organization at Clemson where students, advised by members of 
the Office of Information Security and Privacy, compete in both State 
and National competitions. Many of these students, and others from 
across the University, are currently taking security-related 
undergraduate courses offered by the University, but a gap exists in 
applications of operational security. Set to open in the spring of 
2015, we will have a dedicated, student-centered Security Operations 
Center (SOC) on campus designed to employ students through official 
university internships and partner them with our Information Security 
and Privacy Office.
    During the day, all operational security needs and incident 
responses will be maintained by the SOC and between operational needs, 
the students will be taught real-life skills in penetration testing, 
audits, compliance, and risk assessment. Industry-accepted practices 
and tools will be used to provide these students with demonstrable 
skills to make them competitive in the workforce. We have engaged 
public and private industry partners who will be participating in this 
program and they have identified this a great need for them to fulfill 
their future staffing needs in this space.
    Even with these efforts, we as a Nation need to collectively make 
education and training in cybersecurity a priority to keep pace with 
the growing demand of professionals in this area. A workforce that is 
capable of preparing and protecting our infrastructure is paramount, 
and much like the probable future medical doctor shortage this Nation 
is facing, if we do not begin to provide the education and training to 
those who will be tasked with protecting our infrastructure, the 
vulnerabilities we face will continue to grow without the professionals 
educated to protect it.
                               conclusion
    In conclusion, it is evidenced that as our society has become more 
reliant upon information technology as a backbone for many of our most 
important functions as a Nation and as an economy, we also have a duty 
to prepare for a potential disaster that affects these systems. In 
1989, information technology took a back-seat role in our society, and 
that no longer holds true in 2014. Therefore, any major disaster--
natural or otherwise--is likely to have a significant impact on our 
cyberinfrastructure environment, and our emergency preparedness plans 
must account for this.
    Furthermore, increased emphasis is needed on developing robust 
disaster recovery and business continuity plans for our Nation's most 
critical systems, and to build redundant capabilities that can serve us 
during these times of crisis. Additionally, I believe we as a Nation 
have progress to make if we are to be prepared in terms of emergency 
planning--especially for a cyber disaster--but also in terms of our 
long-range strategic efforts to ensure a robust and competitive 
cybersecurity workforce.
                               Appendix A

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Year: 2005 Photo Credit: Luca Bruno, AP Retrieved from: http://
photoblog.nbcnews.com/_news/2013/03/14/17312316-witnessing-papal-
history-changes-with-digital-age.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Year: 2013 Photo Credit: Michael Sohn, AP Retrieved from: http://
photoblog.nbcnews.com/_news/2013/03/14/17312316-witnessing-papal-
history-changes-with-digital-age.

    Mr. Duncan. Thanks so much.
    Mr. Louden.

STATEMENT OF THOMAS LOUDEN, GENERAL SECRETARY, NORTH AND SOUTH 
             CAROLINA DIVISION, THE SALVATION ARMY

    Mr. Louden. Good afternoon, Chairman Duncan, Congressman 
Meadows, and colleagues. I am Major Tom Louden, the general 
secretary for the Salvation Army's North and South Carolina 
Division. On behalf of our entire organization, thank you for 
this opportunity to share the story of the Salvation Army and 
our emergency disaster services program.
    The Salvation Army is a religious and charitable nonprofit 
organization that provides assistance to needy families every 
day of the year in communities all across our country. The 
Salvation Army's mission is to preach the gospel of Jesus 
Christ and to meet human needs in his name without 
discrimination. Our disaster services program focuses on 
fulfilling that mission by helping any and all who need 
assistance during emergencies.
    The Salvation Army's first disaster response in the United 
States occurred more than 100 years ago to the great Galveston 
hurricane of 1900. Since then, the Salvation Army has responded 
to just about every major disaster our Nation has faced.
    I would like to share with you how the Salvation Army has 
been a vital part of our Nation's emergency disaster response 
system.
    The geographical footprint of the Salvation Army reaches 
every ZIP Code in the country. Our front-line responders are 
the Salvation Army officers, staff, and volunteers who live in 
the impacted area. We support the development and training of 
community volunteers.
    If an emergency overwhelms our local resources, our 
organizational structure allows us to augment as need demands. 
While our services may be adapted to the unique needs of 
natural disaster situations, we are also known for four core 
services.
    Many of you are probably familiar with the Salvation Army 
canteen, our mobile kitchen on wheels that can provide food and 
hydration. Within our Southeast region, we have nearly 300 of 
these units, each capable of producing approximately 1,500 
meals per day. Twenty of those feeding units are positioned in 
North Carolina and 10 in South Carolina.
    In addition to food service, the Salvation Army offers 
practical aid to disaster victims, helping individuals and 
families meet emergency needs in the immediate aftermath of a 
disaster. We also collect and distribute donated goods, such as 
food boxes, cleaning supplies, and household items, by 
leveraging our network of facilities.
    Perhaps most importantly, we minister to people affected by 
the disaster by offering emotional and spiritual care to rescue 
workers and survivors.
    The Salvation Army is present in a community long before a 
disaster occurs, and we will continue to serve that community 
even after the disaster event is a distant memory. We 
participate in long-term disaster recovery operations, working 
closely with Government agencies and the Voluntary 
Organizations Active in Disasters, or VOAD, network.
    For a catastrophic event like Hurricane Hugo, our disaster 
recovery efforts may continue for several years.
    We rely on volunteers and the generosity of the public to 
support our service delivery. All Salvation Army disaster 
services are offered without charge and are supported entirely 
by donations and the generosity of others. This gives the 
Salvation Army a good deal of flexibility in how we are able to 
help. Because the public is tremendously supportive, it allows 
us to independently fund our operations.
    Finally, and perhaps most importantly, we recognize that we 
are a very small part of a much larger emergency response 
network, and we are grateful for the support we receive from 
our local, State, and Federal partners.
    Let me be clear here, without the strong support local, 
State, and Federal emergency management agencies provide, the 
Salvation Army would find it very difficult to offer all of our 
disaster relief services I have just described.
    We are extremely grateful to the counties, States, and at 
the Federal level, FEMA, that consistently invite the Salvation 
Army to the table and to participate in interagency training 
and exercises to provide input in planning sessions and into 
emergency operations centers when a disaster occurs.
    After Hurricane Hugo, the Salvation Army provided over 
500,000 meals in partnership with local and National food 
vendors, 338,000 food boxes. Four thousand volunteers, 
employees, and officers provided almost 600,000 hours of 
service. Our mobile kitchens were serving for over 90 days.
    As we ponder the question, ``Are we ready for a 21st 
Century Hugo?'' we must also consider that our next disaster of 
this magnitude might not be a hurricane, but some other natural 
or human-caused event.
    We believe that effective disaster response is all-hazards 
and ready for whatever challenge the future places before us.
    We also believe that the disaster response team extends 
across the whole community, including not just Government 
agencies and charitable organizations like the Salvation Army 
but also private industry, faith-based, and civic 
organizations, citizens.
    The past 25 years have revealed that our Nation is 
vulnerable to a variety of hazards, and that it will take all 
of us working together to respond to these emergencies.
    Thank you again for this opportunity. I will be happy to 
answer any questions that you may have. Thank you.
    [The prepared statement of Mr. Louden follows:]
                  Prepared Statement of Thomas Louden
                           November 21, 2014
    Good afternoon Chairman Duncan, Members of the committee, and 
colleagues:
    I am Major Tom Louden, the general secretary for The Salvation 
Army's North and South Carolina Division. On behalf of our entire 
organization, thank you for this opportunity to share the story of The 
Salvation Army and our Emergency Disaster Services program.
    The Salvation Army is a religious and charitable nonprofit 
organization that provides assistance to needy families every day of 
the year in communities all across this country. The Salvation Army's 
mission is to ``preach the gospel of Jesus Christ and meet human needs 
in His name without discrimination'' and our disaster services program 
focuses on fulfilling that mission by helping any and all who need 
assistance during emergencies. The Salvation Army's first disaster 
response in the United States occurred more than 100 years ago--to the 
Great Galveston Hurricane of 1900--and since then, The Salvation Army 
has responded to just about every major disaster our Nation has faced.
    I'd like to share with you how The Salvation Army has been a vital 
part of our Nation's emergency disaster response system.
    The geographical footprint of The Salvation Army reaches every ZIP 
Code in the country. Our front-line responders are The Salvation Army 
officers, staff, and volunteers who live in the impacted area, and we 
support the development and training of community volunteers. If an 
emergency overwhelms our local resources, our organizational structure 
allows us to augment as need demands.
    And, while our services may be adapted to the unique needs of a 
disaster situation, we are known for four core services. Many of you 
are probably familiar with The Salvation Army canteen--our mobile 
``kitchens on wheels''--that can provide food and hydration. Within our 
southeast region, we have nearly 300 of these units, each capable of 
producing approximately 1,500 meals per day. Twenty of these feeding 
units are positioned in North Carolina and ten in South Carolina.
    In addition to food service, The Salvation Army offers practical 
aid to disaster survivors, helping individuals and families meet 
emergency needs in the immediate aftermath of a disaster. We also 
collect and distribute donated goods, such as food boxes, cleaning 
supplies, and household items, by leveraging our network of facilities. 
And perhaps, most importantly, we minister to people affected by the 
disaster by offering emotional and spiritual care to rescue workers and 
survivors.
    The Salvation Army is present in a community long before a disaster 
occurs, and we will continue to serve that community even after the 
disaster event is a distant memory. We participate in long-term 
disaster recovery operations, working closely with Government agencies 
and the Voluntary Organizations Active in Disaster or VOAD network. For 
a catastrophic event, like Hurricane Hugo or Katrina, our disaster 
recovery efforts may continue for several years.
    We rely on volunteers and the generosity of the public to support 
our service delivery. All Salvation Army disaster services are offered 
without charge and supported entirely by donations and the generosity 
of others. This gives The Salvation Army a good deal of flexibility in 
how we are able to help and, because the public is tremendously 
supportive, it allows us to independently fund our operations.
    Finally, and perhaps most importantly, we recognize that we are a 
very small part of a much larger emergency response network, and we are 
grateful for the support we receive from our local, State, and Federal 
partners. Let me be clear here--without the strong support local, 
State, and Federal emergency management agencies provide, The Salvation 
Army would find it very difficult to offer all the disaster relief 
services I have just described. We are extremely grateful that the 
counties, States and, at the Federal level, FEMA, consistently invite 
The Salvation Army to ``the table''--to participate in interagency 
training and exercises, to provide input in planning sessions, and into 
their emergency operations centers when a disaster occurs.
    After Hurricane Hugo, The Salvation Army provided over 500,000 
meals, in partnership with local and National food vendors; 338,000 
food boxes; 4,000 volunteers, employees, and officers provided almost 
600,000 hours of service. Our mobile kitchens were serving for over 90 
days. As we ponder the question, ``Are we ready for a 21st Century 
Hugo?'', we must also consider that our next disaster of this magnitude 
might not be a hurricane but some other natural or human-caused event. 
We believe that effective disaster response is all-hazards and ready 
for whatever challenge the future places before us. We also believe 
that the disaster response team extends across the whole community, 
including not just Government agencies and charitable organizations, 
like The Salvation Army, but also private industry, faith-based and 
civic organizations, and citizens. The past 25 years have revealed that 
our Nation is vulnerable to a variety of hazards and that it will take 
all of us--working together--to respond to these emergencies.
    Thank you again for this opportunity. We are happy to answer any 
questions you may have and appreciate your continued support.
                        supporting documentation
    The Salvation Army is a religious and charitable nonprofit 
organization, founded on the streets of East London, England, 150 years 
ago. We provide assistance to needy families every single day of the 
year in communities all across the United States and in 125 other 
countries around the world. The Salvation Army's mission is to ``preach 
the gospel of Jesus Christ and meet human needs in His name without 
discrimination'' and our disaster services program focuses on 
fulfilling that mission by helping any and all who need assistance 
during emergency events. The organization's first disaster response in 
the United States occurred more than 100 years ago--to the Great 
Galveston Hurricane of 1900--when our National Commander ordered 
Salvation Army officers to that stricken city to provide whatever 
practical aid and comfort they could. Since then, The Salvation Army 
has responded to just about every major disaster our Nation has faced.
    Our National headquarters is in Alexandria, Virginia. We divide the 
United States into four administrative regions called ``territories.'' 
The Salvation Army's Southern Territory, headquartered in Atlanta, GA, 
includes the States of North and South Carolina. The territories are 
further subdivided into 40 smaller entities called ``divisions'' that 
typically include from 1 to 3 States, with oversight provided by a 
divisional headquarters office. The divisional headquarters for the 
North and South Carolina Division is in Charlotte, NC. Additionally, we 
have smaller, more localized operations called ``corps.'' These are The 
Salvation Army units you will find in many communities across this 
country. Smaller communities may have only a single corps or service 
unit; larger cities may include multiple service locations and 
facilities.
    The Salvation Army has been active in North and South Carolina 
since 1887--opening units in Raleigh, Wilmington, and Spartanburg in 
that year. Today, The Salvation Army operates 64 commands in the two 
States, which serve all 100 counties and the Eastern Band of the 
Cherokee Nation in North Carolina as well as the 46 counties of South 
Carolina. These operations include providing youth programs, including 
Boys and Girls Clubs and summer camps; shelters for families in need of 
transitional housing; weekly worship services; drug and alcohol 
treatment programs; homeless shelters; affordable residential housing 
for seniors; and seasonal programs, such as our Christmas kettle 
program and toy drives. One of The Salvation Army's 25 Ray and Joan 
Kroc Community Centers opened in Greenville, SC in 2011.
    Our local commands are typically directed by a Salvation Army 
officer--individuals or married couples who are ordained to full-time 
ministry within The Salvation Army. Officers wear navy blue uniforms 
with red epaulets and are responsible for leading a force of local 
volunteers, employees, and soldiers. Nationally, The Salvation Army in 
the United States now includes more than 5,300 officers, 63,900 staff, 
and tens of thousands of volunteers.
                      emergency disaster services
    The Salvation Army has been a vital part of the Nation's emergency 
disaster response system.
    First, because the presence of The Salvation Army reaches every ZIP 
Code in the country, we live and work in the communities where 
disasters strike. Our first responders are The Salvation Army officers, 
staff, and volunteers who live in the impacted area, and we support the 
development and training of community volunteers. If an emergency 
overwhelms our local resources, then we augment those resources by 
deploying personnel and equipment from across our division and, if 
necessary, from across the country, to help where needed.
    And, while our services may be adapted to the unique needs of a 
disaster situation, we are known for four (4) core services. Many of 
you are probably familiar with The Salvation Army canteen--our mobile 
kitchen on wheels--that can provide food and hydration. Within our 
southeast region, we have nearly 300 of these units, each able to 
produce approximately 1,500 meals per day. Twenty of these feeding 
units are positioned in North Carolina and 10 in South Carolina.
    In addition to food service, The Salvation Army offers practical 
aid to disaster survivors, helping individuals and families meet 
emergency needs in the immediate aftermath of a disaster. We also 
collect and distribute donated goods, such as food boxes, cleaning 
supplies, and household items, by leveraging our network of facilities. 
And perhaps, most importantly, we minister to people affected by the 
disaster by offering emotional and spiritual care to rescue workers and 
survivors.
    The Salvation Army is present in a community long before a disaster 
occurs, and we will continue to serve that community even after the 
disaster event is a distant memory. We participate in long-term 
disaster recovery operations, working closely with Government agencies 
and the Voluntary Organizations Active in Disaster network. A VOAD is 
an association of voluntary organizations committed to cooperation, 
communication, coordination, and collaboration before, during, and 
after disasters. For a catastrophic event, like Hurricane Hugo or 
Katrina, our disaster recovery efforts may continue for several years.
    We rely on volunteers and the generosity of the public to support 
our service delivery. All Salvation Army disaster services are offered 
without charge and supported entirely by donations. This gives The 
Salvation Army a good deal of flexibility in how we are able to help 
and, because the public is tremendously supportive, it allows us to 
independently fund our operations.
    Finally, and perhaps most importantly, we recognize that we are a 
very small part of a much larger emergency response network, and we are 
grateful for the support we receive from our local, State, and Federal 
partners. Without the strong support local, State, and Federal 
emergency management agencies provide, The Salvation Army would find it 
very difficult to offer all the services I have just described on a 
disaster.
        relationships with the states of north & south carolina
    The Salvation Army works together with the States of North Carolina 
and South Carolina and their respective emergency management agencies:
    1. We maintain regular communications to ensure that The Salvation 
        Army is appropriately involved in disaster planning, 
        mitigation, preparedness, and response activities. The 
        Salvation Army is invited to participate in interagency 
        training and exercise programs and supports the States' 
        disaster conferences, committees, task forces, and other 
        emergency preparedness events.
    2. We are included in the States' emergency operations plans as a 
        provider of Mass Care--what some of you may know as the 
        Emergency Support Function 6.
    3. We are included in Federal, State, and regional emergency 
        activation protocols and notified when a disaster or other 
        emergency event has occurred.
    4. The Salvation Army has designated liaison officers that reports 
        to the State emergency operations center upon activation to 
        help coordinate and exchange information among the 
        organizations involved in the disaster response. Specifically, 
        The Salvation Army keeps the two States' emergency management 
        agencies informed of its disaster response activities, and its 
        working relationships with local governments, other local 
        voluntary agencies, and community-based organizations involved 
        in the response. This includes engaging with Voluntary 
        Organizations Active in Disaster (VOAD), which includes our 
        colleague agencies, such as the American Red Cross, Southern 
        Baptist Disaster Relief, and other charitable disaster 
        responders.
    5. The South Carolina Emergency Division, North Carolina Division 
        of Emergency Management, and The Salvation Army work 
        cooperatively in the dissemination of materials to educate the 
        public on how to avoid, mitigate, prepare for, and cope with 
        disasters. During disaster operations, the public information 
        officers from State emergency management and The Salvation Army 
        maintain close coordination to share disaster-related media 
        releases produced by the two organizations.
    6. The process and relationships described above are very similar 
        to the relationships The Salvation Army has with other State 
        emergency management agencies and with the Federal Emergency 
        Management Agency (FEMA).
    This level of collaboration is essential, and we believe that an 
effective disaster response team extends across the entire community 
spectrum--not just to agencies like FEMA and The Salvation Army, but 
also to private industry, local faith-based and civic groups, and 
citizens.
                      the february 2014 ice storm
    The February 2014 Winter Storm that hit the State of South Carolina 
illustrates The Salvation Army's structure and organized approach to 
disaster response.
    On Monday, February 10, 2014 we alerted all Salvation Army 
locations in North and South Carolina about the impending storm. This 
communication activated our pre-established network of local Salvation 
Army commands to begin preparing for storm response and focused on 
three (3) key areas of concern:
    1. Local Salvation Army units were to closely monitor the weather 
        in their local area, especially in South Carolina since that 
        was the area of concern for greatest impact.
    2. Local Salvation Army units were to coordinate with their county 
        emergency management officials regarding protective actions, 
        including areas that could require assistance or where a 
        shelter could be established.
    3. Local Salvation Army units were to anticipate that winter storm 
        conditions likely would inhibit travel so any service delivery 
        should be localized initially and independent of additional 
        support. Therefore, partnering with other local organizations 
        and agencies to ensure meeting local needs was the initial 
        priority.
    Two days before the storm's anticipated arrival, Salvation Army 
senior leadership from divisional headquarters personally contacted 
every officer in these local commands across the Carolinas. This served 
three functions--establishing communication to reassure our local 
personnel, assess impacts or concerns regarding Salvation Army 
infrastructure, and report any service delivery taking place or 
anticipated.
    A Salvation Army liaison established communication with the South 
Carolina Emergency Management Division and Emergency Support Function 
6: Mass Care. This communication and coordination was maintained with 
the State Emergency Operations Center and the liaison deployed there on 
February 14. Salvation Army personnel participated in the coordination 
of mass care support to the impacted counties, communicating with the 
primary State agency for mass care, the South Carolina Department of 
Social Services, as well as other ESF 6 partner agencies and 
organizations, including the American Red Cross and South Carolina 
Baptist Disaster Relief.
    The Salvation Army conducted and participated in conference calls 
with South Carolina Voluntary Organizations Active in Disaster 
(SCVOAD). These calls commenced the day after the storm and continued 
for 9 days--all of us focused on ``the 4 Cs'' of cooperation, 
communication, coordination, and collaboration. This focus helped 
organizations better anticipate local needs and assign resources as 
available.
    Local responses took place in 19 communities--10 in North Carolina 
and 9 in South Carolina. The Salvation Army provided service and 
support from the Aiken, Anderson, Charleston, Florence, Georgetown, 
Greenville, Orangeburg, Rock Hill, and Sumter commands. Services 
included mass feeding, distribution of personal comfort kits, food 
boxes (in partnership with Harvest Hope Food Bank) as well as providing 
emotional and spiritual comfort.
    Overall, in North Carolina, the Army provided 7,000 prepared meals, 
18,000 drinks and snacks. In South Carolina, service delivery included 
5,700 prepared meals, 8,500 drinks and 6,600 snacks. Our response 
involved 130 personnel, who provided 16,000 hours of service.
                               conclusion
    It is true that disaster relief is just one of the many services 
that The Salvation Army offers and that day-to-day, our other social 
services demand a tremendous amount of our time and resources. But when 
a major disaster strikes, The Salvation Army will be there and ready to 
offer fast, efficient, and practical aid to any and all that need 
assistance.

    Mr. Duncan. Mr. Louden, thank you.
    Let me just pause to say I hope everyone that heard the 
mission of the Salvation Army will think a little bit 
differently this Christmas when they hear the bells ringing.
    Mr. Louden. Thank you, Mr. Chairman.
    Mr. Duncan. Thank you, sir.
    Dr. Hallstrom.

   STATEMENT OF JASON O. HALLSTROM, PH.D., DEPUTY DIRECTOR, 
     INSTITUTE OF COMPUTATIONAL ECOLOGY, CLEMSON UNIVERSITY

    Mr. Hallstrom. Good afternoon, Chairman Duncan, 
Representative Meadows, colleagues. Thank you for the 
opportunity to provide testimony today.
    As we witness apparent increases in the frequency and 
severity of Atlantic superstorms, emergency preparedness could 
not be more paramount.
    My name is Jason Hallstrom, and I am a computer scientist 
in the School of Computing here at Clemson. I have the 
privilege of serving as deputy director and director of 
technology for the Institute of Computational Ecology--indeed, 
a mouthful, which I will try to talk to.
    In assessing our preparedness for the next superstorm to 
make landfall on the coast, there are two important planning 
dimensions to consider.
    The first is our capacity to plan proactively before the 
storm makes landfall on our coast. This involves our ability to 
predict, to track, and to gauge the severity of the storm in a 
timely fashion with high fidelity well in advance of its 
impact.
    The second dimension to consider is our capacity to plan 
reactively after the storm makes landfall. This involves our 
ability to dynamically monitor infrastructure and natural 
resource impacts as they occur.
    Both are critically important, and I am pleased to be able 
to offer an optimistic outlook on both of these fronts.
    As we have heard a bit earlier today, since 1989, NOAA and 
the National Weather Service have made significant improvements 
to their data collection, modeling, and forecasting 
infrastructure. The Nation's radar network has been 
significantly enhanced to provide new measures that enable 
improved hurricane modeling, and the GOES satellite network has 
doubled in size with attendant improvements in resolution and 
accuracy.
    Data enhancements and improved forecasting models have 
helped reduce the National Hurricane Center's 24-hour track 
error by approximately 40 percent, providing significant 
benefits to evacuation planning activities, which are estimated 
at approximately $1 million per mile of evacuated coastline.
    While hurricane patterns are always going to be a 
stochastic phenomenon, the important take-away from this 
component of my testimony is that proactive monitoring 
capabilities were not a significant operational bottleneck in 
1989, and they are unlikely to be operational bottlenecks in 
the future.
    My optimism on the reactive front stems from the tremendous 
opportunities that I see for improving our capacity to 
dynamically adapt and respond to hurricanes and other emergency 
events as they occur. There has been a sea change in real-time 
in situ monitoring technologies. Ironically, the catalyst for 
this paradigm shift arrived in a tiny package, a computing 
device that we now refer to as a mote.
    The unusual name reflects a tiny form factor that ranges in 
size from that of a Rubik's Cube to a matchbox to a quarter. 
Each device is capable of sensing, processing, and 
communicating information from its surrounding environment, 
enabling new applications in sniper-fire localization, wildfire 
monitoring, structural assessment of buildings and roadways, 
and classification of intruders near critical infrastructure.
    Looking to the future, these devices will be even smaller 
and more robust, making it possible to seamlessly integrate in 
situ monitoring capabilities within our buildings, our roads, 
and our utility infrastructure.
    In the event of a natural or man-made disaster, the 
resulting sensing fabric could be used to provide near-
instantaneous feedback on the type, degree, and location of 
damage. Emergency management decisions would be optimized to 
rapidly commit personnel and resources to where they are needed 
most.
    But this is still a vision. The hardware, software, and 
networking foundations that are necessary to deploy and manage 
a State-wide sensing infrastructure suitable for emergency 
response are still evolving. I believe that Clemson can play an 
important role in this evolution based on our work with the 
Intelligent River program.
    The Intelligent River program brings together faculty and 
students across disciplines to develop the next generation of 
sensing infrastructure. The design represents a fully 
integrated sensing solution that enables end-users to collect, 
to share, and to utilize a broad spectrum of in situ data at 
dense temporal and spatial scales.
    The result is a system that enables fine-grained, long-
lived, low-cost in situ monitoring at local, regional, and 
landscape scales and supports meaningful analyses of the data 
that the system can collect.
    Our team is actively managing Intelligent River deployment 
throughout the State, including an on-going deployment along 
the 312-mile reach of the Savannah River Basin, from the 
headwaters in North Carolina down to the estuary.
    While our monitoring emphasis has been on water quality, 
the infrastructure design is sensor-neutral. So while the type 
of data being collected in the Savannah Basin could help to 
assess the type of drinking water impacts observed during 
Hurricane Irene and others, virtually any type of sensor can be 
deployed within this infrastructure across a wide range of 
challenging environments.
    I believe that the Intelligent River represents an 
important foundation for growth as we consider how to improve 
our State's ability to efficiently respond to hurricane events 
and other natural and man-made emergencies.
    I would like to thank the subcommittee once again for the 
opportunity to provide testimony on this important topic, and I 
am happy to answer any questions that you may have. Thanks very 
much.
    [The prepared statement of Mr. Hallstrom follows:]
                Prepared Statement of Jason O. Hallstrom
    Chairman Duncan, Ranking Member Barber, and Members of the 
subcommittee, welcome to Clemson University. I know that for many of 
you, this is a welcome back. We're honored to have you on campus today.
    My name is Jason Hallstrom and I am a computer scientist in the 
School of Computing here at Clemson, and I have the privilege of 
serving as the deputy director and director of technology for Clemson's 
Institute of Computational Ecology.
    As the subcommittee is well aware, 2014 represents a bitter 
anniversary, marking 25 years since Hugo's landfall on the South 
Carolina coast. With wind speeds in excess of 130 mph, the storm 
resulted in 49 deaths and approximately $9 billion in damage. This 
wasn't the first Category 4 storm to hit our coast, but its ferocity 
fundamentally reshaped our perceptions of the tremendous impacts such 
storms can impose. In the quarter-century hence, South Carolina has 
been fortunate to avoid the brunt of subsequent superstorms--quite 
narrowly, it is worth noting, in the cases of Irene and Sandy, both of 
which dwarfed the aggregate economic impact of Hurricane Hugo. As we 
witness apparent increases in the frequency and severity of Atlantic 
storm systems, emergency preparedness could not be more paramount. 
Thank you for considering this important topic and for the opportunity 
to provide testimony to the subcommittee today.
    While the timing is uncertain, the potential for another superstorm 
to make landfall on our coast is not. That is simply an unfortunate 
inevitability that we must face. In assessing our preparedness for such 
an event, there are two important planning dimensions to consider. The 
first is our capacity to plan proactively, before the storm makes 
landfall. This involves our ability to predict, to track, and to gauge 
the severity of the storm in a timely fashion, with high fidelity, well 
in advance of its impact. This capacity sets an upper bound on our 
ability to mobilize citizens out of harm's way, to establish 
appropriately-scaled response teams, and to establish infrastructure 
contingencies. The second dimension to consider is our capacity to plan 
reactively, after the storm makes landfall. This involves our ability 
to dynamically monitor infrastructure and natural resource impacts as 
they occur, setting an upper bound on our ability to direct response 
efforts to where they are needed most, and to reduce the duration and 
severity of infrastructure and resource disruptions. Today, I'm pleased 
to offer optimistic outlooks on both of these fronts.
    Since 1989, NOAA and the National Weather Service have made 
significant improvements to their data collection, modeling, and 
forecasting infrastructure. The Nation's radar network has been 
enhanced to provide not only improved resolution and sensitivity, but 
also the ability to acquire wind speed and direction data, both of 
which are instrumental in hurricane modeling. The GOES satellite 
network has doubled in size, with attendant advancements in satellite 
stabilization, storm localization, detector optics, and available 
energy, enabling continuous high-resolution imaging. More frequent 
reconnaissance flights and higher-density in-flight data collection 
complement these continuous streams. Together, these datasets and 
improved forecasting models have helped to reduce the National 
Hurricane Center's 24-hour track error by approximately 40%, providing 
significant benefits to evacuation planning activities, estimated at $1 
million per mile of evacuated coastline. While hurricane patterns will 
always be stochastic phenomenon, the important takeaway is that 
proactive monitoring capabilities were not a significant operational 
bottleneck in 1989, and they are unlikely to be operational bottlenecks 
in the future.
    I promised an optimistic outlook on both planning fronts, and that 
remains true. But my optimism on the reactive front stems from the 
tremendous opportunities that I see for improving our State and 
Nation's capacity to dynamically adapt and respond to hurricanes and 
other emergency events as they occur. The improvements that we've 
witnessed in our portfolio of proactive monitoring technologies are 
unquestionably impressive, but reactive monitoring technologies have 
witnessed a sea-change. Ironically, the catalyst for this paradigm 
shift arrived in a small package--a family of computing devices that we 
now refer to as motes.
    This unusual name reflects a tiny form-factor, ranging from the 
size of a Rubik's Cube, to the size of a matchbox or a quarter. Each 
device is capable of sensing, processing, and communicating information 
from its hosting environment. Mote networks enable applications in 
locating sniper fire, monitoring wildfire conditions, assessing the 
structural integrity of buildings and roadways, and classifying 
intruders near critical infrastructure. Looking to the future, these 
devices are likely to be even smaller and more robust, making it 
possible to seamlessly integrate in situ monitoring capabilities within 
our buildings, our roads, and our utility infrastructure. In the event 
of a natural or man-made disaster, the resulting sensing fabric could 
be used to provide near-instantaneous feedback on the type, degree, and 
location of damage. Emergency management decisions would be optimized 
to rapidly commit resources and personnel to where they were needed 
most.
    But this is still a vision. The hardware, software, and networking 
foundations necessary to deploy and manage State-wide sensing 
infrastructure suitable for emergency response are still evolving. I 
believe that Clemson can play an important role in this evolution based 
on our work with the Intelligent River program.
    The Intelligent River brings together faculty and students from 
across campus to develop a new sensing infrastructure.\1\ While the 
infrastructure design relies on mote networks, it is a fully-integrated 
solution that enables end-users to collect, share, and utilize a broad 
spectrum of in situ data at dense temporal and spatial scales. The 
result is a system that enables fine-grained, long-lived, low-cost in 
situ monitoring at local, regional, and landscape scales and supports 
meaningful analyses of the resulting data. Our team is managing 
Intelligent River deployments throughout the State, including an on-
going deployment along the 312-mile reach of the Savannah River, from 
the headwaters in North Carolina to the port in Savannah.
---------------------------------------------------------------------------
    \1\ This work is supported through competitive awards from the 
National Science Foundation (CNS-1126344, CNS-0745846).
---------------------------------------------------------------------------
    In these deployments, our monitoring emphasis is on water quality, 
but the design of our toolset is sensor-neutral. So while the type of 
data being collected in the Savannah Basin could help to assess the 
types of drinking water impacts observed during Hurricane Irene, 
virtually any type of sensor can be deployed within this 
infrastructure, across a wide range of challenging environments. I 
believe that the Intelligent River represents an important foundation 
for growth as we consider how to improve our State's ability to 
efficiently respond to hurricane events and other natural and man-made 
emergencies.
    I would like to thank the subcommittee once again for considering 
this important topic and for the opportunity to provide testimony 
today. I am happy to answer any questions you may have.

    Mr. Duncan. Thank you. I will say, Dr. Hallstrom, the 
Intelligent River system has been instrumental in helping the 
Savannah River system with downstream flows, water quality, 
lake water retention, and all the things that the Corps is 
looking at in the environmental impact study. So thanks for 
your work on Intelligent Rivers.
    Mr. Hallstrom. Thank you, Mr. Chairman.
    Mr. Duncan. Professor Bentley.

STATEMENT OF EMILY BENTLEY, J.D., ASSOCIATE PROFESSOR, HOMELAND 
   SECURITY AND EMERGENCY MANAGEMENT PROGRAM, SAVANNAH STATE 
                           UNIVERSITY

    Ms. Bentley. Thank you. Mr. Chairman, Congressman Meadows, 
esteemed panel members, and residents, my name is Emily 
Bentley. I am an associate professor of homeland security and 
emergency management at Savannah State University, so down the 
road from where we are today and our neighbor institution here.
    I see my role in that academic program as preparing a new 
generation of leaders to deal with whatever the 21st Century 
will bring, whether it is human-caused disasters or natural 
disasters.
    The topic of this hearing is the type of question that 
should be asked in communities across our Nation, not just in 
South Carolina or along the Atlantic coast, so I applaud the 
subcommittee's initiative and insight in convening this panel.
    In determining and establishing preparedness, there is no 
one-size-fits-all answer. There is no silver bullet. Working 
toward disaster resilience involves policy and politics, 
science, and human behavior, with a focus on creating a culture 
of preparedness across communities, sectors, and levels of 
government.
    The question posed by the subject of this hearing is a 
complex one: Are we more prepared than in 1989? In some ways, 
as other panelists have suggested, yes. But there is increased 
vulnerability to coastal hazards, like tropical cyclones, as 
well as other hazards.
    There have been improvements, as we have noted. Response in 
Hurricane Hugo exposed challenges in communication and 
coordination across agencies, which is not uncommon in 
significant emergencies and disasters. Since then, particularly 
in the first decade of the 21st Century, largely in reaction to 
the September 11, 2001, terror attacks, the United States has 
promoted a common incident command system and invested millions 
of dollars in interoperable communication systems.
    We have seen States and localities throughout the Nation 
work toward and achieve compliance with an accreditation with 
National standards in emergency management. Several States in 
this region--South Carolina, North Carolina, Georgia, and 
Florida--are all Nationally accredited and have Nationally-
accredited emergency management programs. We don't see many 
local jurisdictions in the Carolinas with any National 
accreditation. That may be something to note.
    We have seen focus on and improvements in response and 
recovery planning throughout the Nation. In addition, as we 
have noted, we have at our disposal new and more immediate ways 
to communicate with the public and among responders. Many 
people have smartphones or at least cell phones and are 
connected to the internet 24/7. These technology developments 
can be valuable tools in notification and warning in a 
developing disaster.
    These policy and investment activities can be expected to 
support improved coordination and communication in response to 
a major hurricane today. The extent of these benefits will 
depend to a large degree on how they are embraced and 
implemented at the local grass-roots level.
    In emergency management and homeland security, we try to 
assess risk with some sort of methodology. We look at a 
combination of likelihood, vulnerability, and consequences. 
Several years ago, colleagues at Hazards and Vulnerability 
Research Institute at the University of South Carolina down the 
road used a loss estimation model called HAZUS-MH to estimate 
what a Hugo-type storm would do today in South Carolina.
    Looking at Charleston County, for example, you would see an 
estimated more than 69 percent of county buildings with damage, 
more than a third of residential structures with more than 50 
percent damage, and 0 percent of schools left functional, with 
a projected total of direct and indirect economic loss of $6.7 
billion.
    As has been noted, as we consider the status of 
preparedness compared to 1989, we have to consider the 
population growth in the southeastern United States in the 
intervening years. It has been a great time in the southeastern 
United States. It is a very attractive part of the country.
    This plays a role in vulnerability as well as potential 
consequences. For example, South Carolina's population 
increased 38 percent from 1989 to 2013, from 3.46 million 
people in 1989 to almost 4.8 million in 2013, according to the 
U.S. Census. Other States in the Southeast have experienced 
comparable population growth.
    In many ways, our society tends to increase our 
vulnerability rather than decrease it, from population growth, 
to our use of the internet, to some of our development 
tendencies. According to NOAA and the U.S. Census, in 1990, the 
population in the coastal floodplain in South Carolina was 
about 275,000 people. In 2010, the population living in the 
coastal floodplain was more than 400,000, a 47 percent increase 
in population.
    The percentage of this population younger than 5 or older 
than 65 increased from less than 19 percent in 1990 to 23.6 
percent in 2010. This population growth impacts vulnerability 
in a number of ways, from increasing the number of people 
potentially in harm's way in a hurricane, to increasing the 
number of people who will need to be on the road or using some 
form of transportation, and who may need to stay in temporary 
shelters inland in an evacuation scenario.
    The increase in the percentage of young and elderly may 
increase the numbers of people who need additional assistance 
or who are dependent on others in an evacuation or shelter.
    So while there have been improvements, there are many 
preparedness and response issues that continue to present 
challenges: The diversity of hazards and gathering current and 
credible information to understand risk; reaching all segments 
of the population on an on-going basis with risk awareness and 
protective measure messaging; getting the public and decision-
makers' attention when something is not going on, absent, of 
course, the attention of this committee; planning and 
implementing evacuation procedures, decision-making, and 
transportation modes and routes, traffic management and 
adequate shelter operations; and coordinating across agencies, 
sectors, and levels of government, particularly in a situation 
where normal operations are interrupted, so a continuity of 
operations-type scenario; and then, of course, resources for 
accomplishing all of these things.
    On the subject of the population and their vulnerability, 
research at my institution, Savannah State University, and at 
others, including leading work by Susan Cutter at the 
University of South Carolina, has focused on social 
vulnerability in disasters. This research recognizes the fact 
that as important as what the hazard does, whether it be 
earthquake, hurricane, flood, or explosion, are the 
characteristics and the resilience of the population, the 
people where the hazard happens.
    Social vulnerability factors include demographics like 
income, age, disability, educational level, literacy and 
language, race and ethnicity. These things can tend to make 
individuals, households, and communities more vulnerable to the 
impacts of disasters.
    In Chatham County, Georgia, my university did some research 
that specifically focused on socially-vulnerable populations. 
We found that while 70 percent of the respondents thought it 
was important to evacuate when officials called for an 
evacuation, only 25 percent say they were very prepared or 
prepared to do so.
    Of those who said they would not evacuate if asked, the 
biggest reason reported among survey respondents was lack of 
transportation to leave, 26.4 percent. But almost 18 percent of 
those who said they would not evacuate said the storm and 
aftermath probably would not be as bad as officials predict.
    Mr. Duncan. If you can start getting to a wrap-up?
    Ms. Bentley. Oh, I am sorry.
    This research and research in other locations with similar 
findings illustrate the need to focus not only on the hazards 
but also the populations in the area with significant storm 
risk. This type of localized analysis of social vulnerability 
to disaster impacts is needed for all our communities, 
particularly those at risk from potentially catastrophic 
disasters.
    Are we more prepared today than in 1989? Perhaps. Are we 
more vulnerable? Yes.
    As this committee continues its work, I encourage you to 
take a leadership role in making sure that there are resources 
and support for local and State efforts to assess risk, engage 
the public in risk awareness and readiness to take protective 
action, and build capabilities across jurisdictions and 
agencies. These are key to improving the resilience and 
preparedness of communities for a 21st Century Hugo or whatever 
hazards our communities may face.
    Thank you again for your time.
    [The prepared statement of Ms. Bentley follows:]
                  Prepared Statement of Emily Bentley
                           November 21, 2014
    Mr. Chairman, committee Members, panel members, and residents, the 
topic of this hearing is the type of question that should be asked in 
communities across our Nation--not just in South Carolina or along the 
Atlantic coast, so I applaud the subcommittee's initiative and insight 
in convening this panel.
    In determining and establishing preparedness, there is no ``silver 
bullet''--no one-size-fits-all answer. Working toward disaster 
resilience involves policy, politics, science, and human behavior, with 
a focus on creating a culture of preparedness across communities, 
sectors, and levels of Government. The question posed by the subject of 
this hearing is a complex one. Are we more prepared than in 1989? In 
some ways, yes. But is there increased vulnerability to coastal hazards 
like tropical cyclones (tropical storms and hurricanes) as well as 
other hazards? Yes. Hence the importance of this discussion . . . 
    In emergency management and homeland security, professionals assess 
risk as a combination of likelihood of occurrence or threat, 
vulnerability, and consequence. Vulnerability refers to the 
susceptibility to incur harm or loss, including humans' physical 
frailty or the exposure of property and infrastructure to damage. 
Proximity to the hazard is a key aspect of vulnerability, but there are 
other factors to consider. We often use computer models that help us 
quantify and visualize one or more of the three components of risk. 
Several years ago, colleagues at the Hazards and Vulnerability Research 
Institute at the University of South Carolina used a loss estimation 
model (HAZUS-MH, available from the Federal Emergency Management Agency 
(FEMA)) to estimate what a Hugo-type storm would do in South Carolina 
today. Selecting two counties as samples from those loss estimation 
results, Georgetown County could see 17 percent of county buildings 
damaged, 83 percent of schools unusable, and total economic impact 
(direct and indirect) of almost $85 billion. Charleston County would be 
estimated to see more than 69 percent of county buildings damaged, more 
than a third of residential structures with more than 50 percent 
damage, and zero percent of schools left functional, with a projected 
total (direct and indirect) economic loss of $6.7 billion. (Hazards and 
Vulnerability Research Institute 2014)
    We seek to learn from each disaster. As college students at 
Savannah State University and other institutions study emergency 
management and homeland security, they identify lessons from past 
events like Hurricanes Andrew, Hugo, Floyd, Katrina, and Sandy. They 
examine earthquakes and tsunamis, hazmat releases, and the attacks at 
the Murrah Federal Building and on 9/11. Our governments as well as 
emergency management agencies make adjustments, sometimes with 
beneficial consequences as well as unintended consequences that may not 
be completely positive. Response in Hurricane Hugo exposed challenges 
in communication and coordination across agencies (not uncommon for 
significant emergencies and disasters). Since then, particularly in the 
first decade of the 21st Century, largely in reaction to the Sept. 11, 
2001, terror attacks, the United States has developed a common Incident 
Command System (ICS) and invested millions of dollars in interoperable 
communications systems. These policy and investment activities can be 
expected to support improved coordination and communication in response 
to a major hurricane today. The extent of the benefits of these 
improvements will depend to a large degree on how they are embraced and 
implemented at the local, grass-roots level.
    After disasters, institutions and organizations try to identify and 
address weaknesses, or areas for improvement. But researchers also know 
that as time progresses from disaster events, the less we think about 
them and perhaps the less need we perceive to prepare for them or 
mitigate their effects. People tend to forget easily, and they often 
have the mindset that ``it won't happen, and if it does, it won't 
happen to me.'' The challenge is that disasters do and will continue to 
occur. It is up to residents and their leadership and Government how 
prepared communities are to deal with them. Key to creating and 
maintaining a culture of preparedness is a realistic and current 
understanding of risk.
                             more at risk?
    As we consider the status of preparedness compared to 1989, 
consider the population growth of the Southeastern United States in the 
intervening years. This plays a role in vulnerability as well as 
potential consequences. For example, South Carolina's population 
increased 38 percent from 1989 to 2013, from 3.46 million people in 
1989 to almost 4.8 million in 2013, according to U.S. Census estimates. 
Other States in the Southeast experienced comparable and in several 
cases higher population growth.
    In many ways, society moves to increase disaster vulnerability and 
consequences rather than decrease them. Consider the preference for 
living along the coast. In 1990, the population in the coastal 
floodplain in South Carolina, an area of about 2,900 miles, was about 
275,000 people; in 2010, the population living in the coastal 
floodplain was more than 400,000, a 47 percent increase in population 
(NOAA 2011). The percentage of this population younger than 5 years of 
age or older than 65 increased from less than 19 percent in 1990 to 
23.6 percent in 2010 (see discussion below of social vulnerability 
factors). This population growth impacts vulnerability in a number of 
ways, from increasing the number of people potential in harm's way in a 
hurricane to increasing the number of people who will need to be on the 
road, or using some form of transportation, and who may need to stay in 
temporary shelters inland in an evacuation scenario. The increase in 
the percentage of young and elderly may increase the numbers of people 
who need additional assistance or are dependent on others in evacuation 
and shelter operations.
    The committee also should consider the potential increases in both 
likelihood and vulnerability of other hazards because of other 
developments in the region, such as expansion of nuclear plant 
operations in Georgia and South Carolina and projected sea-level rise 
associated with climate change. Sea-level rise is expected to cause 
negative impacts not only for human safety but also for property value 
and stability and the integrity of critical infrastructure like 
transportation (roads, bridges, mass transit systems), water and 
wastewater treatment facilities, and energy transmission and 
distribution. While not a significant issue for this immediate area, 
urbanization also adds to the need to focus on risk awareness, 
mitigation, and preparedness, with the concentration of people and 
infrastructure concentrating vulnerability to natural as well as human-
caused hazards. Damage caused to the New York subway system as a result 
of 2012's Superstorm Sandy is an easy-to-visualize example. 
Vulnerability comes in varied forms. In his book, The Next Catastrophe, 
Charles Perrow laid out a concise explanation of the vulnerability of 
the U.S. electricity grid, damage to or disruption of which could have 
significant impacts on critical infrastructure, the economy, and social 
stability. (Perrow 2007) In addition to hurricanes and tropical storms, 
South Carolina and nearby States face a range of other hazards, from 
cyber attack to hazardous material or nuclear release, to earthquake, 
flooding, tornadoes, and infectious disease outbreaks.
    These examples illustrate that we need to examine risk frankly and 
on an on-going basis. While guidance on this front is helpful from the 
Federal level, risk assessment, mitigation, and disaster preparedness 
are fundamentally local, and to a degree regional and State activities. 
To improve disaster outcomes, the United States must build risk 
awareness, resilience, and preparedness capabilities at the local, 
regional, and State levels.
                          social vulnerability
    Research at my institution as well as others, including leading 
work by Susan Cutter, Ph.D., at the University of South Carolina, has 
focused on social vulnerability factors in disasters. This research 
recognizes the fact that as important as what a hazard--hurricane, 
earthquake, flooding, or explosion--does are the characteristics and 
resilience of the population, the people, where the hazard occurs. 
Social vulnerability factors include demographics like income; age; 
disability; educational level, literacy, and language; and race and 
ethnicity that can tend to make individuals, households, and 
communities more vulnerable to the impacts of disasters. (Cutter, 
Boruff, and Shirley 2003) In South Carolina's coastal floodplain, 
almost 13 percent of the population is below the poverty level based on 
2010 U.S. Census figures. (NOAA 2011) Research by SSU,\1\ in Chatham 
County, Georgia, that focused specifically on residents representing 
socially vulnerable populations (data was collected in areas with high 
percentages of low-income, minority, and elderly population), showed 
that while more than 70 percent of respondents thought it was important 
to evacuate when officials called for an evacuation, only 25 percent 
said they were very prepared or prepared to do so. (Rukmana, Bentley, 
and Clay 2011). Of those who said they would not evacuate if asked to, 
the biggest reason reported among survey respondents was lack of 
transportation to leave (26.4 percent). Almost 18 percent of those who 
said they would not evacuate said the storm and aftermath probably 
would not be as bad as officials predict. This research, and research 
in other locations with similar findings, illustrate the need to focus 
not only on the hazards but also the populations in areas with 
significant storm risk. For example, do local officials along the coast 
have a good understanding of the percentages and prime locations of 
residents without access to transportation?
---------------------------------------------------------------------------
    \1\ Supported by a grant from the U.S. Department of Homeland 
Security Science and Technology Directorate Minority Serving 
Institutions program, 2008-2010.
---------------------------------------------------------------------------
                              preparedness
    Preparedness includes planning, training, and exercise all based on 
a comprehensive understanding of the risk associated with identified 
hazards in a particular location. Preparedness also includes 
communicating clearly with the public about potential hazards, 
including risk associated with each hazard and measures they can take 
to protect and prepare their family, households, businesses, and 
communities. Preparedness is not about fear but about empowerment. It 
can, however, be a challenge to get and hold residents' and decision 
makers' attention on a ``blue sky'' day. When an emergency or disaster 
occurs, people tend to pay more attention to warnings and advice about 
protective measures. However, Dennis Mileti's review of research shows 
that people respond much better to protective action messages if they 
are familiar with the decisions and actions they may have to take and 
have time to consider the information, process it with family and 
friends--``milling,'' and decide their course of action. Compliance 
with protective actions benefits from giving people clear, concise, 
actionable information on an on-going basis so they will know what to 
do when an emergency or disaster occurs. (Mileti 2012) I raise this 
issue because this disaster public education activities requires on-
going work and focus by local and State government agencies charged 
with emergency management and homeland security with the assistance of 
private-sector and non-Governmental organization partners. It requires 
investment in local preparedness capabilities and activities that must 
be supported by every level of government. While some media may be free 
or low-cost, preparedness work with the public requires personnel time, 
a thoughtful approach, and communication through multiple, diverse 
means to reach all constituencies. The committee should evaluate 
whether enough emphasis is placed on empowering residents with 
information and resources so that the individual responsibility 
component of FEMA's ``whole community'' approach is a realistic goal.
    Recent years have seen significant focus on emergency operations/
response planning in many counties and cities in the United States, 
particularly in vulnerable areas along the Southeastern Coast. County 
governments where there is significant risk and/or significant 
population are expected to, and generally do, maintain an emergency 
operations plan (EOP) or comprehensive emergency management plan (CEMP) 
and local hazard mitigation plans as well as other plans and 
procedures. In most cases along the coast, response plans and 
procedures include an evacuation annex or appendix to guide decision 
making and conduct of an emergency evacuation of large segments of the 
population away from the coast. As was evident as Hurricane Katrina 
came ashore near New Orleans in 2005, it is vital that local 
governments have personnel and systems prepared to implement evacuation 
plans. In Louisiana, research supporting an exercise in the summer of 
2004 estimated that approximately 100,000 residents of greater New 
Orleans would not be able to evacuate or would choose not to evacuate 
in the face of a hurricane. The State and city had not, however, by 
August 2005 implemented actions to reduce this number by engineering 
large-scale transportation options and public education/messaging to 
support it. The estimate proved tragically accurate and resulted in 
tens of thousands of people in desperate circumstances and in increased 
hazards to human health and safety. South Carolina and its neighboring 
States must learn from this, even though their elevation, risks, and 
populations are different. As the State and this committee consider 
preparedness, take into consideration whether government at each level 
has committed the resources needed to build capabilities to carry out 
plans and protective measures. This includes involving the community in 
the planning process so that plans, procedures, and capabilities fit 
the end-user. Engaging the community on an on-going basis is key to the 
``whole community'' approach to preparedness and empowers residents and 
households with the information, understanding, and tools to take 
individual responsibility.
    In the Southeast and Atlantic coast of the United States, several 
States, including Florida, District of Columbia, Georgia, Louisiana, 
Mississippi, New Jersey, North Carolina, Pennsylvania, South Carolina, 
Tennessee, and Virginia have sought and achieved National accreditation 
through the Emergency Management Accreditation Program (EMAP). EMAP is 
designed to show that the jurisdiction has in place the elements of a 
viable emergency management program. (EMAP 2013) The development and 
application of voluntary National standards suggests an increased focus 
on building a consistent level of State and local capabilities for 
emergency management, including preparedness (sections of the standards 
address risk assessment, planning, training, exercise, and 
communication with the public, for example). This is a positive step. 
However, few local jurisdictions (city and county governments) have 
sought and attained EMAP accreditation. Most of the local governments 
that have achieved EMAP accreditation are in Florida (see 
www.emaponline.org for details; accessed November 16, 2014). This point 
as well as other indicators suggest the need for emphasis on local 
preparedness capabilities, both in South Carolina and in communities 
throughout the United States. I cannot address whether each coastal 
county in the Southeastern Atlantic has implemented mitigation measures 
to reduce damage or is prepared for a Category 4 hurricane or, in 
particular, whether their residents are ready and able to get out of 
harm's way. Other panelists may be able to address these questions for 
the jurisdictions within their responsibility. The point is that we 
need to make sure these questions are asked and addressed in each 
locale so that opportunities to improve preparedness can be addressed 
before the next storm--or whatever hazard--occurs.
    In addition to the need for mitigation, response, and continuity 
plans and other preparedness activities, National standards as well as 
recent-vintage Federal guidance call for communities to create and 
maintain pre-disaster recovery plans to identify the structure, 
stakeholders, and key priorities it will use as it works to recover 
from a significant emergency or disaster. These plans should be in 
place before a disaster occurs. Beaufort County, South Carolina, has 
maintained such a plan for several years, for example, and Chatham 
County, Georgia, is currently updating its recovery plan to align with 
heightened expectations for recovery planning. States with hurricane 
risk should work with local governments to facilitate pre-disaster 
recovery planning that includes representatives of diverse community 
interests and stakeholder groups.
    As emergency managers are fond of saying, like politics, all 
disasters are local. Local policies and people will deal with the 
emergency or disaster before and long after other levels of government 
and organizations. This concept should be central to development of 
policy and budgets that support preparedness for hurricanes and hazmat 
releases, mitigation measures like land use restrictions and building 
codes, and protection activities for critical infrastructure.
    As this subcommittee and Congress continues its work, key measures 
to improve preparedness for large-scale and catastrophic disasters for 
your consideration include:
  <bullet> Leadership and support, working with local and State 
        emergency management and homeland security staff, in building a 
        culture of preparedness among residents and business in your 
        districts and within your areas of influence.
  <bullet> Support for research to better understand and assess risk 
        from all hazards and to integrate that research in local 
        planning and policy development.
  <bullet> Continued and increased support for Emergency Management 
        Performance Grant (EMPG) funding, which provides a modest base 
        of funding for local and State preparedness activities in South 
        Carolina and throughout the Nation.
  <bullet> Support of Federal, State, and local initiatives focused on 
        engaging the diversity of our communities in risk awareness and 
        disaster preparedness.
    Are we more prepared today than in 1989? Perhaps. Are we more 
vulnerable? Yes. I encourage the committee to continue to evaluate 
whether the investment of time, attention, and resources at every level 
is adequate to protect your communities and constituents.
    Thank you again for your time and attention to these important 
issues.
          Attachment A.--Coastal Population Change, 1970-2000

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Duncan. Okay. Thank you.
    Well, there are a lot of different topics here, and I am 
just going to dive right in. There are some things that are 
interesting me right off the bat.
    Dr. Bottum, I talked earlier in my statement--Mr. Bottum. 
Doctor or mister? I think I introduced you as Dr. Bottum in 
Washington.
    The CNN article about the threat to our grid system, if you 
take that in conjunction with the fact that we saw an explosive 
device and an incendiary device placed at a substation in the 
Southwest, I think that is a real threat. Now, can they take 
down a whole grid system or parts of it and what the effect 
would be?
    Can you talk a little bit about the reality of that, of 
whether that is a real possibility, and how the Nation might 
react?
    Can you pull one of those mikes a little closer? It doesn't 
matter which one.
    Mr. Bottum. The threat is real. I think that report said at 
least one country. I think it said three countries could 
actually take down our power grid.
    I think what we see going on in the world today are 
countries actually hiring people to do this, to mine 
intellectual property from companies in this country, and 
position threats. It is a different kind of warfare than we are 
used to in the past. I think it is real, but I don't know how 
to measure it. I honestly don't.
    The thing that we do worry about is we hear company after 
company telling us they don't have trained people in this area. 
That is a real workforce issue. It would be interesting to look 
at intelligence reports on what other countries are investing 
in these cyber hacking experts.
    Mr. Duncan. Right. One thing Clemson is doing that the 
gentleman from North Carolina might not be aware of is the 
drivetrain facility and the system they have there that 
actually impacts the grid system and creates the kind of 
breakers that might be necessary to stop something like that, 
if it is EMP, some kind of surge or something along those 
lines.
    How is that being utilized? I know you are familiar with 
it.
    Mr. Bottum. Yes, they are doing research projects on that. 
Companies are actually engaging the folks in Charleston at the 
drivetrain facility to do these kinds of things. I am not 
personally familiar with any of the projects that are going on 
there. But you can essentially simulate the power grid, so that 
would be a very wise area for investment by the government 
through places like the NSF and other agencies into research 
into these areas for simulating attacks, and then figuring out 
how to deal with that in advance.
    Mr. Duncan. That is in Charleston, and a lot of power 
companies have invested in that.
    Dr. Lacy, a threat of an electromagnetic pulse, whether it 
is man-made through a nuclear device exploded in the 
atmosphere, or whether it is a solar flare, we just had one go 
by the planet and the sun wasn't facing the right direction to 
affect us dramatically. But we have seen that happen in the 
Northeast.
    So with the Iranian threat of them getting a nuclear 
weapon, and the real possibility--I will say that Congressman 
Meadows has as a constituent who wrote a fabulous book called 
``One Second After'' that shows the impact of an EMP on a small 
community of 5,000 people.
    I am part of the EMP caucus in Washington. I don't want to 
dwell on this issue, but an EMP, whether it is man-made or 
natural, can affect the grid system and our communication 
system, and a lot of other things we talked about here today. 
So how do we combat that? What are we doing?
    Dr. Lacy. In my remarks, I intentionally omitted speaking 
about improvised nuclear devices and EMP attacks. They are 
horrific and large-scale events that are very hard to guard 
against. There are three points I think I want to make about 
them.
    No. 1 is that although we tend to focus on the more 
frequent events--the active shooters, the explosive events, 
chemical events--there are many people in the country, the 
catastrophic preparedness working group, for example, is 
working on how to prepare for an improvised nuclear device or 
nuclear event in certain parts of this Nation.
    I would say, No. 1, that the question should be--you are 
probably very familiar with this--but the question should be 
referred to the intelligence community, because those folks 
seem to think that that likelihood still exists.
    In terms of EMP, it is very interesting. I was asked to 
give a talk at NORTHCOM, and the folks in DOD at NORTHCOM 
focused their remarks specifically on EMP and their concern for 
it. As a matter of fact, they took us to Cheyenne Mountain, 
which originally was developed there to withstand nuclear 
attack and EMP.
    I think these are very daunting questions, the ability to 
intercede and stop a cascading effect of EMP needs to be 
focused on, but I think not to the extent that we ignore the 
more upfront and hazardous threats, active shooters, explosive 
threats, which are very easy to do, biological threats, 
chemical threats, radiological threats.
    I will just mention the fact that every week, there are 
radiological sources, or every year numerous radiological 
sources in this country are either lost or stolen. Those 
radiological sources can be used to wrap around conventional 
explosives to cause radiological devices, RDDs, dirty bombs as 
they are called, which are weapons of mass disruption and fear, 
and cause other cascading effects of fear, cost, and disruption 
of society.
    So I guess to answer your question, we need to focus on 
these low-frequency, very high-consequence events. But I don't 
want to think that those are more important than the high-
frequency, lower-consequence events that can be done any day by 
anyone with an intent to do us harm.
    Mr. Duncan. Thank you for that.
    I am out of time. I am going to yield to the gentleman from 
North Carolina. I am going to recognize him for questions for 5 
minutes or so, and then we may have another round.
    Mr. Meadows. Well, I thank you each of you for your 
testimony. Let me go to really I guess the genesis of this, 
that we are here today to prepare.
    But Professor Bentley was just talking about how a lot of 
times when they get a notice, they don't evacuate. Some of that 
is for logistical reasons, as you were pointing out. But most 
of the time, it is for reasons that they believe they can 
weather the event or that the event won't affect them.
    I must confess, I am the same way. I will get an alert on 
my phone in Washington, DC, that says take cover, because there 
is a particular storm. Sometimes I think it has to say, ``This 
means you, stupid,'' because I will look at it, I will look 
outside, and say, it won't be so bad. I won't take cover.
    How do we do a better job of pinpointing the urgency, so to 
speak, of needing to either be prepared, whether it is cyber 
attacks, natural events, without creating the fear factor and 
having everyone run and stay hunkered down in a shelter?
    Dr. Lacy.
    Dr. Lacy. I think risk communication before, during, and 
after events is extremely important. It is important in a 
number of ways. One way is the more information you give, the 
more informed choices people can make. No. 2, it is a means of 
getting people to do the right thing.
    For example, if there is an outbreak of disease, there is a 
tendency of people to try to run away from that area and you 
can have secondary and tertiary episodes and outbreaks of 
disease elsewhere. So by giving the appropriate message, you 
can keep people in the area. The message may be, ``We have 
countermeasures for this, and the people in this area will be 
getting the countermeasures. Stay here.''
    So influencing behavior, allowing people to make rational 
and educated choices is extremely important.
    One of the big conferences that we held in the last year 
had to do specifically with this, with risk and crisis 
communication and how conflicting messages can cause 
essentially minor to major chaos in communities, and how 
important it is to give crisp, understandable, and actionable 
messages so people know what to do.
    If I may, for a moment, I can segue and explain how that 
conference came about, just for 1 minute, which is that we have 
the Rutgers Institute for Emergency Preparedness and Homeland 
Security. It is a multidisciplinary group of all the subject-
matter experts across the entire State of New Jersey, from 
humanities to sciences, everybody doing homeland security, 
preparedness, disaster response.
    These people are all under one big tent now, and they are 
able to look at issues all the way from risk communication to 
surge capacity to receptor biology. Everything is a one-stop 
resource for people who need this kind of consultation. We are 
happy to do it.
    We have now joined over the past number of years with 
Robert Wood Johnson University Hospital. That is the premier 
academic medical center in the State--it is a Level I trauma 
center--to bring in the academic, medical, and health aspects 
of it, too.
    I will give you one example. We did a mass casualty. We use 
RTLS, real-time locating system technology, to move mass 
casualties from a simulated multifocal explosive event at 
Rutgers Stadium through the hospital. When hundreds of 
casualties come through, we are able to effectively and 
efficiently bring them through using this technology.
    We have enough subject-matter experts that we are able to 
make efficient and effective mass casualty management and surge 
management.
    The only other point I want to make is that, because of the 
leadership of institutions, we are able to get buy-in from the 
highest levels. We had 2,000 volunteer victims and health care 
workers participate in these exercises just in our academic 
medical center alone. So we are able to address these kinds of 
questions there.
    Another one that we have addressed recently is the best 
practices for the management of blast injury. How do you do the 
medical management of blast at the same time you do the 
emergency management aspect at the same time do the law 
enforcement piece, because it is a criminal event? How do you 
not step on each other's turf?
    By bringing all the subject-matter experts together from 
the University, from the medical school, and from Robert Wood 
Johnson University Hospital, we are able to do it in one stop.
    Mr. Meadows. Okay.
    Mr. Louden, obviously, those who serve with you to serve 
the public know that when they are part of the Salvation Army, 
they are there with one specific calling. As you mentioned, 
that calling is really a higher calling than just giving out 
food or providing for the physical needs. So how do you most 
effectively know who you can count on to help and who you can't 
count on to help?
    Mr. Louden. That is a great question, Congressman. Thank 
you very much.
    The Salvation Army works year-round being prepared and 
exercising our teams, training, equipping. When the time comes 
for us to be called upon, we have established around the 
country response teams that are ready to move at a moment's 
notice, and, oftentimes, pre-stage for the event, if we know 
that the event is about to happen. So we have a pretty good 
idea of who we can call upon.
    Mr. Meadows. In every ZIP Code, as you were saying?
    Mr. Louden. In every ZIP Code across the country.
    Then, really, today for us represents a very helpful step 
forward in getting the message of the Salvation Army out, that 
we do partner and that many of our very effective partnerships 
are represented here today.
    Those partnerships occur on a daily, weekly, monthly, 
regular basis where we can continually be prepared, equipped, 
and informed so that we can respond to whatever the need might 
be.
    Mr. Meadows. I am out of time, so I would ask some of the 
others, if you would, if you could just respond in writing to 
us on the preparation and, obviously, Professor Bentley, on how 
we make them actionable when an alert comes in, if you could do 
that, respond to the committee, that would be very helpful.
    I yield back.
    Mr. Duncan. You can go ahead.
    Mr. Meadows. Professor Bentley, let me come to you, 
because, obviously, we cannot provide vehicles for every person 
who needs transportation. You have your emergency hurricane 
preparedness vehicle sitting out there, so that just doesn't 
work. So how do we best communicate the threat level? I would 
ask you to keep it concise, if you can.
    I also ask you to take off your lawyer hat who deals in 
facts and law, and put on your professor hat and give me maybe 
an opinion.
    Ms. Bentley. Thank you, sir.
    I think key for this, too, is the concept of engaging the 
public on a regular basis. As several other panelists have 
noted, people respond much better, and the research bears this 
out, they respond much better when they have heard something 
before. The first time you ask somebody to get onto a bus and 
go somewhere and they don't know where they are going, in front 
of a hurricane, that may give them pause. So building that 
understanding of some decisions they may need to make, some 
actions they may need to take, while the sun is shining, that 
is critical.
    Coca-Cola doesn't tell us one time to have a Coke, right? 
They tell us every day. We need to have that kind of approach. 
That is why it is labor-intensive. We have to engage the public 
on an on-going basis with clear, concise messages about things 
they may need to do and provide them the tools.
    Mr. Meadows. So who is in the best position to do that? 
Obviously, the Salvation Army does that, and Chatham County, we 
are familiar with that. Maybe it is partly churches. But when 
we count on the Federal Government to do that--and so you are 
not suggesting the Federal Government communicate on a daily 
basis. Because normally what that does is it gets in one of 
these little leaflets that has publication No. 104-5, and it 
collects dust until the event happens and then we are 
scrambling around, saying, ``Well, where is that?''
    Ms. Bentley. You are absolutely correct. That is my point. 
Like politics, all disasters are local.
    This is at the grass-roots level. This is local and State 
government, emergency management agencies, sheriffs' 
departments, Salvation Army chapters, with a coordinated 
message but an on-going effort. Let's go to the Rotary Club.
    The best emergency managers I have known have been people 
who work in the community on a day-to-day basis, engaging the 
community so that the plans and procedures for evacuation, for 
example, fit the end-user, so that they know how to avail 
themselves of public transportation out of town if they don't 
have access to a vehicle.
    We have several South Carolina counties that have about 4 
percent of the population without transportation, access to 
vehicles.
    Mr. Meadows. Thank you.
    I will yield back.
    Mr. Duncan. I will recognize myself for another round of 
questions.
    Dr. Hallstrom, I like the Intelligent River concept and 
what you have been able to do with the Savannah River. The 
Rubik's Cube and it has gotten smaller, and the amount of data 
it collects is just phenomenal. Transmission of that data is 
still something I can't grasp and wrap my head around.
    So take that concept, and you are talking about the 
Intelligent City project. In the post-Snowden days, where 
everybody is sensitive about personal information, what is 
being collected by the government, whether it is how you surf 
the internet, what you text, or conversations you may or may 
not have with loved ones, now we are going to have these 
components around the city monitoring God knows what.
    I sincerely mean, how do you feel that the general public 
will accept the whole concept of Intelligent City and data 
collection?
    Mr. Hallstrom. So thank you for the question. I think that 
the response both to our deployments within the Savannah River 
Basin for Intelligent River and also deployment within Aiken 
for Intelligent City and at the farm for Intelligent Farm, and 
other applications, the response has been tremendously 
positive. So we have worked very closely with the city, in the 
case of Aiken for Intelligent City, to make it clear what 
information we were collecting and what that information would 
be used for.
    So in the case of Aiken, we have a very strong platform 
that is for the public good. In particular, we are collecting 
information on stormwater, and we are looking at the city's 
capability to process that stormwater and to look at best 
management practices for improving the treatment of that 
stormwater, so we have a lesser impact on Hitchcock Woods.
    There are similar stories for the work that we are doing in 
the Savannah River. When you are collecting information on 
dissolved oxygen, collecting information on turbidity, there is 
a very strong explanation that resonates not just with agencies 
like the Army Corps and EPA, but resonates with the citizens 
who are very interested in water quality in that area.
    So in terms of negative public reaction to the information 
we are collecting through Intelligent River, I would say we 
have seen none within the last 7 to 8 years. It has been 
extremely positive.
    Now I would like to mention that for our buoy deployments 
in the Savannah, where you are putting in devices that look 
like large marker buoys, we have been careful to try to mark 
those devices with notes that indicate that this is for the 
public good, that this is a research program, and we are 
collecting general water quality and quantity data.
    So I think there is a public outreach component that needs 
to continue, to ensure that the public understands that this is 
for the good of all.
    But by and large, this has not been a problem for us.
    Mr. Duncan. That is tough to do in these days, where the 
public doesn't trust the Government, getting their acceptance 
of a level of data collection, regardless. I mean, there is a 
negative connotation.
    Look, I agree with General Alexander, that in order to find 
the needle in the haystack, you first have to have a haystack. 
But what the Government does, how long they hold that 
information--I see a connectivity here, a tie-in to this. I 
think this is absolutely the right thing to do to be able to 
pinpoint an activity and understand was that a car backfire or 
was that a gunshot? Was that a radiological device or something 
else?
    So I get the need for that information. I am just kind of 
talking off the cuff here about what I hear when it gets down 
to privacy. So this really ties in, and I know Mark wants to 
say something, but I want to ask Mr. Bottum, after you chime 
in, about cybersecurity. It is so important. But it is taken in 
the context today of this arena of privacy and secure data.
    So let me ask you to hold off, and I am going to let Mr. 
Meadows chime in here, and then I will come back to you.
    Mr. Meadows. Well, I want to pick up on that, where you 
left off, Dr. Hallstrom, and I will just make a comment, and 
then let Mr. Bottum respond.
    This whole privacy, when they see you out there collecting 
the data, they can say, well, OK, this is for clean water and 
we see that as great. You are the custodian of that data.
    The real problem comes in with whom to trust as the 
custodian of that data that you have collected for one purpose 
that might potentially be used for another.
    To give you an example, we talk about real and perceived 
threats. I can tell you that there are countries that have the 
ability right now to be listening to each one of you, listening 
to this over your iPhone that is probably turned off.
    Now I take that threat as so real, because I have been in 
Classified settings, that I don't leave my telephone in my 
bedroom or anywhere close to me even when it is turned off.
    Now I say that because all the people listening here say, 
oh, it can't be that bad, but it is like the person getting 
ready for the hurricane. If they believe that, it is not based 
in reality, I can tell you.
    So the real question is, if you are collecting it, or if 
somebody else is collecting it, who do you trust to be the 
custodian if we allow that breach of what I call a 
Constitutional firewall to be overturned for National security 
or whatever the issue.
    Sorry for the commentary.
    Mr. Duncan. I really did not intend to go down that, but 
this subject cannot be broached without considering privacy.
    So we are talking about cybersecurity. We are talking about 
how America can protect its infrastructure, and how private 
information is protected.
    So in these post-Snowden days, Mr. Bottum, how do we 
reassure our constituents?
    Mr. Bottum. I think what the Government can do is help the 
public understand the threats that we are under, and that is an 
education.
    There is a trust issue. There is no question about that. 
But people every day give away their information to Google, to 
everybody else out there that they think--I heard Brad Wheeler 
from Indiana University say recently, if you are getting a free 
service on the internet, you are not the customer, you are the 
bait.
    Basically, we are giving away our information every day. 
But I think, with respect, there is obviously a trust factor 
that the Government needs to work on. But the education of the 
public to know just how scary things are, when I get 
complacent, my chief information security officer is here, and 
I had a fellow named Gene Spafford back at Purdue. He had the 
first NSA Center of Excellence. When I feel myself getting too 
complacent, I go and talk to them for a while, just go in their 
office and listen to stories.
    It is very, very scary what is out there. I think the 
public understands that, and there is going to be an 
appreciation for why things need to get done.
    Mr. Duncan. We have broached a lot of questions that I 
wanted to ask as we have gone through this today.
    I really don't have anything further, so I am going to 
yield to the gentleman from North Carolina.
    Mr. Meadows. Let me ask just one, and I guess what I would 
like to do is, Dr. Lacy, very briefly, because we are running 
out of time, Dr. Hallstrom, Professor Bentley, there is the 
training that happens in universities each and every day. You 
have students who you are working with that are just like 
sponges, taking in this information.
    We send them out, having trained them, into the workforce, 
of which they go into an older system with this new knowledge 
that they may move the pendulum just a little bit, instead of 
actually being a vibrant part of the solution, where I see 
universities, land grant universities, wherever it may be, 
could truly--I visited N.C. State and saw unbelievable modeling 
that I said this needs to be, and I had just left the EMS 
Center in Raleigh, and I said the two of you need to be working 
together. Indeed, they are working together in a small way 
together, but really not a hand in glove.
    So very quickly, how can we do that? I will let the three 
of you comment.
    Dr. Lacy. Well, that is one of the key purposes of our 
institute. We work very, very closely with the public and 
private sectors, with the county, the State, the Federal 
Government, National and international organizations. What we 
do is, in our work with our students, our graduate students, 
our postgraduate trainees, the idea is to have them become 
change agents and work very, very closely with the public and 
private sector to be the agent who makes the change.
    There is a lot of inertia out there. But given a dynamic 
training program and dynamic individuals who join the 
workforce, there is an ability to do that. We see it happening.
    Mr. Meadows. Dr. Hallstrom.
    Mr. Hallstrom. So I am in the business of training students 
to build embedded network systems, largely for doing large-
scale sensing. One of the challenges that you face is ensuring 
that the students you produce and that you send out are able to 
work with agencies and work with folks across domain 
disciplines. That has been one of the major benefits of the 
Intelligent River program at Clemson, in terms of its training 
impact.
    So we brought in faculty from all across campus, from river 
ecology and environmental toxicology, to computer engineering, 
computer science, applied statistics. You are really training 
students to work across those disciplines. When you send them 
out, they are much more effective, in terms of working across 
those barriers.
    Mr. Meadows. So not just within their particular area of 
expertise, but across the dynamic.
    Professor Bentley.
    Ms. Bentley. I would agree that interdisciplinary approach 
is key to many of our degree programs. That is one of the 
reasons our program is homeland security and emergency 
management. At the bachelor's level, they get a comprehensive 
approach, and then they can specialize through electives and 
minor courses and other training.
    The other component of that is that I think we could do 
more. In the technology fields, we tend to have technology 
transfer requirements in many of the grant programs for 
education and scientific research. I think we can do better in 
having knowledge transfer--in other words, outreach to local 
and State emergency management and other agencies--to move some 
of the research that is in academia and some of our institutes 
in a more proactive way into the workforce and into the field.
    Mr. Meadows. I thank the gentleman for your leadership. 
Thank you for allowing me to participate in this question-and-
answer and committee hearing. Thank you.
    Mr. Duncan. I thank the gentleman from North Carolina.
    It is great to have Congress at Clemson. I want to 
encourage everyone to walk around this beautiful campus, walk 
around Bowman Field, look back up at Tillman Hall, and stay 
around until tomorrow and watch the Tigers beat Georgia State.
    I want to thank Clemson University, my alma mater, for 
allowing us to conduct this field hearing here. It is great to 
bring Washington down to where the rubber meets the road, and 
that is in the States and localities.
    I want to thank the witnesses for their testimony. I think 
both panels were fabulous.
    Members of the committee may have some additional 
questions. We just ask you to submit answers in writing. We are 
going to leave the record open for a little while, in case 
there is some other information that comes to light.
    With that, the subcommittee will stand adjourned.
    [Whereupon, at 3:37 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
